<html>
<title> - RESTRUCTURING VA MEDICAL SERVICES: MEASURING AND MAINTAINING THE QUALITY OF CARE</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
   RESTRUCTURING VA MEDICAL SERVICES: MEASURING AND MAINTAINING THE 
                            QUALITY OF CARE
=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 4, 1997

                               __________

                           Serial No. 105-88

                               __________

Printed for the use of the Committee on Government Reform and Oversight







                       U.S. GOVERNMENT PRINTING OFFICE
46-778                     WASHINGTON : 2003
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
         William Moschella, Deputy Counsel and Parliamentarian
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                    Subcommittee on Human Resources

                CHRISTOPHER SHAYS, Connecticut, Chairman
VINCE SNOWBARGER, Kansas             EDOLPHUS TOWNS, New York
BENJAMIN A. GILMAN, New York         DENNIS J. KUCINICH, Ohio
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARK E. SOUDER, Indiana              TOM LANTOS, California
MICHAEL PAPPAS, New Jersey           BERNARD SANDERS, Vermont (Ind.)
STEVEN SCHIFF, New Mexico            THOMAS M. BARRETT, Wisconsin

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Robert Newman, Professional Staff Member
                       R. Jared Carpenter, Clerk












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 4, 1997...................................     1
Statement of:
    Aversano, Daniel, LPN, veteran and Castle Point employee, 
      Kerhankson, NY.............................................   147
    Blumenthal, Jerome, veteran, Middletown, NY..................   151
    Bove, Anne, registered nurse and daughter of deceased 
      veteran, Woodside, NY......................................   174
    Buccieri, Anthony, veteran and Veterans of Foreign Wars and 
      Disabled American Veterans, Newburgh, NY...................   148
    Catania, James, veteran, VFW and American Legion, Walkill, NY   161
    Crowther, Guy, veteran, Port Jervis, NY......................   190
    Demarco, Ralph, veteran and representing 27 New York 
      veterans' organizations, Fishkill, NY......................   176
    Dobbs, Theodore, veteran and husband of deceased veteran, New 
      Hampton, NY................................................   178
    Dos Santos, Lawrence, deputy director, New York State 
      Division of Veterans' Affairs, accompanied by Thomas C. 
      Agnew, director, Orange County Veterans Service Agency; 
      Jerry Donnellan, director, Rockland County Veterans Service 
      Agency; Al Etkin, director, Sullivan County Veterans 
      Service Agency; and Jim Whoie, deputy director, Dutchess 
      County Veterans Service Organization.......................   125
    Farsetta, James, director, Veterans Integrated Service 
      Network 3, accompanied by Maryanne Musumeci, director, 
      Bronx VA Medical Center; Michael A. Sabo; director, Hudson 
      Valley VA Health Care System; and Dr. Nancy J. Wilson, 
      director, VA Office of Performance Management..............    40
    Fleck, Steven, veteran and Montrose employee, Poughkeepsie, 
      NY.........................................................   177
    Fleming, Harry, veteran and chaplain and scouting chairman, 
      Orange County American Legion, Middletown, NY..............   166
    Hinchey, Hon. Maurice D., a Representative in Congress from 
      the State of New York......................................     5
    Ianazzi, Robert, veteran and Vietnam Veterans of America and 
      Disabled American Veterans, Middletown, NY.................   189
    Ippolito, John, veteran and American Legion Post 1266, Pine 
      Bush, NY...................................................   175
    Jinks, Pam, veteran and Castle Point employee, Montgomery, NY   168
    Johannes, Richard, veteran, Pleasant Valley, NY..............   149
    Karabec, Ralph, veteran and commander, American Legion Post 
      480, Monroe, NY............................................   146
    Kelly, Gerard, veteran and Eastern Paralyzed Veterans 
      Association, Jackson Heights, NY...........................   164
    Kelly, Hon. Sue, a Representative in Congress from the State 
      of New York................................................    25
    Kowal, Jane, daughter of deceased veteran, Port Jervis, NY...   159
    Mangels, Shirley, daughter of deceased veteran, Ellenville, 
      NY.........................................................   166
    Mangieri, Silvio, veteran, Walkill, NY.......................   189
    Messina, Enrico, veteran and Castle Point employee, 
      Poughduag, NY..............................................   169
    Mileo, Gerard, veteran, Marlboro, NY.........................   179
    Monteleone, Edmund J., veteran, Clintondale, NY..............   144
    Moonan, Ray, veteran and Disabled American Veterans and 
      American Legion, Florida, NY...............................   160
    Morea, Daniel, veteran and assistant service officer, 
      Department of New York American Legion, ninth district 
      rehabilitation chairman, American Legion, Beacon, NY.......   151
    Mussolino, Colleen, veteran and national vice commander, 
      Women Veterans of America, Brooklyn, NY, on behalf of 
      Montrose Women Veterans of America.........................   162
    Novak, Bill, veteran and New York State benefits protection 
      officer, Department of New York Disabled American Veterans, 
      Middletown, NY.............................................   182
    O'Connor, Thomas, veteran and nurse manager, outpatient 
      services, Castle Point, Marlboro, NY.......................   163
    Parris, Ray, veteran, Washingtonville, NY....................   185
    Pinckney, Richard, veteran, Middletown, NY...................   191
    Pressley, Hugh A., Jr., veteran, Bronx, NY...................   192
    Reilly, Daniel, veteran and NFF 246, Beacon, NY..............   165
    Schiffman, Philip, veteran and New York VFW, Washingtonville, 
      NY.........................................................   153
    Schwartz, Sandra, veteran, wife of veteran and daughter of 
      deceased veteran and Disabled American Veterans Auxiliary, 
      Poughkeepsie, NY...........................................   172
    Shera, Craig, veteran and son of deceased veteran, Gardiner, 
      NY.........................................................   178
    Skyler, John, veteran and department commander, Department of 
      New York Disabled American Veterans, Cheektowaga, NY.......   187
    Spadaro, Ben, veteran and VA employee, Bronxville, NY........   184
    Trimble, Cindy, family of deceased veteran, Ganham, NY.......   147
    Van Clief, Helene, veteran and treasurer, Military Women and 
      Friends and member, Coalition for Fairness to Veterans and 
      VAVs, Bronx, NY............................................   187
    Wood, Gloria, wife of veteran, Pine Bush, NY.................   150
Letters, statements, etc., submitted for the record by:
    Agnew, Thomas C., director, Orange County Veterans Service 
      Agency, prepared statement of..............................   133
    D'Amato, Hon. Alphonse, a U.S. Senator in Congress from the 
      State of New York:
        Prepared statement of....................................    36
        Public submissions.......................................    38
    Dos Santos, Lawrence, deputy director, New York State 
      Division of Veterans' Affairs, prepared statement of.......   128
    Farsetta, James, director, Veterans Integrated Service 
      Network 3:
        Buyout plan..............................................    99
        Letter dated August 26, 1997, and draft report...........    64
        1997 Network Director Performance Plan...................   107
        Prepared statement of....................................    44
        VA survey................................................    55
    Etkin, Al, director, Sullivan County Veterans Service Agency, 
      prepared statement of......................................   138
    Hinchey, Hon. Maurice D., a Representative in Congress from 
      the State of New York, prepared statement of...............     9
    Kelly, Hon. Sue, a Representative in Congress from the State 
      of New York, prepared statement of.........................    28
    Shays, Hon. Cristopher, a Representative in Congress from the 
      State of Connecticut, white paper on news articles.........   156
    Whoie, Jim, deputy director, Dutchess County Veterans Service 
      Organization, prepared statement of........................   142














   RESTRUCTURING VA MEDICAL SERVICES: MEASURING AND MAINTAINING THE 
                            QUALITY OF CARE

                              ----------                              


                         MONDAY, AUGUST 4, 1997

                  House of Representatives,
                   Subcommittee on Human Resources,
              Committee on Government Reform and Oversight,
                                                    Middletown, NY.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
Walkill Community Center, Middletown, NY, Hon. Christopher 
Shays (chairman of the subcommittee), presiding.
    Present: Representatives Shays, Gilman, Kelly, and Hinchey.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; Robert Newman, professional staff member; and R. Jared 
Carpenter, clerk.
    Mr. Shays. I call this hearing to order. This is a hearing 
of the U.S. Congress. I apologize for the number of people who 
have to stand. This is a field hearing of the House of 
Representatives. We are going to demand absolute order in these 
hearings.
    Our witnesses are to be sworn in until we get to the third 
panel, and I'll clarify that in just a second. I would like the 
chief to make an announcement since----
    Audience Participant. Who are you, sir?
    Audience Participant. Who are you?
    Mr. Shays. Let me just be very clear. I will adjourn this 
hearing at a moment's notice if we do not have order. There is 
to be no catcalling. There is to be no response from the 
audience. This is----
    [Chorus of boos.]
    Audience Participant. We don't want to be treated like 
babies. [Applause.]
    Mr. Shays. Chief, do you want to make an announcement?
    Mr. Coscette. Yes. Good evening, everybody. My name is 
Chief James Coscette.
    We're not here to fight or go against you. I, myself, am a 
veteran. I'm proud to have you people here. And I'm sure the 
board will listen to what you have to say.
    My job here is the crowd capacity here in this Town Hall.
    My officers are here to help you and assist you. Please let 
us remain a calm, cool, collective, bargaining people, as 
yourself. You've done your time. You've represented us. And I 
thank you all for being here.
    The exits are at the front here, in the rear, and in the 
back. Please, ladies and gentlemen, keep the aisles clear for 
all people wanting to come up and speak.
    Thank you.
    Audience Participant. All right. A question was asked to 
the gentleman. All they wanted to know is who he was.
    Audience Participant. That's right.
    Audience Participant. That's all.
    Audience Participant. It's supposed to be a secret.
    Mr. Shays. Let me just welcome all of our witnesses. I'd 
like to welcome our guests as well.
    Audience Participant. Who are you? Who are you?
    Audience Participant. Who is speaking to us?
    Audience Participant. That's my question.
    Mr. Shays. This is the hearing of the Government Reform and 
Oversight Committee, the Subcommittee on Human Resources. We're 
the committee that oversees the Departments of Health and Human 
Services, Housing and Urban Development, Education, Labor, and 
also the Department of Veterans Affairs for waste, fraud, and 
abuse.
    This is the committee's first field hearing that we've had 
this year. And we're having it at the request of the three 
Congressmen you see seated next to me. The purpose of this 
hearing is to look at the quality of care of the Veterans 
Administration in this district and to consider whether the 
quality of care is improving or declining. We will stay and 
hear all our witnesses.
    My name is Christopher Shays. I am the chairman of the 
subcommittee.
    This is the same committee that has had 10 hearings on the 
Gulf War Syndrome. This is the committee why you know of 
Kamisiyah and why you know of some other problems in the 
Persian Gulf. We have been very active in veterans' affairs.
    We are here at the request of your three Congressmen 
because you have asked for this hearing. And we welcome you 
here today. But this is an official hearing of Congress. We 
have to have order. I really request that you provide us that 
order.
    And at this time, I would recognize Ben Gilman.
    Mr. Gilman. Thank you, Mr. Chairman. [Applause.]
    I want to welcome all of our veterans who have taken the 
time out of their busy lives to be with us today. I want to 
welcome also our Veterans Administration officials who are 
here. We have Mr. Farsetta, who is the regional director. We 
have Maryanne Musumeci, who is also a regional director, now 
the head of the Bronx VA hospital. We have Mr. Sabo, who is the 
new Castle Point director. And we have Dr. Nancy Wilson, who is 
one of the program directors with the Veterans Administration. 
We thank our panelists for being here with us.
    Can you hear us in the back all right?
    [Chorus of yeses.]
    Mr. Gilman. And I'm pleased that we're joined here with 
Congresswoman Sue Kelly, who represents a portion of this 
county and other adjoining counties. And Congressman Maurice 
Hinchey represents the areas north of us and also a portion of 
Orange County. [Applause.]
    And I urge you, please, give respect to our panelists and 
to our witnesses. And we're going to try to move along as 
quickly as we can.
    If I might, Mr. Chairman, I'd like to give an opening 
statement at this time. Our fellow veterans and ladies and 
gentlemen, I want to, first of all, express a great deal of 
gratitude to Congressman Chris Shays for willingness to arrange 
this hearing, to take time out of his schedule, to be over here 
in our area to address a very serious concern that we all have 
and to hold it in a forum that is accessible to our local 
veterans.
    As the ranking Republican on the Government Reform and 
Oversight Committee, I approached Chairman Shays last May and 
requested that his subcommittee initiate an investigation into 
the quality of care being delivered at Castle Point and at 
Montrose. I did this because we were not satisfied with the 
manner in which the VA was responding to the concerns of our 
veterans and their families who had come forward with their 
health care complaints.
    It's my opinion that it was the Veterans Administration's 
lack of compassionate response to the veterans' complaints that 
poisoned the atmosphere and eliminated a great deal of hope for 
a workable solution with our veterans in our local communities. 
Their concerns were obviously not being addressed adequately, 
and we felt that the congressional intervention was warranted.
    And many of you have probably heard of the plan developed 
by the VA to shift funding to geographic areas that have 
inadequate resources to meet their level of demand. This plan 
that was known as the Veterans Equity Resource Allocation 
Model, known as VERA, has resulted in health care funds flowing 
away from New York State to places like Arizona, Mississippi, 
and California.
    By now you're all undoubtedly aware that we have major 
philosophical disagreements with the proponents of that VERA 
program in both the Congress and the administration. I believe 
this plan is ultimately harmful to the veterans of the 
Northeast and, despite all assurances to the contrary, could 
result in a decrease in the quality of care provided. We hope 
that that will not be the ultimate result.
    The watch word for VERA has been ``efficiency.'' And, while 
we agree that there is a great deal of fat within the VA that 
needs to be trimmed, I would remind you that efficiency is not 
an unmitigated good. It's possible to go too far in scaling 
back services in the name of efficiency.
    We've heard much in the last year about the need for the 
Veterans Administration to model private sector health care. To 
a certain extent that may be needed, but the private sector 
example is certainly not a panacea to all of our problems.
    Many of you have heard some of the horror stories about 
HMOs that have cut back too far in quality care and place the 
bottom line on profitability before patient care. That 
certainly must not be allowed in our Veterans Administration 
facilities.
    Unlike other so-called entitlements, veterans' health care 
benefits were earned through blood and sacrifice. And, for that 
reason, the Veterans Administration has a public duty to our 
veterans and to the American taxpayer to deliver health care 
that's equal or superior to that in the private sector.
    The Veterans Administration is, in essence, the steward of 
our veterans' health. In maintaining that stewardship, the VA 
should not repeat the mistakes of the private sector with the 
streamlining of health care.
    We intend to keep a close eye on the quality of care which 
the VA delivers in Network 3. And that's our own region, 
especially in the area of specialty care. And what we have seen 
so far has not been encouraging.
    As I have noted in the past, the Veterans Administration 
has a major credibility problem with our New York congressional 
delegation and with the veterans that use both Castle Point and 
Montrose. The evidence from this past spring shows that this 
network and its administrators forgot about the human side of 
VA health care. And we have no illusions that it was only 
public exposure and the threat of congressional intervention 
which forced them to reevaluate their positions.
    Regarding the general public, the VA response to those 
whose complaints appeared in the paper was, ``Left a lot to be 
desired.'' Those stories may very well have been anecdotal, but 
it was grossly irresponsible for the hospital and the VISN 
officials. To publicly state so simply because each complaint 
was unable to be immediately verified did not make them any 
less important.
    The tactic of dismissing patient and family experiences as 
unimportant certainly was counterproductive and gave the 
appearance that the VA had something to conceal. If nothing 
else, the officials of Network 3 owe these veterans and their 
families an apology for the treatment they did receive when 
they came forward.
    It has also been the distressing trend of some VA officials 
in Washington to consistently attempt to shift the fault for 
this situation over to the Congress, stating that the Congress 
had under-funded VA health care in the past. These charges had 
been leveled despite the fact that the Congress traditionally 
meets the President's request for health care funding and, as a 
matter of fact, gave the Veterans Administration more funds 
than ever before in last year's budget. In fact, last year VA 
officials testified that they did not want any additional funds 
for this fiscal year.
    The administration has proposed a flat budget until the 
year 2002, which will treat up to 20 percent more veterans. The 
VA claims that that's possible without any additional funds due 
to savings from efficiencies and retention of third party 
reimbursements. That remains to be seen. We hope that they will 
be able to retain those third party reimbursements, and we're 
trying to make that possible through statutory language.
    So we in the Congress have repeatedly stated that we're 
willing to work with the Veterans Administration to address the 
ongoing issues of quality of care. And if more funds are needed 
to assure proper care, we want to know about it and we're going 
to try to help them get the kind of funding they do need.
    Moreover, those of us in the Congress may often have some 
significant ideas which do warrant experimentation. For 
example, last week I suggested to Dr. Kizer, the Medical 
Programmer in the VA, and Secretary Gober, our new 
Administrator, that Castle Point should contract out with local 
hospitals for inpatient surgical procedures, rather than 
transporting patients all the way to Albany or the Bronx, which 
incurs needless costs--[applause]--and which places undue 
stress on our veterans. Secretary Gober agreed to work with us 
on that issue as well as on doctor certification. And we hope 
to hear more about those subjects today.
    So, in closing, let me say that it's our hope that this 
hearing today--and I speak on behalf of my fellow Congressmen 
over here--will serve as a first step toward improving the 
strained relationships between Castle Point and its patients.
    And we look forward to the release of the report detailing 
the findings of the medical examiner's investigation of Castle 
Point as well as the results from a study that Congress is 
requesting from the Government Accounting Office on the effects 
of VERA.
    In the interim, I hope that those of you who have come 
forward with specific problems about care at Castle Point will 
have your situations either rectified or, if this is not 
possible, receive just and proper compensation.
    Again, we thank you for being here. We're here to try to 
resolve problems. Let's try to work together in those 
directions. Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Gilman. [Applause.]
    This hearing was at the request of Ben Gilman, who I failed 
to mention is a member of this subcommittee besides being 
chairman of the International Relations Committee; also, Sue 
Kelly, on the Republican side of the aisle.
    Mr. Hinchey, on the Democrat side of the aisle, as well, 
has expressed bipartisan concern about this issue. And at this 
time I'd like to recognize him.

   STATEMENT OF HON. MAURICE D. HINCHEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Hinchey. Thank you very much, Mr. Chairman. And good 
afternoon, ladies and gentlemen, and welcome to this hearing. I 
also want to welcome and thank our chairman, the chairman of 
the subcommittee, Chris Shays, who represents a congressional 
district in Connecticut, for holding this first field hearing 
on this subject here in our area in the mid-Hudson Valley. We 
appreciate your coming here. We want you to feel welcome. We 
know that you are joining us in a resolve to solve this problem 
on a bipartisan basis, and we very much appreciate your being 
here.
    I want to say also that this hearing is held in honor and 
respect of the service and sacrifice of American veterans, and 
I want everyone in the audience to understand that. That is why 
the committee is here. We are determined and resolved on a 
bipartisan basis to ensure that the quality of care that is 
afforded for veterans improves and that it maintains the 
highest standard possible.
    Mr. Chairman, I have a longer statement that I will submit, 
but I have a precis of it that I would like to read into the 
record at this time.
    Mr. Shays. Sure.
    Mr. Hinchey. I believe we would all agree that the purpose 
of the veterans' health care system is to assure our veterans 
that they will always have access to quality health care. That 
has changed and evolved over the years, as it should, but that 
commitment remains its core purpose.
    Today many veterans do not come to the VA for health care, 
often because they do not need to and sometimes because it is 
inconvenient and sometimes, unfortunately, because they have 
lost confidence in the ability of the VA to provide the kind of 
health care that they need. [Applause.]
    They use non-VA facilities. The cost is often covered by 
Medicare or by employer-paid insurance. The VA now recognizes 
that it is not always convenient or appropriate to provide care 
at its hospitals and has begun developing outpatient clinics 
and other means of providing services to veterans closer to 
home. I think the VA deserves to be commended for this effort, 
but that is not justification for allowing the quality of care 
at VA health care facilities to decline.
    That should not mean that the commitment to provide quality 
health care at its own hospitals should be relaxed or 
abandoned. The VA hospitals should continue to provide quality 
services to those veterans who continue to need those services.
    I am deeply concerned that, for whatever reason, the 
quality of care at Castle Point has deteriorated. There is no 
question that many of our veterans in this area have lost their 
confidence in Castle Point and to a considerable degree in the 
VA itself.
    Audience Participant. Did your wife die there? Mine did.
    Audience Participant. That's true.
    Mr. Hinchey. All of us who are here today and who represent 
veterans in the Hudson Valley have lodged numerous complaints 
with the VA about the situation at Castle Point. We have had 
numerous meetings about Castle Point with VA Administrators, up 
to and including Secretary Brown and now Acting Secretary 
Gober. I think it is fair to say that we know our complaints 
have been heard, we know that the VA is paying attention, but 
we do not know if the problems are being resolved in a way that 
addressees the needs and concerns of the veterans that Castle 
Point is supposed to serve.
    In my written statement for the record, I have included 
several detailed case histories of serious problems that some 
of my constituents have encountered at Castle Point. I want to 
emphasize that the cases in my statement represent only a small 
sampling of the many complaints that I have received.
    I have been deeply disturbed not only by the number of 
complaints but also by the wide range of problems that have 
been reported to me through my office. They include allegations 
of: misdiagnosis by health care personnel, particularly 
doctors; errors in treatment; and surgical mistakes that 
suggest serious incompetence. They include complaints about 
poor relations between doctors and patients and the inability 
of doctors to communicate effectively with patients, a problem 
that Under Secretary Kizer--[applause]--a problem that Under 
Secretary Kizer confirmed in our most recent meeting. With 
regard to those complaints, I can announce to you today that 
the Members of Congress seated at this table have just 
introduced legislation that I have written--we have introduced 
it on a bipartisan basis--which will require that all doctors 
providing health care at VA facilities must be licensed to 
practice medicine in the State in which the VA facilities are 
located. [Applause.]
    We will also require in this legislation that vital 
statistics, including death records, be filed with the 
appropriate State agency, including the State health 
department, and not be restricted only to the VA itself in the 
future. [Applause.]
    I want to emphasize that this legislation is being 
introduced by the members of the committee seated here, 
Democrats and Republicans, on a bipartisan basis.
    The complaints that I have received are about shortages of 
professional nursing staff and allegations that patients have 
been neglected as a result of these shortages. I have heard 
allegations as well about unsanitary conditions, poor 
maintenance of the facility, and the misapplication of funds.
    Many of our veterans have expressed concern that the VA may 
be ignoring these problems because it is concentrating too much 
effort on more abstract management issues; most importantly, 
the shift of funding known as VERA, which Mr. Gilman mentioned 
a few moments ago.
    The VA has told us repeatedly that VERA would not reduce 
services or compromise quality of care at Castle Point, but 
that is what seems to be happening. Services has been reduced. 
Quality has been compromised.
    Under Secretary Kizer recently told us that there were 
notable problems at only four VA facilities that were being 
consolidated, but he did not include Castle Point on that list. 
We want to make it clear that we believe the problems at Castle 
Point are, in fact, quite notable and need to be addressed 
vigorously and immediately.
    Audience Participant. ``Notorious'' is the word.
    Mr. Hinchey. I want to make it clear that I believe these 
problems need to be straightened out.
    As the committee knows, I have requested that the VA's 
Inspector General conduct a thorough investigation of the 
problems at Castle Point, including reports of an increased 
mortality rate, declining quality of care, quality and adequacy 
of the staff, and the effects of resource allocation on Castle 
Point. We will be eager to see that study when it is completed.
    My office is making available to the Inspector General 
specific case histories that have come to our attention so that 
the Inspector General will be able to direct the attention of 
his office to those specific complaints and examine in detail 
specific cases where severe problems apparently have occurred.
    We will be eager to see the study when it is completed. In 
the meantime, I hope the committee will consider some of the 
broader questions about government management and VA management 
itself that this situation has raised.
    Specifically, these issues are some of the issues that 
concern me, and here they are. Is management of VA health care 
being driven by computer analysis and allocation formulas while 
actual day-to-day conditions and the concerns of individual 
patients and their families are being ignored? If so, we need 
to remedy that situation immediately.
    Does the problem lie with applying uniform rules and 
standards and salary schedules across the country? Is it 
harder, for instance, to find good physicians and nurses here 
in New York than, for instance, in Salem, VA or other places in 
the country?
    Would the problems be alleviated if there were better 
communication between VA administrators and the veterans 
themselves? Is it possible to require clearer communications, 
as in the regulatory process, for instance? We have heard 
constant complaints that veterans' concerns are ignored, that 
they are not notified about changes in the services provided, 
and that they are not consulted adequately, even with regard 
often to their own care.
    Finally, and perhaps most importantly, are the problems 
attributable to a shortage of funds? VA administrators have 
suggested this to us on several occasions, and I have asked 
several times if they need more money to provide the services 
veterans expect and deserve. We have not had an answer to that 
question.
    Congress may be at fault here by imposing arbitrary budget 
ceilings. The Administration may be at fault in its budgeting 
process. We need to know the answers to these questions.
    But if cold, hard budget decisions made in an analyst's 
office in Washington mean that a diabetic veteran in New York 
is left unmonitored and ignored, then the public needs to know 
that.
    The Veterans Administration has suggested to us that this 
may be the case. We need to know the answers to these 
questions. And upon getting the answers to these questions, we 
need to ensure that these issues are dealt with adequately, 
forthrightly, competently, and completely. And that is the 
purpose of this hearing.
    And, Mr. Chairman, I thank you for being here and giving us 
this opportunity. [Applause.]
    [The prepared statement of Hon. Maurice D. Hinchey 
follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Shays. This committee is holding this field hearing, 
again, at the request of Mr. Gilman and Mr. Hinchey as well as 
Sue Kelly. And, Ms. Kelly, you have the floor.

STATEMENT OF HON. SUE KELLY, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Ms. Kelly of New York. Thank you very much, Chairman Shays. 
I want to thank you for holding this hearing and for respecting 
the veterans in this area who use Castle Point and Montrose 
facilities enough to come up here to the district and listen to 
what they have to say to the Veterans Administration.
    I think this is an important hearing. I especially 
appreciate the opportunity in light of the recent reports that 
we've had of diminished quality care at both Castle Point and 
Montrose. I can't think of a more important issue for veterans 
nationwide than ensuring the Federal Government maintains its 
commitment to provide high-quality health care to them and for 
their service for our Nation.
    The question here is really: Is the present veterans' 
equitable resource allocation, VERA, model and the manner in 
which it has been implemented good for the Hudson Valley 
veterans or just those in select areas of the Nation?
    I can tell you now, Mr. Chairman, that I have very grave 
concerns that today's VERA model shirks this Nation's 
commitments to New York's veterans. In this area of the 
country, in our network, we're taking the largest cut of any 
other network in the Nation, a 15 percent cut in overall 
veterans' health care funding, which translates into a nearly 
$150 million cut. Yet, we have the highest number of veterans 
who need special care and the fourth highest number of veterans 
who need medical care.
    It's the laudable goal of the VA to ensure that veterans 
receive the same high-quality care Nationwide at any medical 
care facility, but I believe all here would applaud this goal. 
However, the problems begin with the VA's implementation of 
robbing Peter to pay Paul, taking from one network to give to 
another.
    The logic behind these actions appears to be flawed in 
several respects. First, the funds are being reduced in our 
network. And they are not being taken because of a lack of need 
in one area but for a seemingly greater need in another.
    Also, we can't possibly take into consideration all of the 
reasons that one area historically receives greater funding due 
to factors that are difficult to measure, such as regional 
differences in cost of living, wage scale, as well as the 
presence of older and sicker patients.
    In the General Accounting Office's May 1, 1997, report on 
the VA health care assessment of VA's fiscal year 1998 budget 
proposal, the GAO notes a number of similar warnings about the 
implementation of VERA, including VERA may shift some resources 
inappropriately because it may not fully account for 
justifiable differences in regional cost variations. The VA may 
not have taken into account, for example, that veterans are 
sicker and need more health care services in different parts of 
the country so that additional case mix adjustments may be 
necessary to fully explain regional cost differences. And 
VERA's incentives for lower cost per veteran and higher 
workload numbers could lead to unintended consequences.
    A second flaw that I find is that if the VA has been 
instituting broad-based eligibility reform proposal, which is 
supposed to expand the number of veterans that each network 
will serve while at the same time implementing the VERA plan, 
how can the VA even begin to accurately calculate the number of 
eligible veterans requiring care in the present system or even 
forecast future enrollment numbers? Further, how can the VA 
accurately track the real-world impact of the reforms while 
they're shifting money from network to network? Shouldn't they 
wait until they know what the numbers are?
    Additionally, and more to the point, my greatest concern is 
that these reforms will result in a reduction in the quality 
and accessibility to health care that veterans deserve and 
depend on.
    As we speak, the VA's medical inspector's office is 
finalizing its in-depth examination of conditions at Castle 
Point and Montrose, but the results won't be available for at 
least 2 to 3 months.
    Additionally, while we are trying to get to the bottom of 
these reports, we have the network leadership making blanket 
statements about their ability to deliver quality care without 
waiting on the medical inspector's reports or even the final 
Joint Commission on the Accreditation of Hospitals' report.
    The VA has a credibility gap, to say the very least. And to 
fault these types of correspondence against the present 
backdrop does nothing to restore the full faith and confidence 
of our veterans in their VA system.
    It's because of these latest actions on the VA's part that 
I'm looking forward to an impartial, unbiased audit of our 
network by the GAO whereby they will be reviewing the human 
impact of the VERA model on the VA's ability to deliver quality 
health care in New York. This is the language which I and many 
of my colleagues here work to secure in the fiscal year 1998 
VA/HUD appropriations.
    Our veterans, like all citizens, deserve answers from their 
government that are clear and truthful. And I'm sorely afraid 
that we have not yet reached this point. Hopefully this GAO 
study will shed some much needed light on some of the 
unintended consequences of VERA's implementation.
    So while we have no idea what the GAO may or may not 
conclude in their reports, I have faith that they will conduct 
at least a fair and honest accounting of the situation, just as 
they have in their past reviews of the VA and the VERA program.
    Finally, Mr. Chairman, I'd like to close by quoting the 
same May 1997 report I cited earlier, which concluded that 
delaying a decision on VA's legislative proposals until 
critical information is available, including a plan describing 
how the system will look and operate in 2002, may result in a 
better legislative decision on the VA's budget proposal. It 
will also afford the VA and the Congress better time to assess 
how VA's future resource needs may be affected by the new 
decentralized management and resource allocation initiatives.
    This is a very important point. It is this very delay I've 
been pressing for over these past 9 months. I will continue 
working for high-quality medical care that is immediate and 
accessible for all of our veterans until we get all of the 
answers.
    I look forward to the testimony of our witnesses. And thank 
you, Mr. Chairman, for allowing me to take part in the 
proceedings. [Applause.]
    [The prepared statement of Hon. Sue Kelly follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. I want to thank all of you because I know a 
number of you are standing. Let me just say that for some of 
you who are sitting, maybe in an hour or so you will be able to 
relinquish your chair to someone who is standing.
    This hearing will probably go on beyond 5 o'clock today. 
Let me just state how we are going to proceed. We have two 
panels that will be addressing this subcommittee. We will be 
asking them questions. And the third panel will be people from 
the audience, who will be invited at random to address us and 
make the points that you would like to make. I will tell you as 
the chairman of this committee I will stay here quite a long 
time to make sure that we hear from as many people as possible.
    We are transcribing this hearing. We have an official 
record of this hearing. And I want to say to all of you the 
purpose of this hearing is to make change. We want to learn as 
much as we can learn.
    And I just need to get one housekeeping part taken care of 
and, ask unanimous consent that all members of the subcommittee 
be permitted to place any opening statement in the record and 
the record remain open for 3 days for that purpose. And, 
without objection, so ordered.
    And I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
And, without objection, so ordered. And I will invite anyone 
from the audience as well to submit a written statement, and it 
will be part of the record and will be reviewed.
    [The prepared statement of Hon. Alphonse D'Amato and public 
submissions follow:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Shays. We will not be taking questions from the 
audience, but at this time we will be inviting our witnesses. 
Our first witness, Mr. James Farsetta, who is the Director of 
Veterans Integrated Service Network 3; accompanied by----
    [Chorus of boos.]
    Mr. Shays. May I make a request? I have to have enough 
faith in all of you here that you will recognize that the 
purpose of this hearing is to get the truth. I can welcome 
applause. I can welcome applause for issues you agree. But I 
can just say to you from the bottom of my heart we cannot have 
you be rude to people. That is the one request I make. And I 
make a request that you respect the work of this committee for 
being here and that we will learn and make the changes 
necessary.
    And, as a Member of Congress, I do not place all the blame 
in one direction. Congress has to take some of the blame. The 
administration has to take some of the blame as well.
    We will get to the truth. We will get to the truth. And at 
this time, Mr. James Farsetta, who is the Director of Veterans 
Integrated Service Network 3; accompanied by Ms. Maryanne 
Musumeci, who is the Director of the Bronx VA Medical Center; 
accompanied by Mr. Mike Sabo, Director, Hudson Valley VA Health 
Care System. We will also be hearing testimony from Dr. Nancy 
J. Wilson, Director, VA Office of Performance Management.
    As is the practice of this committee, we swear in all our 
witnesses who will be testifying, even Members of Congress when 
they testify. And I would invite all of you to stand up and 
raise your right hand, please.
    Do you solemnly swear or affirm that the testimony you will 
give before the subcommittee will be the truth, the whole 
truth, and nothing but the truth?
    Mr. Farsetta. I do.
    Ms. Wilson. I do.
    Mr. Sabo. I do.
    Ms. Musumeci. I do.
    Mr. Shays. For the record, all four have stated in the 
affirmative. Mr. Farsetta, it's very nice to have you here 
today, sir. Thank you very much. You may begin.
    Mr. Farsetta. Thank you.

  STATEMENTS OF JAMES FARSETTA, DIRECTOR, VETERANS INTEGRATED 
SERVICE NETWORK 3, ACCOMPANIED BY MARYANNE MUSUMECI, DIRECTOR, 
  BRONX VA MEDICAL CENTER; MICHAEL A. SABO; DIRECTOR, HUDSON 
    VALLEY VA HEALTH CARE SYSTEM; AND DR. NANCY J. WILSON, 
         DIRECTOR, VA OFFICE OF PERFORMANCE MANAGEMENT

    Mr. Farsetta. Mr. Chairman, Congresswoman Kelly, 
Congressman Gilman, Congressman Hinchey, veterans, family 
members, community leaders, community individuals, thank you 
for the opportunity to appear before the subcommittee and 
provide information regarding the restructuring of services and 
the quality of care at the Castle Point and Montrose VA Medical 
Centers.
    As you know, in recent years VA had been receiving mounting 
criticism from Congress, General Accounting Office, private 
health care systems, and veterans about being a bureaucracy 
that cared for too few veterans with too many hospitals and too 
many beds. In acknowledgment of these varied concerns, the VA 
health care nearly 2 years ago adopted a new vision for how 
veterans' health care would be delivered.
    Dr. Kizer, the Under Secretary of Health, published his 
``VISION for CHANGE.'' In that document, which was shared with 
Congress and other stakeholders, he outlined a plan to 
streamline the bureaucracy, reduce excess staffing, close 
unused beds, improve patient satisfaction, and shift resources 
to take care of more veterans on an outpatient basis closer to 
their homes. A new network structure of 22 Veterans Integrated 
Service Networks, VISNs, was set up to ensure quality care and 
improve efficiency. During the past 2 years, VHA has undergone 
tremendous change throughout the entire system, including New 
York.
    The private sector health care community has called this 
change innovative and remarkable and has said, ``It is about 
time.'' In the New York/New Jersey VISN, we have been doing 
many things that our colleagues have been doing across the 
country. We have carefully monitored the pace of change to 
ensure that care has not been affected. Many of our overall 
care indicators with respect to quality have actually improved. 
In addition, patient satisfaction across the network has also 
improved according to recent surveys.
    The VA serves a patient population that is older, more 
burdened with disease, and has more problems overall than those 
seen by other health care providers. Please understand that 
these risk factors would not excuse even a single occurrence of 
flawed care, but mistakes occur in every system in which people 
are involved in something as difficult as health care.
    However, with these allegations of poor care, we take them 
very seriously. When those indicators come from within our own 
monitoring system or come from the veterans themselves, we do 
what it takes not only to make things right but to ensure that 
the situation doesn't happen again.
    We have carefully reviewed each case that has been brought 
to our attention during the past few months either by the 
media, our elected representatives, veterans, or veterans' 
family members. It troubles me deeply about the stories of poor 
care. And if I didn't say it before and if we didn't say it 
earlier, I want to offer my personal apologies to any veterans 
and their families for care that we did not provide that we 
should have provided.
    We can all understand the pain of a family member whose 
sole purpose is the compassionate care and treatment of their 
loved ones. Our veterans have earned this care because they 
gave so much of their service to this country. And the only 
reason that we are here today is because of that service.
    For those cases that have been spotlighted, I want every 
patient and family member to know that we are working to ensure 
that their concerns are fully addressed and that any failures 
that may have occurred never happen again. This is my first 
priority and, therefore, the priority of each and every staff 
member at Castle Point and Montrose and in the rest of the 
network.
    For highlighting many of these incidents, I want to thank 
our congressional representatives and our service organization 
leaders for their undying concern and efforts on behalf of our 
veterans.
    We do acknowledge that there are some longstanding issues 
that are cause for concern I am not completely satisfied with 
the overall physical plant and cleanliness of the environment. 
There are problems with waiting times to see care-givers, waits 
to get appointments, and waits at our pharmacies. Our standard 
expectations for basic customer services are not being met as 
often as they should be. There are also issues with staff-to-
patient communication and staff-to-family communication that 
also exist. These problems are either being addressed or have 
been addressed. And I won't be satisfied until our patients and 
family members tell us that they are satisfied.
    As I have said before, I will never tell you that every 
veteran who enters our hospitals or clinics gets perfect care. 
I can't say that because we could never achieve 100 percent 
perfection. I will tell you, however, that Castle Point and 
Montrose VA Medical Centers and Nursing Homes took care of over 
16,000 veterans during the past year. And the vast majority of 
those patients are pleased with the care that we provide.
    Our monitors, both internal and external, as well as 
discussion with veterans and their families indicate that the 
care provided in the VA Hudson Valley Health Care System is 
quality health care. However, to provide us with even greater 
assurance, I have asked the two medical centers to contact a 
large sample of families of our inpatients to see if the 
allegations of systematic substandard care were true or 
perceived to be true.
    I am happy to report that the overwhelming majority of 
families, patients who were contacted are very satisfied with 
the care that they received. However, there clearly is a 
problem as evinced by the people in this room today. And I and 
my staff are here to listen to their concerns.
    As for the VA medical inspector's visit, we anxiously 
await, as do the congressional representatives, the results of 
the team's review of the care provided to our veterans. I 
initially requested the review by the Office of Medical 
Inspector and have ensured that the Hudson Valley Medical 
Centers provide full cooperation in this important analysis. I 
can tell you that we are not waiting for the final report to 
make changes to further ensure the quality health care of our 
veterans.
    Mr. Mike Sabo, who is the new permanent Director of the VA 
Hudson Valley Health Care System, has experience in operating a 
large two-division hospital. He brought that experience to the 
Hudson Valley and followed up with his excellent work at the 
Brooklyn VA Medical Center.
    This was also followed by the excellent work done by Ms. 
Maryanne Musumeci, who was at Montrose-Castle Point for the 
past 3 years attempting to deal with a number of issues that 
have been raised in the media and raised by our congressional 
representatives.
    Finally, in addition to serving over 3,500 brand new 
veteran users, we have also improved access and services to 
veterans in the entire Hudson Valley region. We have opened a 
new outpatient clinic in Rockland County and have just received 
approval for a clinic in Yonkers. We have also expanded 
services in White Plains, and have clinics currently in process 
for Kingston and Monticello. It is truly my desire to open a 
number of new clinics in all corners of the Hudson Valley to 
better serve our veteran patients. Veterans who use these 
clinics are overwhelmingly satisfied with the services that are 
provided. A new mobile health van is also operating exclusively 
in the Hudson Valley to reach out to areas that have been 
under-served by the VA and to pockets of veterans in socio-
economically disadvantaged areas, as well as direct outreach to 
homeless veterans in our more urban localities.
    I want to thank you for the opportunity to share my 
thoughts with you today. Please be rest assured that our first 
priority is compassionate, high-quality care for our Nation's 
veterans. Anything less than that is unacceptable to me and the 
dedicated employees of the VA health care system.
    I will gladly attempt to answer any questions that any of 
you may have.
    [The prepared statement of Mr. Farsetta follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Shays. Thank you, Mr. Farsetta.
    Dr. Wilson.
    Ms. Wilson. I, too, thank the committee for the opportunity 
to attend this hearing and listen to the concerns of all 
veterans here today.
    VA has multiple strategies to assess and monitor and 
improve the quality of care that we deliver. A number of these 
include credentialing and privileging, accreditation programs, 
and performance indicators that measure how well we deliver 
bread-and-butter care to veterans across the country.
    In addition to that, we also have as one of our mainstays 
our customer feedback program that includes our patient 
advocacy program, our satisfaction surveys, and also our 
complaint assessment and tracking and resolution.
    In addition to that, we have an incident review process. 
And, in fact, we've recently, on June 6, implemented a policy 
to ensure that each and every incident that results in an 
untoward outcome be examined in depth to assure that that event 
never occurs again. Such events, described as sentinel events, 
will now be reported to headquarters within 48 hours of their 
occurrence along with the reviews and recommendations for 
system redesign.
    Our outside independent medical----
    Audience Participant. Hold it.
    Audience Participant. Hold it. Hold it.
    Audience Participant. Hold it.
    Mr. Shays. Slight recess.
    [Recess.]
    Mr. Shays. The committee will come to order. Dr. Wilson, 
you have the floor again.
    Ms. Wilson. Thank you.
    As I had said, on June 6, we implemented a policy to ensure 
that each and every incident that results in an untoward 
outcome be examined in depth to make sure that the system is 
redesigned in such a way as to prevent that incident from ever 
occurring again. And we now require that all such sentinel 
events be reported to headquarters within 48 hours of their 
occurrence along with the reviews and recommendations for 
system redesign. The failure to report may result in 
disciplinary action. These reviews will be assessed for their 
adequacy by our outside and independent medical inspector's 
office.
    In light of the need to listen to folks, that ends my 
testimony. And I will be happy to answer any questions.
    Mr. Shays. Thank you, Dr. Wilson.
    We will have questions, and we will begin with Mr. Gilman.
    Mr. Gilman. How about Dr. Sabo?
    Mr. Shays. No, no. My understanding was that they were 
accompanying you, Mr. Farsetta?
    Mr. Farsetta. Yes.
    Mr. Shays. And they will respond to questions and assist 
you? But we have two statements.
    Mr. Farsetta. Right.
    Mr. Shays. We want to get to the service representatives. 
Then we want to get to the members of the audience and allow 
them to address this committee.
    Mr. Gilman. Thank you, Mr. Chairman.
    I hope that the young lady in the back there is feeling 
better. I understand it was just heat exhaustion.
    Mr. Farsetta, could you please explain for the committee 
the VA's response to those allegations that appeared in our 
local newspaper which allege that the mortality rate at Castle 
Point doubled from October 1996 to April 1997? There's been a 
great deal of comment with regard to that information.
    Mr. Farsetta. Well, my response to that is that we have 
looked at all the data. We have gone back essentially 3 years, 
compared the mortality rate over that period of time. We see 
monthly fluctuation, but we see no marked change in the 
mortality rate at either Castle Point, at Montrose over the 
past 3 years.
    One of the newspapers in this area was given all the 
information that we had. They sent it out to an independent 
statistician. He reviewed the data. He arrived at the same 
conclusion.
    Dr. Wilson could probably respond to that question since 
they have also looked at the data.
    Ms. Wilson. Yes. The statistician in my office also looked 
at the data for the times in question and found no difference 
in the rate from 1996 to 1997 for those months. There's no 
statistically significant difference in the rates.
    Audience Participant. You can get stats to say anything you 
want.
    Mr. Gilman. Mr. Sabo, who is our new director of our Castle 
Point facility, can you tell us what's been done to improve 
communications between staff and patients since this situation 
started last May?
    Mr. Sabo. Thank you, Congressman. And it is a pleasure for 
me to be back in the Hudson Valley. Part of what I have 
instituted since I got there on July 20 was to re-energize 
patient councils in the nursing home units. This would be an 
attempt to try and solicit feedback from those patients on 
areas where they have concern with the quality of the food, the 
quality of the patient care, recreational activities.
    In addition to that, I've reinstituted family council 
meetings at both the Castle Point and Montrose facilities, 
whereby representatives of the families will have a venue to 
come in and talk about issues regarding the care being 
delivered at both places.
    I am going to be assessing our patient representative 
program to ensure that both of those--that's the ombudsman 
piece of our program--to make sure that they're actually 
listening to folks and that information is fed to me on a 
regular basis.
    I've met with many of the county veterans' representatives 
already and talked to them about their concerns they have 
toward the facility and spoke to families.
    I do have an open-door policy. If there are concerns, I 
certainly want to hear those. And I'll make every attempt to 
correct those areas that need to be corrected.
    Mr. Gilman. Thank you.
    Mr. Farsetta, you've already improvised a number of 
reductions in staff and some of the expenditures. What future 
reductions in staff and services can be expected in the next 6 
months?
    Mr. Farsetta. I'm not anticipating any future reductions in 
staff over the next perhaps year or two. I know that there was 
a letter that was distributed by Acting Secretary Gober or 
Secretary Designee Gober indicating that neither the Castle 
Point nor the Montrose VA facility will be closing.
    Our goal essentially is to in a number of areas, as I 
mentioned earlier, attempt to expand services so we could reach 
out to more veterans in the Hudson Valley area.
    I neglected to mention in my opening statement that in 
response to, I believe a comment made by, you, that the Chief 
of Medical Administration is currently meeting this afternoon 
with representatives from our other hospitals exploring the 
feasibility of providing some surgical services to the 
residents and veterans of the Hudson Valley area.
    Mr. Gilman. That would be contract services to the local 
hospitals?
    Mr. Farsetta. That's correct.
    Mr. Gilman. So they don't have to travel to Albany or to 
Bronx?
    Mr. Farsetta. That is correct.
    Mr. Gilman. Appreciate that.
    Dr. Wilson, you're in the--we're talking about Castle 
Point. Dr. Wilson, what are the short-term plans for the Castle 
Point facility and the long-term plans? We keep hearing that 
Castle Point may be eventually phased out. Can you tell us what 
your program people are doing with regard to Castle Point?
    Ms. Wilson. I would quote a letter from Dr. Kizer to the 
honorable Ben Gilman, Mr. Gilman, that says the Department of 
Veterans Affairs has no plans to close the Castle Point Medical 
Center.
    However, I would also like to reaffirm that in accordance 
with Network 3's strategic plan, the following are some of the 
anticipated changes in service delivery models and clinical 
care strategies, over the next fiscal year: integration of 
radiology, nuclear medicine, and lab services with the Bronx VA 
Medical Center, development of a consolidated kitchen 
throughout the network utilizing cook-chill technology, 
development of two to three community-based clinics in the 
Castle Point catchment area, and initiation of a community-
based mobile health van.
    Mr. Gilman. And then from what you're telling me, there is 
no immediate plan to close Castle Point. Am I correct?
    Ms. Wilson. That's correct.
    Mr. Gilman. Nor close Montrose. Is that correct?
    Ms. Wilson. That's correct.
    Mr. Gilman. Thank you.
    Audience Participant. Put it in writing.
    Mr. Gilman. My time has run, Mr. Chairman.
    Ms. Wilson. It is in writing.
    Mr. Shays. I just want to make sure that you all realize 
this is testimony under oath.
    Mr. Hinchey.
    Audience Participant. That don't mean crap.
    Mr. Hinchey. Ladies and gentlemen, first of all, let me 
thank you for some things that you have talked about here this 
afternoon in your testimony, which I think will be helpful and 
will improve care for veterans.
    First of all, Mr. Farsetta, you mentioned the establishment 
of clinics in Rockland County and in Westchester County and 
plans for a clinic in Kingston and one in Monticello. We have 
been working with you on these clinics, and I think that that 
is a very important and very positive step forward.
    Dr. Wilson, you mentioned that there will be a number of 
reports that will be issued if there are untoward incidents I 
think you put it. I think that is very good, but let me ask you 
a couple of questions about that.
    First of all, how would you define an untoward incident?
    Ms. Wilson. We define a sentinel event in the same way that 
the Joint Commission of Accreditation of Hospitals does, which 
is permanent loss of life, limb, or function. We also----
    Audience Participant. How many civilians have that?
    Ms. Wilson. Those sentinel events are what will be called 
into headquarters. They will be called from the facility to the 
network office within 24 hours of their occurrence and then 24 
more hours to the headquarters office. We will then track the 
results of the reviews of all of those events.
    Mr. Hinchey. Is this a new policy that you've recently 
implemented?
    Ms. Wilson. June 6, 1997.
    Mr. Hinchey. June 6 of this year? Will there be any outside 
review of those event reports?
    Ms. Wilson. The Medical Inspector's Office will review the 
adequacy of the reviews that are done by the facilities and the 
networks in addition to our headquarters team looking for 
system redesign issues that we might want to implement across 
the country.
    Mr. Hinchey. So there will be an outside objective analysis 
of those reports outside of the VA itself?
    Ms. Wilson. Yes.
    Mr. Hinchey. Mr. Farsetta, you mentioned in your report, in 
your statement, and what you say here is, ``Many of our overall 
care indicators with respect to quality have actually improved. 
In addition, patient satisfaction across the network has also 
improved according to recent surveys.''
    That statement strikes at the heart, really, of my concern 
because, first of all, it is counter-intuitive. Second, it runs 
counter to all of the evidence that we have seen over the 
course of the last couple of years. [Applause.]
    It is absolutely essential if we are going to get to the 
bottom of this problem--and I think we can all agree that there 
is a problem here. It is not just a problem of perception. 
[Applause.]
    It is a deep and abiding problem. If we are to get to the 
bottom of this, we, first of all, have to confront the 
situation honestly and objectively.
    And I must say to you, sir, that those kinds of statements, 
which I have heard you say before in private meetings that we 
have had and in meetings with the VA that we have had--I've 
heard you say those things before. And I just find it 
absolutely incredible because the fact of the matter is that we 
see time and time again documented examples that run completely 
to the contrary.
    Mr. Farsetta. I don't want to get overly defensive about 
that because, as I mentioned in my statement, there's clearly 
an issue here. I'm going to attempt to respond to that in two 
ways. The VA does a survey, and Dr. Wilson can speak about it. 
It's a scientific instrument that's mailed out to veterans. And 
veterans respond to that instrument.
    We have also hired the Gallup Corp. to take that instrument 
and utilize that instrument, mail it out to veterans in the 
network, specifically in the Hudson Valley area. And everyone 
doesn't get a questionnaire. It's sent out to a sampling, what 
they consider to be a statistically-significant sampling. It's 
mailed out.
    And what the survey says, the survey doesn't say that 
everybody is happy with everything that's going on. What the 
survey results indicate, that as compared to services that 
veterans received last year, they are happier this year than 
they were last year. It doesn't mean that there aren't many 
areas for improvement. I'm not suggesting that, and I wouldn't 
suggest that.
    [The survey referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hinchey. I think that it's important for us to look at 
this again comprehensively and objectively. And I am going to 
forward to you copies of the complaints that we have received 
in our office. They are numerous, one might say legional. And I 
know that the other members of the committee have received 
more, I believe, in most instances than I have.
    And I would ask that they be factored into this analysis so 
that we do not have a kind of rose-colored glasses analysis of 
this situation and that we look at it carefully and objectively 
and completely and do so in the context of the information that 
has come to us in addition to the survey that you have 
received.
    There is something called the ``Farsetta report.'' Now, I 
have not seen the ``Farsetta report,'' but I am anxious to do 
so. And I have asked the VA on several occasions if they would 
kindly make available to us a copy of that report. I hope that 
we will get a copy of that report directly so that we can give 
it some careful analysis.
    I know that the report was some time ago, but it has been 
reported to us that many of the actions taken by Under 
Secretary Kizer have been driven to a large extent by the 
recommendations contained in the Kizer report. Is that 
accurate?
    Mr. Farsetta. There certainly were recommendations in that 
report. I happened to chair a committee. And that report 
specifically was looking at some fairly substantial funding 
reductions in the VA.
    I think that as it relates, for example, to some of the 
integrations and as it relates to combining some administrative 
services, I think that there are similarities. But I don't 
think that there are many similarities or an overwhelming 
variety of similarities between the ``Farsetta report,'' which 
probably was done in maybe 1992, 1993 or 1994, and what's 
currently going on. There certainly are some items that are of 
a similar nature.
    [The letter and the report referred to follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hinchey. So the report, then, is 4 to 5 years old? It 
was done 4 or 5 years ago?
    Mr. Farsetta. Yes.
    Mr. Hinchey. OK. Again, I want that report to be available, 
not just to myself but to other members of the committee. I 
think it's important for us to look at it so that we can see 
what has been driving these actions and we could correlate the 
thinking that went on that occasioned some of the things that 
have been taking place within the VA. I think that's important.
    I mentioned the clinics. And I congratulate you on that. I 
fully support what you're doing in that regard. I think that is 
going to be helpful. And I think it will improve the quality of 
care.
    I also would make the observation, however, that it is not 
the outpatient care that is of particular concern. It seems to 
me based upon my observation that most people are fairly 
satisfied with the quality of care that is being delivered on 
an outpatient basis. That's the quality of care which would 
come from these clinics.
    [Chorus of boos.]
    Mr. Hinchey. That may not be the case. [Laughter.] 
[Applause.]
    So far as the information that has come to our attention, 
it is primarily the inpatient care----
    Audience Participant. That's right.
    Mr. Hinchey [continuing]. That is really at the larger part 
of the issue. So I think that while the clinics are going to be 
helpful--and I fully believe that that does not reduce the need 
for our commitment to assure that the quality of care 
internally continues to be good.
    Mr. Farsetta. I agree.
    Mr. Hinchey. Now, as I understand it, your intention is to 
contract out for the care of these clinics. Is my understanding 
correct about that?
    Mr. Farsetta. No. I think that we are going to be joint 
venturing with Network No. 2 in the Kingston clinic. And the 
model that they use is they do some contracting out for their 
community care, their outpatient care. And we're going to pilot 
with them. In some of the other clinics in Network No. 3, we 
have not gone to the contract model. We have used a staff 
model.
    There are some individuals, some veterans, who seem to like 
the contract model. We're going to try the contract model and 
see how it works and whether the veterans like it or not.
    Mr. Hinchey. I'm also aware of--you mentioned a few moments 
ago--let me put it this way--that there were no further 
reductions in staff that are being completed. But I know also 
that you've sent out information recently which talks about 
buyouts.
    Mr. Farsetta. Yes.
    Mr. Hinchey. Now, as a result of those buyouts, there will 
be a reduction in personnel at both hospitals. I think the 
number ultimately is something in the neighborhood of 28.
    Now, you were obviously considering that when you said that 
there would be no further reduction. So what you're saying is 
that after these 28 buyouts, there will be no further 
reductions in personnel contemplated?
    Mr. Farsetta. That's correct.
    Mr. Hinchey. That's correct.
    Mr. Farsetta. I apologize for not factoring that into 
consideration. And let me raise this and so I can be straight 
about it, that there are some positions that may be eliminated. 
OK?
    So we may eliminate any administrative position. And that 
job will not be filled, but then we will substitute someone 
else into that job in a different area, perhaps in a patient 
care area. So it is conceivable that 28 folks may leave, but 28 
other people may be hired in very different jobs than the 
people who were in those jobs.
    Mr. Hinchey. Well, that's nice to hear. However, I notice 
the word ``conceivable,'' and I am not comfortable with the 
word ``conceivable.'' If you are telling me that when these 28 
people leave and in the context of their leaving they will 
largely support administrative personnel, that you are 
analyzing this situation in a way that you expect to bring in 
additional health care personnel to fill those 28 blank 
positions, then I find some comfort in that. But if you're 
telling me that it's only conceivable, then I'm not 
comfortable.
    So how likely is it to happen?
    Mr. Farsetta. Since I'm on the road, I don't want to give 
you a definitive answer, but I will provide that information to 
you factually.
    [The information referred to follows:]


    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hinchey. My time is up, and I thank you.
    Mr. Shays. At this time, Ms. Kelly, you have the floor.
    Ms. Kelly of New York. Thank you.
    Mr. Farsetta, when you and your deputy directors are graded 
on your annual review, isn't it true that you're graded on the 
basis of your ability to implement the VA's long-term 
programming as written in the performance agreement, network 
director performance measures for the VISNs?
    Mr. Farsetta. That's correct.
    Ms. Kelly of New York. Are not four out of five incentive 
measures in your performance agreement based on fiscal, rather 
than patient care standards?
    Mr. Farsetta. No. Nancy, you may want to speak to that.
    Ms. Kelly of New York. I have that right here in front of 
me, and it looks that way to me. [Applause.]
    Ms. Wilson. That is not true.
    Mr. Farsetta. That's not true.
    Mr. Shays. Excuse me. I need you just to repeat whatever 
answer because we are transcribing this, and I just need to 
make sure your responses are clear. I'm sorry. Dr. Wilson.
    Ms. Wilson. They are not fiscal. Four out of five of the 
performance measures are not fiscally driven.
    Ms. Kelly of New York. How do you account for that when 
they're talking about incentive measures as being patient 
satisfaction is the last one listed, bed days of care per 
patient--that means cutting them--insufficiency in C&P exams? 
These are things listed as incentive measures--the ambulatory 
surgery, primary care enrollment--these are things listed as 
incentive measures.
    Ms. Wilson. I would like to speak to that. The patient 
satisfaction measure is one of the first times in the history 
of health care that administrators----
    Ms. Kelly of New York. Let's deal with the rest of them 
because that's the last one.
    Ms. Wilson. There is no order to them in terms of the 
listing that you have. Patient satisfaction is very definitely 
an outcome measure that is a quality outcome measure. And this 
is one of the first times in health care that administrators 
are held accountable for their very livelihood based on patient 
satisfaction scores.
    The chronic disease index is a measure of how well we do 
things like get eye exams for our diabetics, how well we assess 
their sensation in their feet, how well we check their pulses, 
whether or not we measure blood tests for them. Our ischemic 
heart disease measures relate to whether or not patients who 
have had a heart attack get aspirin or beta blockers, a 
medication that has been shown to save lives, how well we 
monitor their cholesterol management. Our obesity measures 
relate to giving counseling for weight and exercise. Our 
hypertension measures relate to----
    Ms. Kelly of New York. I'm sorry, but you're listing 
things. What I'm looking at is this incentive measures, where, 
in fact, I'm talking about in the top part of this agreement, 
it says, ``categorized by specific mission goals.''
    Ms. Wilson. I think that you have a document that is old.
    Ms. Kelly of New York. I have a document that is from the 
VA.
    Ms. Wilson. I wrote the 1997 performance measures 
agreement, and I can submit for the record every measure that 
is in there. I'm intimately familiar with them.
    Ms. Kelly of New York. This document is 4-17-96. Has this 
been rewritten?
    Ms. Wilson. It has been rewritten.
    Ms. Kelly of New York. This is the latest one that Dr. 
Kizer's office was able to supply us.
    Ms. Wilson. I will be happy to submit the 1997 performance 
agreements, where the majority of the measures are quality-
driven.
    Ms. Kelly of New York. Dr. Kizer said this was the latest 
one.
    Mr. Shays. Would the gentle lady yield?
    Ms. Wilson. It's a mistake.
    Mr. Shays. Just for the record of the committee----
    Audience Participant. Dr. Kizer comes up with----
    Mr. Shays. Excuse me. Excuse me, sir. Just for the record, 
just because we need to make sure we're clear on this, the 
document that Ms. Kelly asked you, the document that preceded 
the one that you worked on, was that the operative document?
    Ms. Wilson. That was the operative document between May 
1996 and October 1, 1996. The operative document for fiscal 
year 1997 is the one that you must not have. We were able to 
implement a number of quality indicators that were quantitative 
in the fiscal year 1997.
    In the fiscal year 1996, the quality indicators were 
instituting telephone triage, admission and discharge planning. 
There are a number of things on there.
    Mr. Shays. Dr. Wilson, let me just be really clear on this 
just because it would be in terms of candidness. When you were 
responding to a question, it sounded to me like this wasn't a 
document that had been adhered to by the VA. I just need to 
know what----
    Ms. Wilson. Oh, it was.
    Mr. Shays. In the document that she's referring to that 
preceded the reform, was this the way an individual was graded? 
Were those----
    Ms. Wilson. This was the way. This document represents how 
the network directors were graded between May and October 1996.
    Mr. Shays. So the candid answer would have been, ``This was 
the document used, but we have changed it?''
    Ms. Wilson. That would be the candid answer, but the other 
part of that answer would be that there are more quality 
indicators than financial indicators in that 1996 document.
    Mr. Shays. OK. Can we just take the 1996 document and 
just----
    Ms. Wilson. Yes.
    Mr. Shays. If you would just tell us what is different? And 
I would give back the floor to the gentle lady, who really 
controls the time here. She had five items. And I just need to 
know. You don't seem to have that document in front of you, but 
are they--is this the only document you have?
    Ms. Kelly of New York. I have another copy.
    Mr. Shays. You have another copy? Could you just tell us if 
that document represented a complete evaluation or what would 
have been left out of it?
    This was given to you by Dr. Kizer?
    Ms. Kelly of New York. It was given to me from two 
different VA sources: Dr. Hogan and Dr. Kizer. And they said 
that this was current.
    Ms. Wilson. If I may read the first sentence, ``The 
following measures have been chosen for inclusion in the 
network director's May to September 1996 performance 
agreements.''
    Mr. Shays. And in that, what are the items, just in that--
--
    Ms. Wilson. ``Hire your key personnel; write a strategic 
plan; implement telephone liaison programs at all facilities; a 
temporary lodging program; institute a system where people have 
beds available that don't need to be admitted to the acute care 
wards but are traveling long distance for outpatient 
procedures; admission and discharge planning programs; 
utilization review programs; clinical guidelines; functional 
assessment of spinal cord injury patients; not delaying 
prosthetic orders; primary care enrollment,'' which is the 
veteran saying there's somebody in charge of their care; 
``ambulatory surgery, which is a financial utilization measure; 
insufficient C&P exams'' means that when the veteran comes for 
a C&P exam, a comp and pen exam, it's done adequate the first 
time. ``Bed days of care'' is a financial utilization measure.
    Mr. Shays. Does this represent--I appreciate the gentle 
lady yielding me back her time for a second. Does this 
represent what new mandates in addition to other mandates that 
exist or is this the total in which a supervisor is going to be 
evaluated?
    Ms. Wilson. This is part C of an overall performance plan, 
where there is a part A and a part B as well.
    Mr. Shays. Thank you.
    Ms. Kelly of New York. Thank you very much.
    I have two more questions, Mr. Chairman. Is that all right?
    Mr. Shays. Sure.
    Ms. Kelly of New York. OK. Mr. Farsetta, to date how many 
millions of dollars have you taken out of the Castle Point-
Montrose system according to the implementation of VERA?
    Mr. Farsetta. I would say in the vicinity as if one looks 
at 1996 to 1997----
    Ms. Kelly of New York. A full fiscal year if you can give 
me that, please.
    Mr. Farsetta. A total of about $4 million.
    Ms. Kelly of New York. About $4 million?
    Mr. Farsetta. Yes.
    Ms. Kelly of New York. And we are due to have a total 
reduction of about $149 million. Is that correct?
    Mr. Farsetta. $148 million under the VERA model.
    Ms. Kelly of New York. $148 million under the VERA model?
    Mr. Farsetta. But that's for the entire network. That is 
just not for the two hospitals.
    Ms. Kelly of New York. OK. For the VERA network?
    Mr. Farsetta. For the network.
    Ms. Kelly of New York. Which you are in charge of.
    Mr. Farsetta. That's correct.
    Ms. Kelly of New York. Is that not correct?
    Mr. Farsetta. That's correct.
    Ms. Kelly of New York. You are in charge of the entire 
VISN?
    Mr. Farsetta. That is correct.
    Ms. Kelly of New York. Now, according to this performance 
agreement----
    Mr. Farsetta. Right.
    Ms. Kelly of New York [continuing]. The incentive measures 
that are incorporated in this agreement, from what I understand 
from this, you will receive a bonus for cutting the full $149 
million from our network when you achieve the reduced patient 
care incentive measures as your direction agreement.
    [Chorus of boos.]
    Mr. Farsetta. I think that I'm not going to respond to 
that. I'll let Nancy respond to that since Nancy is the one who 
authored that. And it really is much greater than just cutting 
the dollars.
    Ms. Kelly of New York. Is it or is it not----
    Mr. Farsetta. I could cut the dollars and lose my job.
    Ms. Kelly of New York. Is it or----
    Mr. Shays. Excuse me. The gentle lady will suspend. Believe 
it or not, we do want to hear what the witness is saying. And I 
just plead with you. As veterans, I plead with you to show 
respect to individuals whom you may--I plead with you to show 
respect as veterans to people who are testifying to this 
committee.
    Dr. Wilson, if you would respond to that question? And 
would you ask the question again?
    Ms. Kelly of New York. All right. I'd like, really, Mr. 
Farsetta's answer if I could get it before----
    Mr. Shays. Well, Dr. Wilson----
    Ms. Kelly of New York [continuing]. Dr. Wilson, but it's my 
understanding, Mr. Farsetta, that you will receive a bonus for 
cutting the full $149 million from our network based on 
achieving the reduced patient care incentive measures as per 
your directions agreement.
    Mr. Farsetta. Not true.
    Ms. Kelly of New York. Well, that's what it says in the----
    Mr. Farsetta. Not true.
    Mr. Shays. Dr. Wilson.
    Ms. Wilson. I concur with Mr. Farsetta. The performance 
measures in the 1997 agreement are a list of measures, some of 
which address utilization and as a proxy for cost. But all the 
other measures are quality measures.
    And it is the composite performance on the performance 
agreements that makes up the majority of the rating that the 
network director achieves in that timeframe.
    Ms. Kelly of New York. I want to quote to you from a 
General Accounting Office testimony that was in front of the 
Senate Subcommittee on VA, HUD, and independent agencies, the 
Committee on Appropriations. This was testimony that was 
released Thursday, May 1, 1997. On Page 17, it says, 
``Performance measures and standards developed by headquarters 
are the key components of VA's monitoring process. Headquarters 
holds network directors accountable for making progress toward 
VA goals by including measures and standards of performance in 
the director's contracts.'' And it goes on in this report to 
state that the directors receive a bonus directly due to the 
amount of money they are able to save in their VISNs.
    Now, I need to know whether this is true or not. I think 
the people in this room are entitled to an answer. [Applause.]
    Mr. Farsetta. That isn't true. We were given an answer. 
That is not true. It is not true.
    Ms. Wilson. It is not true. It is not true. The bonus----
    Mr. Shays. Excuse me. The lady will suspend. I'm sorry. We 
cannot hear the witnesses when we hear response from the 
audience. And I will continually interrupt this hearing until 
we are able to hear the witnesses. I am going to stay here as 
long as I have to stay, but I would like this hearing to be 
conducted in a way we can hear the witnesses.
    Dr. Wilson, I apologize for the interruption.
    Ms. Wilson. The bonuses are given on the basis of 
performance on part A, part B, and part C of the performance 
plan. The measures that we have talked about are part C. There 
is no measure in the agreement that says you must cut this 
amount of money.
    Mr. Gilman. Will the gentle lady yield?
    Ms. Kelly of New York. Yes, I will.
    Mr. Gilman. Dr. Wilson, did Mr. Farsetta receive a bonus 
for the reductions and the revision of service in our region?
    Ms. Wilson. I didn't give him that bonus. So I probably 
can't officially answer that----
    Mr. Gilman. Well, did the administration give a bonus? Did 
he receive a bonus?
    Ms. Wilson. Yes.
    Ms. Kelly of New York. And, Mr. Farsetta, it is my 
understanding that you will continue to receive bonuses for 
every time that you are able to take the money levels down 
until we reach that $150 million out of here. Is that correct?
    Mr. Farsetta. No.
    Ms. Kelly of New York. If not, why not? That's exactly what 
you said.
    Mr. Farsetta. No, that's not what I said. I think that what 
Dr. Wilson indicated is that there are three parts to the 
performance agreement that I have with Dr. Kizer and that I 
need to demonstrate exceptional performance in all three parts, 
not in a single entity in one part of the performance 
agreement. So the bonus is not predicated on the amount of 
dollars I cut.
    Ms. Kelly of New York. Remember, I have that agreement in 
front of me, Mr. Farsetta. We're talking about the amount of 
primary care enrollment. We're talking about the amount of 
ambulatory surgery. We have insufficient compensation and 
pension exams.
    Mr. Farsetta. That has to do with a qualitative standard--
--
    Ms. Kelly of New York. That's correct.
    Mr. Farsetta [continuing]. Not a quantitative standard, a 
qualitative statement on the quality of C&P examinations gave 
and the amount that was remanded because they were incomplete.
    Ms. Kelly of New York. The bed days of patient care, it 
says here, ``To be fully successful, the bed days of patient 
care per patient will decrease in the aggregate of 20 percent. 
To be considered exceptional,'' which you just said you wanted 
to be, they have to decrease in the aggregate by 30 percent.
    Now, Dr. Wilson, does that sound familiar to you?
    Ms. Wilson. Those were the fully successful and exceptional 
performance goals in 1996, yes, for decreasing bed days of care 
across the county.
    Ms. Kelly of New York. We don't need to go into this any 
further. I think that I would like to submit some other 
questions later, but there are a lot of people standing.
    But, Mr. Farsetta, I have one last question for you. How 
much of an incentive bonus did you receive for your reforms?
    Mr. Farsetta. $16,000.
    Ms. Kelly of New York. $16,000?
    Mr. Farsetta. That's correct.
    Ms. Kelly of New York. Thank you.
    [Chorus of boos.]
    Mr. Shays. Before I recognize Mr. Hinchey for backup 
questions, I do want to make sure we make sure the record is 
accurate. And I just again want to ask this question. As it 
relates to the performance of any supervisor who is given a 
bonus, is this one factor?
    Dr. Wilson, I just want to make sure that we're really 
clear because the answer was pretty definitive that the 
reduction was not a factor in the bonus. Isn't a more accurate 
response that it would be one of a number of factors that would 
be utilized in determining a bonus? I just think it's important 
that both of you be very clear in responding.
    And I apologize for the noise that you're receiving because 
this is important testimony. And I want you to think carefully.
    Ms. Wilson. I can speak to the fact that the objective 
measures in the performance agreement between September and 
October were part C of a performance plan that had a subjective 
component as well as the objective performance on these 
measures. And beyond that, the decision that the Under 
Secretary makes as far as who gets bonuses would be his. Does 
that help?
    Mr. Shays. Well, it helps, but we're going to just pursue 
it a little bit better here.
    I want to encourage people who do a good job to receive a 
bonus if they're doing a good job. And if they don't do a good 
job, I obviously don't want them to receive a bonus.
    It would strike me logically that there would be many 
factors for determining who would receive a bonus or not. I'm 
just a little concerned that the emphatic statement that this 
was not a factor under oath could be something that would be 
not something I'm comfortable with.
    The issue, it seems to me, is that you would be graded, Mr. 
Farsetta, on a number of factors, just not part C. I need to 
know that it does not include that at all, it is not a factor 
at all, or that it is a factor along with a whole host of other 
issues. That's the two choices because the way the record 
stands now, it's not a factor at all.
    Ms. Wilson. I would amend my testimony such that the 
performance plan includes a subjective component. And I cannot 
testify to all of the elements that are in or out of comprising 
the Under Secretary's decision about that subjective part. So I 
would agree with you if that--I would agree with you.
    Mr. Shays. OK. I'm going to ask it another way, too. Mr. 
Farsetta, do you agree with that response? No. Don't be----
    Mr. Farsetta. Well, she----
    Mr. Shays. Yes.
    Mr. Farsetta. Well, the reality is that she's closer to the 
logic Dr. Kizer uses to evaluate, closer than I am.
    Mr. Shays. Well, but that----
    Mr. Farsetta. It would be disingenuous of me to suggest 
that part of financial management wouldn't be part of the 
consideration for my bonus.
    Mr. Shays. Would not be? I'm sorry. I missed that. It would 
be disingenuous what?
    Mr. Farsetta. To think that it wouldn't be part of the 
consideration.
    Mr. Shays. Well, you gave a very strong, emphatic answer in 
the beginning. And basically what I'm suggesting is you are 
amending your answer.
    Mr. Farsetta. That's correct.
    Mr. Shays. Not to pull this to the ``nth degree'' here, but 
I want to know from you, Dr. Wilson: What does meeting VERA's 
targets play in the evaluation? Is it 1 percent, 10 percent, 40 
percent? Can you get a bonus if you have not met VERA?
    Ms. Wilson. I have never had a discussion with the Under 
Secretary regarding VERA's----
    Mr. Shays. Let me just----
    Ms. Wilson [continuing]. Role in having bonuses. So I don't 
know the answer to that.
    Mr. Shays. Well, your response has been amended. We'll 
follow it up, and staff will followup. I would like a sense of 
the answer to that question that Ms. Kelly asked.
    Mr. Hinchey, you have the floor.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hinchey. Well, Mr. Chairman, you have asked the 
followup questions that I was intending to ask because I think 
it is important to clarify this situation. Normally when people 
think, citizens think, about the people who work for the 
Federal Government, they generally think of them as being 
covered by Civil Service. But that is not the case in this 
particular situation, I gather, Dr. Wilson.
    People in supervisory positions--well, Mr. Farsetta, you 
are not a Civil Service employee.
    Mr. Farsetta. Oh, yes, I am.
    Mr. Hinchey. You are? You are covered under Civil Service?
    Mr. Farsetta. Well, we're part of the Senior Executive 
Service, which is part of Civil Service, yes.
    Mr. Hinchey. And under that circumstance, there is a ruling 
which provides for the Veterans Administration to provide 
bonuses to people for what is evaluated to be a higher degree 
of service?
    Mr. Farsetta. Yes.
    Ms. Wilson. Technically, it's a performance award. My 
understanding is that the Federal Government does not give 
bonuses, but it is a performance award. But to me it's the same 
thing.
    Mr. Hinchey. Pretty much the same thing, isn't it?
    Ms. Wilson. Yes. I'm just trying to be precise. I apologize 
to the group.
    Mr. Hinchey. Well, I think the concerns of the Members of 
Congress are apparent at this particular----
    Mr. Shays. Excuse me. Would the gentleman suspend? Excuse 
me. We need order here. Thank you.
    You have the floor.
    Mr. Hinchey. I would just say this for myself. Particularly 
in view of my experience over the course of the last couple of 
years with the VA, conversations I have had, questions that I 
have asked and not received answers to, my experience over the 
last couple of years raises certain questions. And at question 
here is the issue of motivation.
    And what is on the minds of the Members of Congress is: 
Have we gotten to a point where we are rewarding people in 
sensitive positions within the Federal Government to cut 
funding, cut the amount of money that is being spent in such a 
way that jeopardizes the people that are supposed to be served? 
[Applause.]
    And I raise this this way because this is an important 
public policy consideration, one that needs to be examined by 
this committee, by the Congress, and by the administration. I 
think that is critically important.
    Now, I understand what is driving this. What is driving 
this is the alleged need to balance the budget and to cut 
funding and all of that business. But it seems to me in my 
observations recently that we have gone over the edge and that 
too much of our decisions are being driven purely by fiscal 
matters and not enough of them are being driven by human 
considerations. [Applause.]
    I would hope--I'm sure that the VA administrator, the 
acting administrator, Dr. Kizer, and others are aware of these 
hearings and they will go over this testimony. And I think it's 
very important for us to look at this question because this is 
a fundamental issue of public policy. And I think it is one 
that has to be reviewed because it's my judgment that we have 
gone too far. [Applause.]
    Mr. Shays. Thank you.
    Mr. Gilman has a followup question. Then we're going to go 
to our next panel.
    Mr. Gilman. Dr. Wilson, in looking over the incentive 
measures under the performance agreement, I find that--I'm 
looking at the old one. If this differs from the new one, 
please let me know. We're looking at the performance measures.
    The denominator for calculating the percentage of patients 
enrolled in primary care will be ambulatory care customer 
satisfaction. And to be fully successful, 65 percent of the 
patients enrolled in primary care, exceptional performance 
requires that 90 percent of VISN number of patients in the 
aggregate be enrolled in primary care. Is that still part of 
the performance?
    Ms. Wilson. Yes, it is. And the percentage is calculated on 
the basis of veterans who are surveyed with the customer, 
patient, satisfaction survey and answer ``Yes'' to the question 
``Is there one person or a team in charge of your care?'' We 
call that primary care enrollment.
    Mr. Gilman. With regard to ambulatory surgery, your 
achievement level states, ``To be considered fully successful, 
at least 25 percent of the surgical cases performed in VISN or 
50 percent of the surgical and invasive diagnostic procedures 
combined will be performed on an ambulatory basis. And to be 
considered exceptional, 40 percent of surgical cases performed 
in VISN or 65 percent of the surgical and invasive diagnostic 
procedures combined will be performed on an ambulatory basis.'' 
Is that still part of your performance criteria?
    Ms. Wilson. The ambulatory surgery measure is still in 
effect.
    Mr. Gilman. And then with the----
    Ms. Wilson. The targets, the goals have changed, however; 
65 percent is fully successful, and 75 percent is exceptional.
    Mr. Gilman. With regard to bed days of care, ``Achievement 
levels to be considered fully successful, bed days of care per 
patient will decrease for all VISN number of patients in the 
aggregate by 20 percent and to be considered exceptional, bed 
days of patients will decrease in the aggregate by 30 
percent.'' Is that still part of your performance criteria?
    Ms. Wilson. The targets have changed. In 1997, we were able 
to obtain Medicare data for the country. And the target for 
each network was to reach where Medicare, where we would 
project Medicare, patients to be in 1997. This network's target 
was 7 percent, was to decrease bed days of care 7 percent, 
which would put it in line with this region's Medicare standard 
of care.
    Mr. Gilman. So essentially, then, your overall program 
provides incentives if you decrease primary care, if you 
decrease surgery and make it ambulatory surgery, and if you 
decrease bed days. Is that correct?
    Ms. Wilson. No. Those are three measures out of the total 
number of measures.
    Mr. Gilman. But they are included. Is that----
    Ms. Wilson. These are included in the 1997 agreement with 
the targets as I stipulated.
    Mr. Gilman. They seem to be pretty essential elements that 
have reduced the quality of care in our region.
    Ms. Kelly of New York. Will the gentleman yield?
    Mr. Gilman. Yes.
    Ms. Kelly of New York. Thank you.
    I have one more question for Dr. Wilson. Dr. Wilson, if it 
turns out that oversight is lacking in the VA by what the GAO 
study says that we think will probably be a part of the Senate 
request, if it turns out that the oversight is lacking, will 
you allow further GAO study to happen? Will the VA allow for 
further study? And will you slow down the VERA program until we 
are sure that VERA will not be in a position to offer poorer 
quality medical care for the patients in our area?
    Ms. Wilson. I don't have the authority to answer that 
question. My understanding with GAO is that they're an 
independent review organization, and I wouldn't have the 
authority to slow them down.
    Ms. Kelly of New York. I am talking about VERA. Do you 
think there's a chance that the VERA program would slow down 
until we get this GAO study in terms of oversight?
    Ms. Wilson. I have no authority to answer that.
    Ms. Kelly of New York. Thank you.
    Mr. Shays. Thank you.
    Our panel will be staying through the conclusion of this 
hearing. And I, frankly, as someone who is in charge of this 
hearing feel a little guilty. And I want to say this to you, 
that we have dedicated public servants, whom you may have 
strong disagreements with--I'm speaking to the audience now--
but they are dedicated public servants who have served this 
country long and hard. Mr. Farsetta, how long have you served?
    Audience Participant. So have we.
    Mr. Farsetta. Twenty-nine years.
    Mr. Shays. Mr. Farsetta, you've served 29 years as a civil 
servant or a political appointee?
    Mr. Farsetta. Civil servant.
    Mr. Shays. You are a civil servant. I want to thank you, 
Mr. Farsetta, for your service to our country during those 29 
years, and the rest of this panel and Dr. Wilson as well and to 
Mr. Sabo and Mrs. Musumeci. I want to thank our panel for being 
here. I want to thank them for responding to our questions. And 
we will now go to our second panel.
    Mr. Farsetta. Thank you.
    Mr. Shays. The second panel is: Mr. Lawrence Dos Santos, 
deputy director, New York State Division of Veterans Affairs; 
Mr. Thomas C. Agnew, director, Orange County Veterans Service 
Agency; Mr. Jerry Donnellan, director, Rockland County Veterans 
Service Agency; Mr. Al Etkin, director, Sullivan County 
Veterans Service Agency; and Mr. Jim Whoie, deputy director, 
Dutchess County Veterans Service Organization.
    I'd like to make an announcement. Evidently I'm being asked 
to make an announcement that in 10 minutes the bus to Castle 
Point, the Leprechaun buses, will be leaving in 10 minutes back 
to Castle Point.
    Audience Participant. How come we can't be heard?
    Mr. Shays. Ma'am, if you want to stay longer, you will be 
heard.
    Audience Participant. How are we going to get home?
    Mr. Shays. Will the witnesses please stand? Would you raise 
your right hands, please? Do you solemnly swear or affirm that 
the testimony you will give before the subcommittee will be the 
truth, the whole truth, and nothing but the truth?
    Mr. Dos Santos. I do.
    Mr. Agnew. I do.
    Mr. Donnellan. I do.
    Mr. Etkin. I do.
    Mr. Whoie. I do.
    Mr. Shays. We're just going to go down the list after we 
have order. We will suspend until people have left who want to 
leave.
    [Pause.]
    Mr. Shays. Mr. Santos, we're prepared to hear your 
testimony.
    Mr. Dos Santos. Thank you.
    Mr. Shays. Mr. Santos, we are going to hear your testimony. 
We are not going to followup with any questions to any of the 
Service representatives. And then we'll be going to the floor 
and listening to testimony and again not following up with 
questions so we can cover more people.
    Mr. Dos Santos. I think that's a great idea.
    Mr. Shays. OK. Thank you, Mr. Santos. There are people 
moving in and out. So you're going to have to speak even a 
little louder.
    Mr. Dos Santos. I will. Good afternoon.
    Mr. Shays. Good afternoon.

 STATEMENTS OF LAWRENCE DOS SANTOS, DEPUTY DIRECTOR, NEW YORK 
 STATE DIVISION OF VETERANS' AFFAIRS, ACCOMPANIED BY THOMAS C. 
 AGNEW, DIRECTOR, ORANGE COUNTY VETERANS SERVICE AGENCY; JERRY 
 DONNELLAN, DIRECTOR, ROCKLAND COUNTY VETERANS SERVICE AGENCY; 
 AL ETKIN, DIRECTOR, SULLIVAN COUNTY VETERANS SERVICE AGENCY; 
   AND JIM WHOIE, DEPUTY DIRECTOR, DUTCHESS COUNTY VETERANS 
                      SERVICE ORGANIZATION

    Mr. Dos Santos. My name is Lawrence Dos Santos. And I am 
the deputy director, southern region of the New York State 
Division of Veterans' Affairs. I want to point out it's not my 
testimony. I have had the distinct honor and privilege of 
serving my country in the U.S. Marine Corps in Vietnam as an 
infantry fire team leader with Company C, First Battalion, 
Fourth Marines. Ooh-rah.
    On behalf of Director John L. Behan, who was retired at the 
rank of Sergeant from the United States Marine Corps after 
being severely wounded in Vietnam while serving with Bravo 
Company, First Battalion, First Marines, First Marine Division, 
I want to thank you, Chairman Shays, Congresswoman Sue Kelly, 
Congressman Benjamin Gilman, and Congressman Hinchey, for your 
interest and commitment to the veterans of New York State and 
for your timely response to the concerns that will be aired 
here today by veterans and families who are troubled about the 
diminishing quality of care offered at the United States 
Department of Veterans Affairs medical facilities in the Hudson 
Valley.
    For the past year, the New York State Division of Veterans' 
Affairs has repeatedly warned that the VA's Veterans Equitable 
Resource Allocation [VERA] program was nothing short of bad 
news for our State's 1.5 million veterans, who would be 
shortchanged by the shift of nearly $180 million from the 
Empire State to other States around the Nation. This program, 
while intended to fairly distribute health care funds 
throughout America, is anything but equitable to the veterans 
in New York and other Northeastern States.
    This program was hastily implemented without adequate study 
or research on how the loss of tens of millions of dollars at 
individual medical facilities would impact the care and service 
provided our aging and sick veterans dependent on VA hospitals. 
That is why we are here today. This program has not and will 
not work in New York State as it has been implemented.
    In presenting and defending VERA, then Secretary Jesse 
Brown promised that no veteran receiving health care presently 
would be denied care under the new allocation program and that 
budget cuts at individual facilities would be absorbed through 
greater efficiency.
    No one outside of the VA bought that promise, especially 
veteran leaders in our State. Efficiency normally is achieved 
through fewer employees doing more, not by abolishment of 
crucial programs, such as mental health care, dialysis 
treatment, nursing home care, and homeless programs, which is 
what has happened in New York State.
    The implementation of VERA has now pitted veteran against 
veteran and State against State for medical funds which have 
been inadequately appropriated Nationally and inequitably 
appropriated for individual States. This is a tragedy for our 
veterans and for the VA, whose proud legacy of competent 
professional and compassionate health care is being tarnished 
with reports and accusations of neglect of patients.
    Greater efficiency is a goal we should all strive for in 
Government, but we must be aware that there is a difference in 
trimming the fat from a budget and bare-boning to the point of 
crippling programs.
    The tales of patient neglect and rising deaths at VA 
hospitals at Castle Point and Montrose, which will be presented 
here today, are not unique to the Hudson Valley. We at the 
Division of Veterans' Affairs have heard similar allegations 
from veterans and families from other areas of the State, 
including western and upstate New York and the metropolitan 
area.
    Veterans and their loved ones are dismayed and fearful. VA 
hospitals were once a beacon of hope. Now, however, veterans 
are being turned away for care they once took for granted or 
are being told that they have to go elsewhere, often distant 
points, for treatment or, as we are hearing, they are getting 
inadequate care.
    We are concerned with the changing policies and practices 
at the VA, but I want to stress that our anxiety is with the 
administration and not the medical facility employees, who are 
as much a victim of VERA as our veterans. [Applause.]
    Historically, the VA has employed dedicated and 
compassionate health care providers, whose professionalism and 
commitment are top of the line. VERA, however, has imposed 
tremendous hardship on these devoted care-givers, who now have 
become like Marines, made to do more with less. It's something 
I'm quite familiar with. It is not fair to them or their 
patients.
    VERA is now a catalyst for the VA and our Government to 
dismantle a health care program that has been a lifeline for 
millions of American patriots, particularly our older, infirm, 
and poor vets.
    We cannot allow that to happen. Professional and competent 
treatment and care at a VA hospital is a benefit that most 
veterans expect to receive from a grateful Nation for their 
service and sacrifice in our armed forces.
    Many of these men and women were promised this care by 
recruiters--remember them--eager to get them in uniform to 
defend our country and its precious principles. For many 
veterans, health care is the only benefit claimed from military 
service, and the least they should expect is that that care is 
available and safe. Care at a VA hospital should not and must 
not be a death sentence, as some now fear. And certainly its 
availability should not be determined by what State you call 
home.
    The New York State Division of Veterans' Affairs, on behalf 
of our veterans, urges Congress and the administration of 
Washington, DC, to take immediate action to halt staffing 
layoffs and reduction of staffs at VA medical centers and to 
place a moratorium on the implementation of VERA until such 
time as the veterans' community can be assured that any 
spending shifts or cuts will not adversely impact their rights 
and benefits.
    ``I told you so'' is a phrase no one likes to hear. Critics 
of VERA take no pleasure in uttering that statement. The 
failure of VERA has not been borne by nor impacted the 
bureaucrats who thought up this scheme. But, rather, it has 
tragically been endured by veterans and their loved ones, whose 
pain and suffering made this hearing today necessary.
    On behalf of Director Behan and the New York State Division 
of Veterans' Affairs, I urge this committee to take the lead in 
restoring the credibility of our Government and the VA by 
creating a new funding mechanism to provide the money necessary 
to guarantee all of America's veterans are treated like the 
first-class citizens they are.
    I'd like to add one more statement before I close. I'd like 
to point out that these three Members of Congress here from 
this State are the only ones I know of that have taken on VERA 
and have been as vocal and spoken out as much. And I'd like to 
personally thank you. John Behan asked me to make sure I made 
that statement to all three of you, and we thank you so very 
much for caring about us.
    Thank you for the opportunity to be here and to speak to 
you today. And God bless everyone here.
    [The prepared statement of Mr. Dos Santos follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    .Mr. Shays. Thank you. [Applause.]
    Thank you, Mr. Dos Santos.
    Mr. Agnew.
    Mr. Agnew. Thank you.
    Mr. Shays, Mr. Hinchey, Mr. Gilman, Mrs. Kelly, I 
appreciate the opportunity to share my views as director of the 
Orange County Veterans Service Agency and also as a two-tour 
combat veteran of Vietnam and also as a veteran of seven major 
Service-connected surgeries. So I know my way around hospitals 
a little bit from the other side. The current status of local 
VA health services after the VERA funding cuts is the subject.
    Most of the Orange County resident veterans who avail 
themselves of VA health care use the services provided at VA 
Medical Center at Castle Point. For certain specialties and 
illnesses, VA Medical Centers at Albany, Montrose, Bronx, and 
Manhattan are also used. The VA has been an integral part of 
health care delivery system in the Hudson Valley for many 
years.
    The implementation of the Veterans Equitable Resource 
Allocation may, in fact, achieve certain of its goals when 
viewed from other parts of the country. Few veterans advocates, 
myself included, would oppose allocating funds to areas where 
veterans are truly under-served or of allowing funds to follow 
veterans who are relocating in large numbers.
    The shifting of funds under VERA, however, appears to 
follow a pattern of reducing high-cost area operations in favor 
of low-cost operations. Few would deny that it is more 
expensive to deliver medical care in New York City as opposed 
to Jackson, MS or Houston, TX.
    Mr. Shays. Excuse me.
    Mr. Agnew. While this may appear to make fiscal sense----
    Mr. Shays. Mr. Agnew, I've just been told to remind whoever 
is going to Castle Point on the bus that the bus is ready to 
leave right now if there is anyone still in the room. I'm sorry 
to interrupt you.
    Mr. Agnew. That's OK. The fact of the matter is that the 
New York veterans are still here and the funds, frankly, are 
not.
    In our local case, the VISN which covers Castle Point and 
the New York centers was mandated in September 1995 to reduce 
the budget by $148 million over 3 years. It is now August 1997, 
and $130 million have already been cut. This massive a 
reduction so quickly denies the local communities an 
opportunity to assess the impact of reductions as they occur, 
as would be the case if these cuts were taken over 3 years.
    The Castle Point facility has lost more than 200 employees 
since 1995. Whether they were bought out, retired, laid off, or 
fired, the facts are that they are gone. They used to do 
something, and that is now done by someone else or it's not 
done at all. Castle Point is staffed by some very excellent and 
caring people. It is, however, a facility under strain, as are 
all of the area facilities.
    Now, you are no doubt going to hear during this session 
stories of patient abuse and poor service. If these stories are 
true and complete, they must be dealt with accordingly. Please 
keep in mind that this facility provides some excellent service 
to thousands of area veterans at a time when their health care 
options are bringing
more and more vets to the VA for care. It is, therefore, 
essential that Castle Point and all of the VA medical 
facilities in the area and, indeed, the Northeast be saved and 
strengthened.
    Thank you.
    [The prepared statement of Mr. Agnew follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Thank you, [applause.] Mr. Agnew.
    Mr. Donnellan.
    Mr. Donnellan. First I would like to thank the Members of 
Congress as well as the members of the VA staff and Mr. 
Farsetta and his folks for coming over to listen.
    Rather than read verbatim from my text--you have that in 
copy, and it does repeat many things that have already been 
said--I would like to just ask that all of these investigations 
be done as rapidly as possible and as unbiased as possible 
because we are hearing the ills. And, as Mr. Agnew said, there 
are good ones.
    We in our district, Mr. Gilman's district, have developed a 
VA outpatient clinic that without the help of the VA wouldn't 
exist. That has brought care to 10 times, literally 10 times, 
the number of veterans that were served the previous year.
    Also, the speed I think is important as to eliminate the 
collateral damage that's being done in that staff members, 
nurses, kitchen people, all members of the staff of the VA 
hospitals, are taking flack for these hearings. These are in 
general good people who have worked very hard. And there are 
many good veterans being served quite well. So let's do our 
cutting with the scalpel, not with the axe, and let's do it as 
quickly as possible.
    Thank you. [Applause.]
    Mr. Shays. Thank you, Mr. Donnellan.
    Mr. Etkin.
    Mr. Etkin. Mr. Chairman, Members of Congress, fellow 
veterans, thank you for allowing me the opportunity to appear 
today and offer testimony regarding the VA health care 
situation as it affects our veterans in the Castle Point and 
Montrose VA catchment areas.
    In addition to my appearance primarily as the director of 
the Sullivan County Veterans Service Agency, as the lead 
advocate for my county's military veterans and their families, 
I also appear as the hospital chairman for the Veterans of 
Foreign Wars Department of New York, as the Sullivan County 
commander of the American Legion, and as the commander of the 
Jewish War Veterans post in Sullivan County. So please regard 
my comments as spokesperson for these veterans' organizations.
    Better than 51 percent of Sullivan County's population is 
representative of the veteran community, making us the largest 
category of any in the county, including seniors. Since the 
situation regarding veteran care at both Castle Point and 
Montrose VA began back in May of this year, all of the media 
reports were indicative of cases involving both Dutchess and 
Orange Counties. There was not one example of poor patient care 
or deaths concerning Sullivan County resident veterans.
    Now, we transport veterans on a daily basis to Castle Point 
VA and have done so for the past 46 years. During the past 3\1/
2\ years that I've held my office and upon my frequent visits 
to our county's inpatients, 99 percent of our veterans have 
told me that they could not have received better care; now, 
this after asking them specifically if they were, in fact, 
receiving good care and attention and if there was anything 
that I could do to personally assist them. So that speaks well 
for the medical staff attending them.
    When, in fact, there were or are situations needing 
attention for veterans and I'm informed by them, I can easily 
access the Chief of Medical Administration or the Medical 
Director's office. And that situation is readily corrected to 
the veteran's satisfaction. So in this regard, I cannot do less 
than commend the staff at both facilities for which we have 
found to be jobs well done. [Applause.]
    I want to call to your attention at this time that our 
veteran standing committee as well as the Sullivan County 
legislature passed resolutions to support the maintenance of 
the medical services for our honorably discharged veterans at 
all of our Nation's 172 VA medical centers, and especially at 
the Castle Point VA, but to condemn the actions of the 
Department of Veterans Affairs in the elimination of the 
inpatient surgery at Castle Point VA and possible further staff 
reductions. In addition, it was resolved to support continued 
VA funding to the Northeast region of the United States and not 
to the shifting of funds to other parts of the country.
    We question how the elimination of some 200 staff positions 
at Castle Point will allow the quality of care to our veterans 
to be maintained with less staff to provide the same level of 
services.
    At the same time, we question how our New York delegation 
members working as a block could vote to shift funds to other 
parts of the country if the effects of those shifts were not 
clear at the time of the vote. [Applause.]
    We are concerned that once Castle Point VA was instructed 
to delete inpatient surgery, then the facility became a clinic, 
a nursing home, and loss status as a hospital medical center. 
We are further concerned that Acting Secretary for Veterans 
Affairs Hershel Gober promised to put in writing that Castle 
Point VA will remain open and not close.
    The bottom line financially is that the VA budget has been 
slashed $5 billion over the next 5 years. Now, during the 104th 
Congress, the VA medical account was increased by $850 million 
over the past 2 years.
    To ensure that adequate health care would be available for 
our Nation's veterans and because of the high population of 
veterans living in the Hudson Valley who depend upon and have 
earned the right to use this system, we were particularly 
concerned about the restructuring proposals by the Department 
of Veterans Affairs that shifted resources out of New York 
State to other parts of the country. And there was, in fact, no 
explanation of the formula as to how those resources were being 
shifted.
    Adequate financial resources should be maintained to ensure 
proper medical care for our State's 1,900,000 veterans, of whom 
520,000 are over the age of 65 with a projection that by 2000 
this total will have increased to 600,000.
    Now, as we are all aware but need to be reminded, following 
the conclusion of hostilities at the end of World War II, a 
promise was made by our Government that no veteran would be 
denied medical care at any VA medical center for the remainder 
of his or her life. [Applause.]
    Our Nation's veterans have placed themselves at risk to 
preserve our country's freedoms and democratic principles. And 
any deletion of needed resources, supplies, and medical staff 
resulting in the elimination of services and the inability to 
maintain the needed services to our veterans is considered 
unconscionable and mean-spirited.
    Our Nation's veterans, both wartime and peacetime, have 
preserved our Nation. It is, therefore, the inherent obligation 
of our Nation to care for our veterans' medical needs to 
sustain their health and well-being.
    Finally, the third party reimbursement moneys that formerly 
had to be returned to the general fund in Washington, DC, can 
now be well-utilized at our VA medical centers to increase 
needed staff and resources. These moneys can now be retained at 
the VAs. The volunteers that help assist our veterans are no 
longer in place to the high numbers they once were. It's time 
to do the right thing for our veterans and for our country.
    Thank you for your attention. [Applause.]
    [The prepared statement of Mr. Etkin follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Thank you, Mr. Etkin.
    Mr. Whoie.
    Mr. Whoie. Good afternoon, Members of Congress.
    Mr. Shays. Good afternoon.
    Mr. Whoie. I appreciate being able to speak with all of you 
this afternoon, and to include all of the veterans present. And 
that's all of us, I hope. I consider it a privilege to have 
been invited to participate in this very important endeavor.
    I like to think that I am an advocate for veterans and 
their families. Since 1992, I have been allowed to practice the 
art of presenting issues and claims to the Department of 
Veterans Affairs. Over the years, in the opinion of many 
veterans that I come into contact with, a perception exists 
that medical care in general or in a general sense was not 
readily available. They are of the opinion that the VA, as I 
will call it henceforth, was on its last legs. Nickels, dimes, 
and quarters have slipped away, it appeared.
    By and large, most of the veterans from World War II, 
Korea, and Vietnam are very concerned about medical care in 
general; that is to say, the availability of it, the quality of 
it, and the cost of it.
    Today, at least in Dutchess County, NY, veterans have a 
serious concern about VA benefits in general, dissolving into 
nothingness. The concept that, ``We want to take care of you,'' 
today in so many ways is simply hard for veterans to swallow.
    Veterans and their families in large part believe that 
there is an unseen danger. They believe that the Veterans 
Affairs, at least when it comes to medical care, will cease to 
exist. Pride in what he or she did during a period of war seems 
lost in a myriad of legislative tactics.
    Veterans in this community that I hope I represent have a 
question: If the government abandons that veteran today, may we 
abandon our duties as citizens tomorrow?
    Thank you. [Applause.]
    [The prepared statement of Mr. Whoie follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. The Service representatives agree with this 
committee that we would like to go and hear from participants 
who have attended this hearing. So they have agreed to forego 
any questioning.
    But I would like to at least invite any of the Members if 
they want to respond to what they heard or just make a short 
comment.
    Mr. Gilman. Mr. Chairman, I would just like to thank our 
panelists, all of whom are out on the firing line, and for 
their constructive suggestions. We hope they keep doing the 
good work they have been doing. God bless.
    Mr. Shays. Mr. Hinchey.
    Mr. Hinchey. Thank you, Mr. Chairman.
    I'd just like to thank all of you gentlemen for your being 
here today, for your testimony, and for your service to the 
veterans' community. Thanks very much.
    Mr. Shays. Ms. Kelly.
    Ms. Kelly of New York. Thank you, Mr. Chairman.
    I want to thank, in particular, Mr. Dos Santos, about his 
comments about the concerns on the low-income, uninsured 
veterans. That's my concern, too, Mr. Dos Santos. And I think 
it's good that you at the State level are also as concerned as 
we are.
    Thanks, all of you, for your work because without you, our 
veterans could not be as well-represented. You're doing an 
excellent job. Keep it up. Thank you. [Applause.]
    Mr. Shays. Now, let me tell you how we're going to proceed. 
I used to be a State legislator for 13 years, and it reminds me 
of the hearings that we have in the State legislature.
    We had a number of people who had asked to speak. I had 
staff draw at random from three piles. We put it into three 
piles: veterans, veteran service organization representatives 
and others, such as family members, wives of veterans, and so 
on.
    I'm going to call three names. We're going to identify you. 
We're going to just have you be able to speak from where you 
are. You can stand in place or sit in place if you're not able 
to stand.
    We're going to ask you to limit your remarks to 3 minutes 
because we're going to try to get through and hear from as many 
of you as possible.
    If your name is called, let us know where you are, and the 
microphone will come to you. I understand that some people may 
have left. And we'll just keep going through the list. And if 
we go through the list that was picked, then we'll just keep 
going through.
    The first three names in the order I'm calling is Edmund 
Monteleone from Clintondale. We have Ralph Karabec, Commander, 
Post 480, from Monroe. And we have Daniel Aversano, an LPN from 
Kerhankson. Now, do we have any of those three present? We're 
just going to invite you to--are you Mr. Monteleone?

  STATEMENT OF EDMUND J. MONTELEONE, VETERAN, CLINTONDALE, NY

    Mr. Monteleone. I am Mr. Edmund J. Monteleone.
    Mr. Shays. It's nice to have you here, sir.
    Mr. Monteleone. Right.
    Mr. Shays. Thank you. You have 3 minutes. You can let him 
hold the mic himself. Thank you, sir.
    Mr. Monteleone. Yes. The only complaints I have----
    Mr. Shays. Excuse me. You know what? Let me just say this 
to you. I'm sorry to interrupt you, sir. This is a new 
experience for me. We obviously are not going to swear in our 
witnesses from the audience, but we transcribe this hearing. So 
we're going to need you to spell your--you know what? I have it 
in writing, and I'm just going to submit it that way. But just 
say your name again, and we'll mark it down. And we have it in 
writing. Tell us your name and your town you're from again.
    Mr. Monteleone. I am Edmund J. Monteleone, M-O-N-T-E-L-E-O-
N-E. OK?
    Mr. Shays. Yes. Thank you.
    Mr. Monteleone. I'm from Clintondale, 212 Rabbit Run Road, 
Ardonia. What else?
    Mr. Shays. Thank you.
    Mr. Monteleone. OK?
    Mr. Shays. You can give us your statement, sir. Thank you 
for being here.
    Mr. Monteleone. OK. I go to Castle Point. I'm from Castle 
Point. Now, the only complaint I have over there is that I 
asked the doctor to go see the dental. When I went to see the 
dental, I filled out the application. OK? But it's not--how can 
I say that--service-connected. OK?
    But when I first went into the Service, there was young 
doctors at Camp Hood, TX that filled nine teeth within a half-
hour. And I couldn't talk or eat for 2 days or 3 days. And I 
didn't need no teeth filled. OK? All right. That's one 
incident.
    Now another incident I had with my teeth to go to Castle 
Point, and I filled out an application. They says, ``No, no. 
You can't have that done unless you give me $125.'' OK? That's 
another incident.
    I'm not saying everybody in Castle Point is not doing their 
job or that jobs aren't being done. But I don't like to be 
pushed on the side. First you can't have glasses. Then now I 
hear you can have glasses. Somebody's got to make up their mind 
over there what's what. OK? And I know a lot of fellows, a lot 
of people like me, are being treated the same way over there at 
Castle Point.
    Thank you.
    Mr. Shays. Thank you, Mr. Monteleone. [Applause.]
    Do we have Mr. Karabec next? Is he here?
    Mr. Karabec. Karabec.
    Mr. Shays. Karabel?
    Mr. Karabec. Karabec.
    Mr. Shays. Karabec? Is it spelled K-A-N-A-B-E-C?
    Mr. Karabec. K-A-R-A-B-E-C.
    Mr. Shays. Thank you, sir. I'm sorry I pronounced it wrong. 
And your community, sir?
    Mr. Karabec. No problem. That was probably my sloppy 
handwriting.
    Mr. Shays. And you're from Monroe?
    Mr. Karabec. I'm from Monroe Post 48. I've been the 
Commander there for 7 years.
    Mr. Shays. Well, it's nice to have you here, sir.

  STATEMENT OF RALPH KARABEC, VETERAN AND COMMANDER, AMERICAN 
                  LEGION POST 480, MONROE, NY

    Mr. Karabec. Thank you. I'm also a Vietnam war vet who has 
been operated on, had 40 surgical procedures since I returned 
home from Vietnam.
    This is my testimony, Ralph Karabec, before the Human 
Resources Subcommittee of the House Committee on Government 
Reform and Oversight on August 4, 1997. My personal experience 
with most physicians at Castle Point reflects a complete 
disregard for patients' welfare.
    Case in point: After years of experiencing problems as a 
result of exposure to Agent Orange, I made a visit to Castle 
Point requesting an examination with a physician. After 
explaining my symptoms to the doctor, he made his diagnosis 
right from his chair without so much as a question, ``You look 
fine to me. I don't see anything.''
    That was the last time I used that veterans' benefit. 
However, I continue to have a yearly cystoscopy for bladder 
cancer with my private urologist and I believe was a result of 
exposure to dioxins. A copy of the doctor's letter is included 
as part of this testimony.
    After many years of annual cystoscopies and prostate exams 
at Castle Point, a PSA test was finally authorized which showed 
a 15.6 diagnosis, a well-advanced malignancy. After finding out 
the results of the tests done at Castle Point, I had a more 
specific PSA test performed by my private urologist which 
showed a 19.4 with a 2 percent-free PSA. Apparently the 
physicians at Castle Point don't even know what a 2 percent-
free, what a protein-free PSA test is. I questioned them. A 
copy of the lab report is also enclosed as part of my 
testimony.
    The 30 percent differential in testing could cost a veteran 
his life. After undergoing a radical retropubic prostatectomy 
on April 28, 1997, at New York Cornell Hospital--so I saved 
them some money--I discovered I was 0.1 millimeter of a 
surgical margin. A copy of the pathology report is also 
included in this testimony. I learned that I had the malignancy 
for approximately 6 years. That's after my continually going 
there every single year for an evaluation.
    I was lucky. I managed to survive, at least for the moment. 
My Government not only trying to kill me once by exposing me to 
carcinogen herbicides, but with the lack of proper medical care 
and attention almost succeeded a second time. My fear now is 
that how many more veterans, including myself, must die due to 
lack of funding for appropriate medical care while the tax 
dollars of American patriots are sent overseas in the name of 
maintaining freedom. We penalize once more the very vets who 
fought unselfishly to keep our Nation and the world safe from 
tyranny, I submit.
    Mr. Shays. Thank you very much. [Applause.]
    Our third witness is Daniel Aversano. Is he here?
    Mr. Aversano. Yes, sir.
    Mr. Shays. Thank you, sir.
    Mr. Aversano. Good afternoon.
    Mr. Shays. If you could just suspend a second, I'm going to 
tell you the next three so they can begin. The next witness 
would be Cindy Trimble. Is she here? Cindy, Ms. Trimble? 
Anthony Buccieri. Is he here? And also Richard--I'm not sure 
how to read this. Pardon me? Johannes. That's it, sir. And 
you're from Pleasant Valley. Thank you. You will be following.
    Thank you. Sorry to interrupt you.
    Mr. Aversano. Good afternoon.
    Mr. Shays. Good afternoon.

  STATEMENT OF DANIEL AVERSANO, LPN, VETERAN AND CASTLE POINT 
                    EMPLOYEE, KERHANKSON, NY

    Mr. Aversano. My name is Daniel Aversano, and I work at 
Castle Point VA. I've been there for 10 years. I'm an LPN. I'm 
also a Vietnam vet. And I've also been taken care of by Castle 
Point, and they have been very good to me. Since being there, 
I've made a lot of good friends--Korean vets, Vietnam vets. And 
Castle Point I think is a very good place to work, and we try 
very, very hard to take care of our vets.
    Just one thing I'd like to put on the floor as something to 
think about: Why is it warranted to use the Vassaro R and 
shipping our Castle Point patients over there when we closed 
our abilities to operate at Castle Point? Does that giving--why 
wouldn't it be smarter to give our staff the money and keep our 
vets at home, where we have done such very good care for many, 
many years? Why is that cost-effective? That's just something 
that I just can't understand.
    And I want to thank everybody for coming out today, and I'm 
very proud to work for Castle Point VA. [Applause.]
    Mr. Shays. Thank you very much.
    Ms. Trimble.

STATEMENT OF CINDY TRIMBLE, FAMILY OF DECEASED VETERAN, GANHAM, 
                               NY

    Ms. Trimble. Good afternoon.
    My name is Cindy Trimble. My grandfather died as a result 
of a lack of treatment at Castle Point VA Hospital.
    The short of the story is he was admitted on March 24 with 
a so-called ``virus.'' Two weeks later, when his condition had 
deteriorated to a point where the family could no longer just 
sit idly by and wait for Castle Point to take some type of 
further action, we had him transferred to Hudson Valley 
Hospital Center. That was a difficult task. We met with much 
resistance from the doctor, but we were able to get him down 
there after contacting the Acting Chief of Staff.
    When he arrived at Hudson Valley Hospital Center, within 1 
hour of his arrival, the diagnosis was a perforated ulcer. They 
took him in for immediate surgery, but he died 2 days later as 
a result of the preexisting infection that set in. Some of you 
may be familiar with the term ``sepsis.'' They found bacteria 
and acid in his blood that had been an ongoing condition as a 
result of the perforated ulcer not picked up at Castle Point.
    I only have 3 minutes. So, in closing, I just had a couple 
of things I'd like to add. Earlier our panel was talking a lot 
about statistics and surveys and things like reducing bed days 
of care. I'd like to ask if the death rate, the statistics on 
death, the mortality rate, is inclusive of those deaths that 
occur outside of the hospitals, but result from the care 
received in the hospital, like deaths that occur at home or 
after a patient is transferred to another hospital.
    I'd also like to respond to an earlier statement made by 
Mr. Farsetta about surveys. My grandfather did receive a survey 
a few days after he died.
    And, finally, I'd like to say that under the category of 
reducing bed days at Castle Point, we were never able to 
contact a physician during my grandfather's care at Hudson 
Valley Hospital Center. When we did, he was very annoyed with 
us. And he told us that they--I don't know who ``they'' are, 
but I assume he meant the Department of Veterans Affairs--were 
on his back to get my grandfather out of the hospital, that 
they wanted him out because they needed the bed.
    So I just wanted to add that as perhaps some type of proof 
that there is a push to clear these patients out. And I do 
think that while there may be some good care at these 
hospitals, I think the VERA budget funding cuts are being used 
as a crutch.
    And I'd like to thank Maurice Hinchey, Ben Gilman, and Sue 
Kelly for anything they can do on behalf of the veterans and 
their families. Thank you. [Applause.]
    Mr. Shays. Thank you. Thank you, Ms. Trimble. I believe 
you're from Ganham? Yes. Thank you.
    Anthony Buccieri. And you're from?
    Mr. Buccieri. I am from Newburgh, NY.
    Mr. Shays. Yes, sir.

STATEMENT OF ANTHONY BUCCIERI, VETERAN AND VETERANS OF FOREIGN 
       WARS AND DISABLED AMERICAN VETERANS, NEWBURGH, NY

    Mr. Buccieri. I'm a veteran of World War II, a recall for 
the Korean war. I'm a veteran at the VA hospital at Castle 
Point. I have been there as a volunteer for over 8 years. I've 
seen many changes at Castle Point, some for the good, some not 
so good.
    But I'd like to call out I've sent in reports to the 
District Commander of the Veterans of Foreign Wars. This was 
dated back in March. I also sent information to the local 
papers in our area, six of them in general. Out of six papers, 
only one published what I had to say.
    In regard to the deaths at Castle Point, when all of this 
broke out in the newspapers, I took a quick survey, picked up 
all the papers, and I found that out of the 12 hospitals in our 
immediate area, there were 35 deaths and only one at Castle 
Point.
    I'd like to explain one thing that many people--and I've 
got these personal calls, even at night, from veterans' 
families, ``Can you get my father'' or ``my brother'' or ``my 
uncle into Castle Point?''
    I went out of my way, which I didn't mind doing, asked 
these people, ``Are they registered with the VA hospital? If 
they aren't, we'll give you an application. Fill it out. Get a 
hold of your doctor, the hospitals from both sides. And try to 
get that patient into Castle Point,'' which they did.
    The reason for going into Castle Point VA Hospital was that 
the limitation on the stay in the hospital, whether it's 
Medicare or private insurance, was the cause for these patients 
being transferred to VA hospitals.
    They were not completely cured in a matter of months or 
days or even a year. Some of them did pass away, unfortunately, 
but many of them were cured or they had a longer hospital stay. 
That's in regard to the mortality rate.
    As far as the patients being taken care of at Castle Point 
and as a volunteer there 2 days a week, about on the average of 
7 hours a day, I found that the staff has been overworked to a 
point. But, as was stated before, they are doing the best job 
they can with what they have. The fact that the funding has 
been cut, the staff has been cut, they are doing a good job.
    In regard to a few other details, I'd like to submit these 
as evidence to you. I don't want to take up too much time. 
Basically the VA is there for veterans and veterans only. And 
it's been there at Castle Point for 72 years. And I've been a 
patient in the hospital as well as a veteran and as well as a 
volunteer.
    I thank you.
    Mr. Shays. Thank you, sir. [Applause.]
    Richard Johannes from Pleasant Valley?
    Mr. Johannes. Yes.
    Mr. Shays. Sir, before you begin, let me just tell the next 
three speakers. We have, I think it is, Al Datlolo. Am I saying 
the name correctly? The second witness would be Paul Davidson. 
And the third would be Gloria Wood. Do we have those three? OK. 
Am I saying this right? This is Datlolo. Mr. Datlolo?
    So yes. Thank you, Mr. Johannes.

  STATEMENT OF RICHARD JOHANNES, VETERAN, PLEASANT VALLEY, NY

    Mr. Johannes. Good afternoon. My name is Richard Johannes. 
I'm a Vietnam veteran. I served over 5 years in the U.S. Army. 
And two of those were in Vietnam. All I knew was that if I ever 
needed health care later on in life, the VA was supposed to 
provide it for me.
    With Castle Point, over the last year, I feel that 
everything has just gone downhill. They changed us to the blue 
team and the green team. You get a doctor. First of all, I 
don't even think he understands half of what I say. OK? 
[Applause.]
    And when I do try to tell him the different problems I 
have, I'm 100 percent Service-connected. OK? They put it down 
for PTSD only because it's a simple way to shuffle me off to 
one side.
    You go there. You get there early like they tell you to, a 
half an hour, an hour before. You go into your clinic. It ends 
up you're 39th on line already, and it's only 8:30 a.m. They've 
got six seats in the place. And you sit there or hang around 
outside until somebody takes care of you. Then you have to run 
to your next appointment.
    By the end of the day in 1 day when the doctor was supposed 
to take all the information that was done, blood work, 
ultrasound, EKG, and all that other good stuff they have to do 
to me, he didn't have the information in his computer. So he 
says, ``Well, if it's not really bothering you, don't worry 
about it.''
    And I'm going, ``Hey, I've had this pain on and off for 6 
months.''
    He says, ``I'll get in touch with you when I get the 
results back.'' Well, that all happened in April. It is now 
August. And I haven't heard one single word. OK? And that's 
just one instance.
    You try to get glasses there, you have to sit and wait for 
2 to 3 months to get a pair of glasses. I can go down the 
street to any mall and get a pair of glasses in an hour.
    I needed a crown for a tooth that somebody finally figured 
out needed to be rectified since Vietnam. Well, it took them 3 
months to make a crown.
    I can't understand this, you know. Yes, they're supposed to 
be moving into the computer age. But when it comes to simple 
things like glasses or new crowns or having even your teeth 
worked on, they have a hard time doing these things.
    And the attitude down there to me is just unbelievable. 
They don't care. And I wish they would get some doctors in 
there who speak American and understand American. [Applause.]
    And that's basically all I have to say. Tomorrow I will 
wander my way over again to the VA and ask them, ``Have you 
finished and come up with the results?''
    And I can guarantee you what the answer is going to be, 
``We can't find the files'' because they already did that twice 
this year.
    Thank you very much for your time.
    Mr. Shays. Thank you very much. [Applause.]
    We'll be going to Mr. Datlolo, then Paul Davidson, and then 
Gloria Wood. Is Mr. Datlolo here? He's not here. So we'll go to 
Mr. Davidson. Is he here? OK. And then Gloria Wood. Is Gloria 
Wood here?
    Ms. Wood. Yes, I am.
    Mr. Shays. Thank you, Ms. Wood.

    STATEMENT OF GLORIA WOOD, WIFE OF VETERAN, PINE BUSH, NY

    Ms. Wood. I'm speaking on behalf of my husband, who happens 
to be partially disabled.
    In January 1995, we, unfortunately, had an accident on our 
way to Florida. And he fell going into a motel. Six weeks later 
and two operations, in a private hospital, for his hip, I was 
told, ``Take him home. Put him in a nursing home. He'll never 
walk again.''
    I couldn't find a nursing home as quickly as I wanted. So, 
in desperation, I will say, I said to my daughter, ``Call up 
Castle Point and see if he can get in because he is 40 percent 
disabled.''
    They immediately took him in. Ten days later, he was 
walking on parallel bars. He was there for 6 weeks. He has 
continued to take therapy, and we have nothing but good things 
from Castle Point. And I think it's nice to know that there are 
some of us who do appreciate it.
    Thank you.
    Mr. Shays. Thank you, Ms. Wood. [Applause.]
    We appreciate your words of appreciation. And I have you 
down from Pine Bush?
    Ms. Wood. Pine Bush.
    Mr. Shays. Thank you.
    Our next three witnesses: Jerry Blumenthal from Middletown, 
Daniel Morea from Beacon, and Helen Janiszewski. Am I saying 
that name right? Janiszewski, also from Middletown.

    STATEMENT OF JEROME BLUMENTHAL, VETERAN, MIDDLETOWN, NY

    Mr. Blumenthal. I thank the committee for listening to me.
    Mr. Shays. You are Mr. Blumenthal?
    Mr. Blumenthal. Yes, B-L-U-M-E-N-T-H-A-L.
    Mr. Shays. A-L. I'm sorry. And it's from Middletown?
    Mr. Blumenthal. Middletown, NY.
    Mr. Shays. Thank you, sir.
    Mr. Blumenthal. I thank you for listening to me. This will 
be short.
    There's one thing I can't understand. Somebody mentioned 
it. One of the people who spoke mentioned it. How come we can 
investigate things up to the sky, investigate things that spoil 
people's lives, investigate everything? How could we go with 
the VERA without investigating the VA's administrative 
statements? [Applause.]
    How could we make a decision to cut funds or to take these 
funds away from our areas before we really knew what could 
happen to our veterans? I would like that question answered.
    Thank you. [Applause.]
    Mr. Shays. Is Daniel Morea here?
    Mr. Morea. Yes, I am, sir.
    Mr. Shays. I'm sorry. Where are you?
    Mr. Morea. I'm right back here, sir.
    Mr. Shays. Thank you very much, sir.
    Mr. Morea. You're welcome.
    Mr. Shays. And you're from Beacon?
    Mr. Morea. I'm from Beacon, NY.

   STATEMENT OF DANIEL MOREA, VETERAN AND ASSISTANT SERVICE 
OFFICER, DEPARTMENT OF NEW YORK AMERICAN LEGION, NINTH DISTRICT 
      REHABILITATION CHAIRMAN, AMERICAN LEGION, BEACON, NY

    Mr. Morea. I'm an assistant service officer for the 
Department of New York American Legion as well as the Ninth 
District rehabilitation chairman for the American Legion.
    I would like to thank the chairman and the distinguished 
members of the subcommittee for allowing me to testify today. 
The testimony so far given today has been more than 
interesting. It has brought to light both what we have heard 
from the subcommittee as well as what we have heard from the 
audience. The action that follows will be even more 
interesting.
    The American Legion appreciates the opportunity to share 
our views on the quality of health care provided by the 
Department of Veterans Affairs. Mr. Chairman, there are several 
concerns with regard to the VA's ability to continue to provide 
quality health care.
    Although the American Legion will defer any definitive or 
evaluative comments until completion of a site visit to the 
Veterans Administration Hudson Valley Health Care System, which 
is scheduled on August 19 and 20 of this year, we are, however, 
prepared to address the specific issue at hand: those concerns 
raised regarding the increased mortality rate and morbidity 
rates at Castle Point and Montrose VA medical facilities, now 
referred to as the Hudson Valley Health Care System.
    The VA has undergone significant reorganization in the past 
2 years, realigning its field operations from a system of 172 
independent medical facilities within 4 geographic regions to a 
system of 22 Veterans Integrated Service Networks, called 
VISNs. The VA Hudson Valley Health Care System is a component 
of VISN 3 which encompasses the VA northern New Jersey Health 
Care System and each of the medical centers in New York 
metropolitan area.
    Each VISN has been granted certain latitude in how it 
chooses to deliver health care services to veterans in its 
primary service areas. While there are substantial differences 
among these emerging networks with regard to how, when, and 
where health care services will be provided, VA headquarters 
has established a number of performance measures to assure 
accountability along with increased empowerment, as we have 
already heard testified to today.
    VISN 3 has adopted an integrated delivery system model 
based on network-wide care lines. Simply put, veterans who in 
the past relied on a single Veterans Administration medical 
center to meet all their health care needs are now considered 
network patients. As network patients, all of their health care 
will be managed by a primary care team located in close 
proximity to where they reside. That was the premise of VISN. 
That's not what we have heard today.
    However, as need for specialty care arises, veterans will 
find the entire consortium of VA health care facilities within 
VISN 3 responsible for meeting their complete medical needs. As 
a result, the VA Hudson Valley Health Care System has been 
designated as a center for excellence for the network in the 
areas of geriatric, extended care, and mental health care.
    It seems that since the time of this transition, mortality 
and morbidity rates have increased, creating a groundswell of 
concern for many constituents and an increase in media 
coverage.
    As members of this committee may know, the purpose of 
realignment was largely in response to the VA's need to become 
more cost-efficient in the delivery of services. Furthermore, 
VISN 3 was identified as the most expensive network in several 
key financial performance measures, including total cost per 
veteran.
    All of these facts combine to create an emphasis on 
reducing costs. Underscoring this need is the Veterans 
Equitable Resource Allocation, VERA, and its methodology. We 
believe that the initiatives to improve efficiency----
    Mr. Shays. Mr. Morea.
    Mr. Morea. Yes?
    Mr. Shays. Can I just interrupt you a second?
    Mr. Morea. Sure.
    Mr. Shays. I need to be somewhat consistent on the 3 
minutes. Are you going to be completing----
    Mr. Morea. I am just about done, sir.
    Mr. Shays. Thank you.
    Mr. Morea. You're welcome.
    We believe that the initiatives to improve the efficiency 
are in the best interests of veterans everywhere; however, not 
at the expense of accessing quality, which may be in jeopardy 
in some areas where the budgets have been cut back.
    The American Legion has proposed a GI bill of health in an 
effort to enhance and ensure quality VA health care for the 
future by opening the system to all veterans and their families 
currently not eligible for care on a premium basis.
    We have scheduled a meeting with the VISN 3 director, Mr. 
James Farsetta, on August 22, immediately following the 
upcoming site visit. Presently the American Legion accepts the 
VA's explanation that the rising mortality rates at Castle 
Point are attributable to the decline in the number of 
inpatient beds and the increase in referrals from other VISN 3 
medical facilities of the most chronic patients. However, 
should any concern arise as a result of the upcoming site 
visit, they will most certainly be included in a subsequent 
report for distribution to congressional Members whose 
districts overlap or are within the boundaries of the veterans, 
VISN No. 3.
    The site visit will also focus on inpatient of VERA as 
potentially creating the scenario in which changes may occur 
too rapidly without the benefit of adequate planning on the 
horizon.
    The American Legion will also evaluate VERA's impact on 
specific specialty programs, such as post-traumatic stress 
disorder, chronic mental illness, and long-term care, 
particularly as the budget relates to capacity.
    Finally, we also will examine the most current customer 
service course as well as the networks' adherence to the VA's 
other stated performance measures.
    Mr. Chairman, this concludes our statement, and we thank 
you for your time, sir.
    Mr. Shays. Thank you, sir. [Applause.]
    The next three witnesses: Helen Janiszewski from Middleton, 
I think, Middletown; Philip Schiffman from Washingtonville; and 
Jane Kowal from Port Jervis. Do we have--is Helen here? Sorry. 
Good try. You must be a Marine. She's not here.
    Are you Philip Schiffman? Mr. Schiffman, thank you. And 
you're the State Commander? Thank you, sir.
    Mr. Schiffman. Thank you, Mr. Chairman, members of this 
subcommittee.

   STATEMENT OF PHILIP SCHIFFMAN, VETERAN AND NEW YORK VFW, 
                      WASHINGTONVILLE, NY

    Mr. Schiffman. Thank you for the opportunity to testify 
today on behalf of the 110,000-plus members of the Veterans of 
Foreign Wars Department of New York on the very important issue 
of health care our Nation's veterans are receiving in the 
Department of Veterans Affairs' medical centers, particularly 
the medical centers at Castle Point and Montrose. Thank you 
also for conducting this hearing to help you get to the bottom 
of the allegations made about quality care issues.
    First and foremost, let me state loud and clear that the 
VFW Department of New York is appalled at recent newspaper 
reports depicting quality of care issues and high mortality 
rates at these facilities.
    Our veterans deserve better. We at the VFW will not 
tolerate this type of treatment of our Nation's former 
defenders. We call on you, our elected officials in Washington, 
to fully investigate these reports and hold these VA officials 
accountable who are responsible. Today and future such hearings 
must get to the bottom of the situation.
    The numerous allegations of insufficient and quality care 
issues made in local newspapers by veterans, families of 
veterans, VA employees, and VA volunteers point to the serious 
problems at these two facilities. There obviously was a lack of 
management at both the local and network levels that allowed 
these situations to occur.
    I sincerely hope VA has now corrected the deficiencies. I 
know that VFW officials and members who have visited both 
Castle Point and Montrose in recent days have told me that the 
facilities are clean and everything seems to be fine. Not being 
a health care professional, I cannot determine if, in fact, all 
is now well.
    Some have blamed the incidents depicted in the newspapers 
to be caused by the Veterans Equitable Resource Allocation 
system, VERA, which we have heard a lot about today. VERA is 
definitely the cause of the shifting of dollars from the 
Northeast and Midwest to the Southern and Western States. 
However, management at the facilities and network management 
have told the Veterans of Foreign Wars on more than one 
occasion that money is not the problem.
    If money is not the problem, then it is obvious to me that 
the cause of our problems were inadequate and inefficient 
management coupled with our aggressiveness of network 
management to trim too much too fast from the budget of these 
facilities. Quality control mechanisms definitely were not in 
place. And local as well as network management were not paying 
attention to details.
    It is my understanding that a new management team is being 
named for the facilities, people have been transferred or who 
have left VA employment. And the VA Medical Inspector is doing 
a complete review of both facilities, which they do not 
anticipating completing until the end of this summer. I also 
understand that additional staff have been placed in various 
critical areas of these facilities.
    With all said and hopefully done, VA has a major public 
relations problem to win back the full confidence of the 
veterans of Hudson Valley. Openness and being truthful to 
veterans and their families and, yes, to Members of the U.S. 
Congress would be the first step in the right direction.
    We, the veterans of Hudson Valley, should not hear from 
newspapers of a closing of surgical units, possible staff 
reductions, and the quality of care issues. Faculty and network 
management need to be the ones to tell us.
    Mr. Shays. Thank you.
    Mr. Schiffman. One more second. We understand that the 
delivery of health care is changing and that the VA must also 
change, but when we hear about issues in the newspapers, rather 
than VA officials, their intentions become suspect.
    The VFW is the greatest supporter the VA has throughout 
this Nation and in Washington, DC. We feel that the VA health 
care system is the top-rate deliver of health care to our 
Nation's veterans. However, the system cannot operate without 
proper funding and without proper management, both of which 
seem to have contributed to the instances noted.
    Thank you for the opportunity to address you today. We of 
the VFW look forward to working with you and with the VA to 
resolve issues addressed today and to do our utmost to help 
turn public opinion around about the quality of care our 
veterans receive in Castle Point and Montrose VA medical 
centers. Thank you very much. [Applause.]
    Mr. Shays. Thank you very much.
    Mr. Schiffman, I'm going to insert into the record because 
you focused in on the newspaper article, and I will tell you 
the committee will be examining this document. It's from the 
Department of Veterans Affairs, Veterans Health Administration, 
VISN 3, the white paper on news articles about a VA Hudson 
Valley Health Care System.
    I'm going to read the first paragraph and the next sentence 
of the second paragraph, and then I'm going to submit those 
numbers, just to say. It said,

    Issue: On Tuesday, May 13, 1997, a newspaper article about 
the VA Hudson Valley Health Care System appeared in the Times-
Herald Record, a Dutchess County, New York newspaper. It 
alleged that since the Veterans Equitable Resource Allocation, 
VERA, budget cuts occurred in New York, the mortality rate at 
the Castle Point facility had doubled and at the Montrose 
facility had increased 80 percent. Congressional 
representatives have expressed their concern patient care is 
suffering because of VERA.
    Facts: A study of the mortality rate at VA Hudson Valley 
reveals there is no evidence of an increase in deaths at the 
two facilities. In reviewing the combined death rates, there is 
little or no fluctuation.

    These are the death rates that they have during the times 
cited: October to March 1995, the number of deaths: 121; 
October-March 1996, 109; October-March 1997, 123. And then they 
do it based on the number of deaths per hundred. There is a 
slight increase in the Castle Point number of deaths per 
hundred.
    But the document submitted to this committee is far in 
disagreement with the article that you have referred to. It 
does not in any way call into question the concern about VERA. 
It doesn't call into question about the concerns of this 
committee. But it does state emphatically that what you read in 
the newspaper is just simply not true. And we will look into 
that, I can assure you. Thank you.
    [The information referred to follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. At this time is Jane Kowal here?
    Ms. Kowal. Right here.
    Mr. Shays. Thank you. Nice to have you here.
    Ms. Kowal. Thank you. Thank you for having me. Please bear 
with me. I get very emotional.
    Mr. Shays. Does that just mean with all of these other 
veterans you get emotional?
    Ms. Kowal. Well, maybe.
    Mr. Shays. OK. Thank you.

  STATEMENT OF JANE KOWAL, DAUGHTER OF DECEASED VETERAN, PORT 
                           JERVIS, NY

    Ms. Kowal. I'm Jane Kowal. My father was Carl Irwin. He was 
a veteran, and he had gone to Castle Point for a hip operation.
    As you know, they sent him and all operations to the Bronx. 
He went through the surgery fine, came back to Castle Point 
about the 17, I believe, of February. Two days later, he's in 
ICU. I don't know what happened. I know there are times you do 
develop pneumonia when you break a hip. But this seems so 
sudden. OK.
    We rushed there. He has a feeding tube. The man did at 
times need help to feed himself. OK. At the nursing home, he 
had signed a health proxy, ``No CPR. And, please, no artificial 
feeding.'' I thought being a VA-approved nursing home that 
these documents would be carried over to Castle Point. I guess 
I was wrong or ignorant to think that.
    Anyway, I asked about the feeding tube. I did not get any 
answer. I had asked about medications, ``See the doctor.''
    Well, that was a joke. I could not find his doctor, ``He's 
not in this building,'' ``He's on the floor.'' You name it, I 
got it. Finally, I did get someone.
    My father was getting worse. He was a 195-pound man going 
down to, he ended up, 173 in 17-18 days. I wanted to know what 
was going on. A man answered the phone. He said, ``What do you 
want?''
    I said, ``I want to talk to someone about my father.'' He 
never told me who he was. I don't know if he was the doctor. I 
said, ``I don't understand the feeding tube. I don't understand 
if there's a problem with his heart. I know about the 
pneumonia. He has sugar.''
    And they said, ``Well, his heart's feeding.'' And that was 
that.
    I was very upset. I got a hold of my sister. She carried 
on, finally got his regular doctor in, who we later found out 
was on vacation. She did her best to bring him back, but it was 
too late. On March 3, he died. He died of a broken hip. Do you 
believe this?
    I believe in my heart I misguided my trust in the VA 
system. In the times in the past, we trusted you. You were very 
good. You were always there for us. There was no doubt about 
it. But due to these cuts, my father is dead. And I don't know 
how to take care of this in my heart, in my mind.
    Thank you.
    Mr. Shays. Thank you, Ms. Kowal.
    I am having a hard time reading the signature. I think it's 
Anthony Bamonch. Is it close? It's from Clintondale. Mr. 
Bamonch is from Clintondale? He's gone? OK. Raymond Moonan? Is 
Raymond Moonan here? OK. And then Dorothy Mianti? Is Raymond 
Moonan here?
    Mr. Moonan. Yes.
    Mr. Shays. Thank you, Mr. Moonan. You're from New York and 
Florida both?
    Mr. Moonan. Sir?
    Mr. Shays. It says Florida here. Is that your mailing 
address?
    Mr. Moonan. I'm from Florida, NY.
    Mr. Shays. OK. I love it. Remember now, I may be a Member 
of Congress, but I am from Connecticut. So don't go back to 
your home and say, ``This idiot didn't even know there was a 
Florida.'' [Laughter.]
    I had never heard of Florida, NY. I apologize.
    Mr. Moonan. The home of Seward, who purchased Alaska.
    Mr. Shays. OK. Your time starts now.

STATEMENT OF RAY MOONAN, VETERAN AND DISABLED AMERICAN VETERANS 
                AND AMERICAN LEGION, FLORIDA, NY

    Mr. Moonan. My question is last week the House approved 346 
to 85 the conference report on a bill to reduce entitlement 
outlays by more than $135 billion in 5 years by slowing 
Medicare, Medicaid, spending growth, restraining mandatory 
spending in the areas of housing and veterans' benefits, 
agricultural subsidies, vocational education, along with 
separate bills cutting taxes for families with children, 
education, and investors in business and others. My question 
is: Why are we lumped in with the farmers? [Applause.]
    Mr. Shays. Why are you lumped in with the farmers?
    Mr. Moonan. Why are we lumped in with the farmers? We're 
veterans. You're voting to cut veterans' benefits along with 
cutting subsidies to the farmers and business.
    Mr. Shays. I'm not going to respond to every question 
because in some cases I don't know the answer and I will find 
the answer, and that's the purpose of these hearings.
    But, sir, there are two points. One is that the money 
allocated to the VA may have been reduced because it didn't 
take into consideration additional money that now can be 
collected from Medicare. And there was a dialog between two 
Members, a Republican and Democrat, Cliff Stearns and the 
gentlelady from--New York or Michigan--to verify that it is the 
intent of Congress that there will be no cut. The question is 
just making sure that for the first time the VA can collect 
Medicare money. And, therefore, you don't need to----
    Mr. Moonan. This is not happening, sir.
    Mr. Shays. No. It's just starting now.
    Mr. Moonan. That's a subvention experiment in about three 
areas. It's not affecting New York people.
    Mr. Shays. No. The other issue--and this relates to the 
whole question of VERA--is there is a reallocation of 
resources. Some States, some areas are getting more. And some 
States, like New York and Connecticut, are getting less. And 
that's the issue we are addressing today, understanding why 
we're giving more in one area to the detriment of an area that 
is getting a lot less. And in the shift is too much going too 
quickly, and the very valid question, which we'll get an answer 
to and hopefully change.
    Mr. Moonan. What I'm saying is $135 billion is going to be 
taken from these entities for a period of 5 years. Now, this is 
going to affect veterans. For 5 years, there are going to be 
cuts. And this was last week. Last week this was done. And here 
we are today talking about doing things for veterans, and we're 
not doing them. We're just talking. [Applause.]
    Thank you.
    Mr. Shays. Thank you, sir.
    Dorothy Mianti, is she here? James Catania from Walkill; 
Colleen Mussolino from Brooklyn; and Paul Davidson. Is James--
--

 STATEMENT OF JAMES CATANIA, VETERAN, VFW AND AMERICAN LEGION, 
                          WALKILL, NY

    Mr. Catania. First I want to thank you gentlemen for 
letting me voice my opinion. I have something to say that 
Congressman Maurice Hinchey might remember and, then again, he 
may not because I wrote him a letter of my case. And he sent it 
to Washington. And I got a letter from Washington last week 
referring me back to Congressman Hinchey.
    I went to Castle Point 3 years ago for a hearing aid. I had 
quite an extensive examination. And the doctor said, ``Mr. 
Catania, I'm going to send you down to Bronx because they have 
bigger and better machinery than we do, and you can get a 
better examination than we can give you up here.''
    So the next morning I got on the bus, went down to the 
Bronx, went for an examination. I waited about 4 hours, from 
about 11:30 until about a quarter to 4. And I had my 
examination. And he said to me, word for word, ``Mr. Catania, 
I'm going to send you back to Castle Point because they've got 
bigger and better machinery than we have and they can give you 
a better examination than we can.'' [Laughter.]
    I said, ``I beg your pardon?'' And he repeated it. So I 
said, ``All right.'' And he gave me a prescription. So I went 
down to the pharmacy to get the prescription filled, and there 
were about X number of men waiting to get their prescriptions 
filled. And my bus was leaving in about 10 minutes. So I left.
    I went to the pharmacy at Castle Point, and they refused to 
honor that prescription. They said, ``We can't do that here. 
You've got to take it down to the Bronx.''
    So I got a hold of the service officer, and he got around. 
He got a hold of the doctor that finally made out the 
prescription and gave me the prescription I wanted.
    And I, for one, think that that is one of the reasons that 
there's a saying ``Use it or lose it.'' And I think that is one 
of the reasons why we lose beds at Castle Point, because people 
go through the same thing that I went through, maybe not for 
the ears but for something else, and they say, ``Well, I'm not 
going back there anymore.'' I haven't been back in 3 years 
because I lost faith in the VA.
    That's my story, and I thank you very much for listening.
    Mr. Shays. Thank you very much. [Applause.]
    Colleen Mussolino from Brooklyn.

   STATEMENT OF COLLEEN MUSSOLINO, VETERAN AND NATIONAL VICE 
 COMMANDER, WOMEN VETERANS OF AMERICA, BROOKLYN, NY, ON BEHALF 
             OF MONTROSE WOMEN VETERANS OF AMERICA

    Ms. Mussolino. Yes. Thank you.
    I'm Colleen Mussolino. I'm the national vice commander for 
Women Veterans of America. We have a chapter up in the Montrose 
VA, and I was contacted and asked to speak on their behalf, 
especially of the women veterans, as a national issue.
    Women only began to get their benefits in 1973. So we're 
still trying to play a catchup game with you men. OK? We have 
very little facilities for women. We have gynecologists, but 
it's taken a long time to get there. You could get a penile 
implant before you could get gynecology. OK?
    One of the other problems is that there is a lack of beds 
and services in the VAs. What used to be three beds of private 
rooms for women are now done to one bed and possibly sharing 
with a man. OK? We share the bathrooms. We share the showers. 
We have to have armed guards stand outside. I mean, this is 
ridiculous.
    These cutbacks have made it worse. We're trying to get 
entitlements, and we're getting pushed back further and further 
and further. And in Montrose VA, there was supposed to be a 
women veterans coordinator, as there is in all of the VAs, has 
not been replaced. It's been now over a month. There is no 
women veterans coordinator at all for these women to go to to 
take their problems, to take their gripes. OK? They're told 
that they have to go to Castle Point.
    That's not acceptable. It's not acceptable by my 
organization, and it should not be acceptable by any veterans' 
organization that they should have to travel back and forth or 
to make calls back and forth to get issues taken care of.
    The other issue that I have is in the fact of women being 
put into situations where they have been put in with men in 
various different areas. And these are women that have been 
raped. These are women that have been sexually assaulted. And 
they're put into areas where they are not protected.
    And the people are not assuming that women have gone 
through these assaults. It's unfortunate that the statistics 
are so high that you have to assume today that 9 out of 10 
women have been sexually harassed or assaulted. These 
statistics are extremely high. And then you put women in where 
we've got to put into areas where we are being jeopardized. 
That is wrong.
    Another issue is the fact is that we are tired of being 
``yes''ed to death. Every time we make a complaint, it's a 
valid complaint, but we are tired of the people just saying, 
``Yes,'' ``Yes,'' ``Yes.'' And I know from Mr. Sabo and Mr. 
Farsetta from Brooklyn when they were the directors there. I 
have gone and met with them, asked them questions, and we got 
``yes''ed to death.
    Thank you. [Applause.]
    Mr. Shays. Thank you.
    Our next three witnesses are: Thomas O'Connor; Gerard Kelly 
from Jackson Heights; and Daniel Reilly from Beacon. Do we have 
Mr. O'Connor from Marlboro? Right there? And then we'll go to 
Mr. Kelly, and then we'll go to Mr. Reilly.

   STATEMENT OF THOMAS O'CONNOR, VETERAN AND NURSE MANAGER, 
        OUTPATIENT SERVICES, CASTLE POINT, MARLBORO, NY

    Mr. O'Connor. Good afternoon. My name is Tom O'Connor. I am 
a Vietnam veteran. I am a public servant at Castle Point and 
the nurse manager in outpatient services.
    I've heard it said that you shouldn't take on anybody who 
buys their ink by the barrel, but I do have to ask that--it 
seems to be a conflict of interest that the organization of the 
newspaper in question that's been trying to bury Castle Point, 
the Times-Herald Record. If they're successful in what appears 
to me as an employee in their attempts to bury the hospital, 
one of the main beneficiaries is going to be their largest 
advertisers.
    Every Sunday, I open the paper, and there's page after page 
of hospital advertising. I noticed that they seem free to take 
on Castle Point and throw a lot of dirt because we're not an 
advertiser. If we go down, if our patients have to seek out 
services elsewhere, they're going to seek out those services 
with the advertisers that advertise with them. That's a point 
relative to advertising.
    Another point is I understand a lot of our patients do not 
want to travel from one hospital to another. To put it in 
another context, if I were to go to Horton Hospital and my 
doctor were to call me in and see that I needed a hip 
replacement and said, ``Tom, I'll tell you what. I want you to 
get the finest of care. What I'm going to do is I'm going to 
send you down to the hospital for special surgery which happens 
to be one of the most highly-rated orthopedic institutions in 
the country,'' I would go home and tell my friends, ``What a 
great doctor I have. He cares so much that he's going to send 
me to get the best care.''
    Meanwhile, back at the ranch, at Castle Point, if we refer 
a patient to the Bronx VA, where they receive care from 
surgeons who are affiliated with the hospital for special 
surgery, somehow we're accused of giving second-rate care, why 
we can't provide it. I'm at a loss why the two different 
judgments. If I worked at Horton, I'd be a hero. If I work at 
Castle Point, I'm a devil.
    That's all. [Applause.]
    Mr. Shays. Mr. O'Connor, thank you very much for giving us 
your position on that.
    Ms. Mussolino. Excuse me?
    Mr. Shays. Yes.
    Ms. Mussolino. Could I just take a second? I just noticed 
the man just decided to stand next to me. I have no problems 
with my father going for hip surgery at the Bronx. I have a 
problem with the cuts that when he came back, he was not able 
to feed himself. And they stuck a tube down him. And now we 
have a group called the Silver Spoon to volunteer and feed 
these men. This is what I have a problem with.
    If he gets special care and better treatment elsewhere, 
fine. But we should be able to have that here. That's all. 
[Applause.]
    Mr. Shays. Mr. Kelly is over here. Do you have a mic, sir?
    Mr. Kelly. Yes. Thank you.
    Mr. Shays. Thank you.
    Mr. Kelly. Thank you.

   STATEMENT OF GERARD KELLY, VETERAN AND EASTERN PARALYZED 
           VETERANS ASSOCIATION, JACKSON HEIGHTS, NY

    Mr. Kelly. I'm Jerry Kelly from the Eastern Paralyzed 
Veterans Association of Jackson Heights, but I live in New 
City, which is in the Hudson Valley. And I have been a patient 
at Castle Point as well as at the Bronx and a number of other 
VA institutions.
    Thank you, Mr. Chairman. We have presented testimony for 
the record in writing, and I will not try to repeat all of that 
now and just make a few points that I think are important for 
you to hear.
    Castle Point has been a very important part of the hospital 
system for our members. It has been 1 of the SEI care centers 
in the Nation, 1 of the 22 SEI care centers.
    Right now as part of the restructuring of VISN 3, the three 
centers have been combined under one, which will be 
headquartered at the Bronx. There will be beds at Castle Point. 
But what has happened is that we have had to move our plastic 
surgery program, which we helped to underwrite, from Castle 
Point to the Bronx. It's no longer available in the Hudson 
Valley for Hudson Valley veterans.
    We have seen the number of our members who go to Castle 
Point and also the number of our members who now go to the SEI 
center reduced because of this increased need to travel further 
for the specialized care.
    The VA SEI care system is the only care system of its kind 
in the Nation. It's one of the specialized care programs. It 
has been recognized as such and has been picked out or singled 
out for special funding.
    One of the things the SEI care system does that is not done 
in the private sector is sustaining care that they provide for 
our SEI veterans, our spinal cord-injured and disabled 
veterans.
    We have been concerned about the availability of that care. 
And while we recognize that the access points are a big plus 
for veterans in general, for veterans with spinal cord injury, 
they have not been as available because of some problems, first 
of all, with the specialized care availability and in other 
cases wheelchair accessibility to some of those centers. That's 
also been a problem.
    The other main thing we have been concerned with is the 
quality control issues. We have discussed today with some of 
the witnesses that there are new systems being put in place to 
assure quality control is maintained on a nationwide basis in a 
more uniform basis. We talked about some of the sentinel events 
which will trigger investigations. We're very happy to hear 
that because we have been tracking what's happened about the 
country.
    One of the biggest problems has been mistakes which have 
been made many times because of the fact that there has not 
been a reporting system and investigations have not been done 
properly to followup on these.
    I'm concerned that what is identified as a sentinel event 
is properly done because I know there's been some things which 
are the explanation of what a sentinel event is, which would 
not have been identified as such. And those problems would 
have, again, been continued. So we're going to be watching that 
very carefully. And I know the committee will also.
    We know the VA needs to be reformed. We just hope that the 
Veterans Affairs Committee, the Government Reform and Oversight 
Committee, and the other Members of Congress who are 
responsible for overseeing what is done to our Nation's 
veterans make sure that those changes take place in a proper 
manner. We need to save money, but let's do it while we're also 
protecting veterans.
    Thank you.
    Mr. Shays. Thank you, Mr. Kelly. [Applause.]
    Daniel Reilly from Beacon?

  STATEMENT OF DANIEL REILLY, VETERAN AND NFF 246, BEACON, NY

    Mr. Reilly. Good afternoon, Members of Congress, ladies and 
gentlemen. My name is Daniel J. Reilly.
    On December 1, 1976, after having served in the Air Force, 
I began my career with the Veterans Administration Service. I 
worked at the VA hospital in Montrose until August 1990, when I 
transferred to the medical center at Castle Point.
    I feel that in the spirit of the difficulty both Castle 
Point and Montrose are experiencing at this time, the two 
facilities remain a good place in which to work. These 
facilities afford veterans the necessary care and treatment 
they surely deserve.
    As a spokesman for NFF, which is the local out there, 346, 
I should express feelings of the members that our drastic 
downsizing and cutbacks are what contributed to the poor morale 
and bad publicity by the newspapers, what we have experienced.
    We already had experienced cutbacks and downsizing with the 
public sector in this area and now with the same happening with 
the government, families especially. We veterans feel hurt, 
helpless, what in the future will help us all.
    It is apparent that the government is willing to sacrifice 
funds for veterans' programs and health care by appropriating 
these funds for other resources that are deemed more important 
than for the veterans who served their country so faithfully.
    I, as a veteran, am especially saddened when I think of 
where the future lies for the young men and women who are now 
serving and will serve their country in the future.
    In conclusion, I am among the many others here today who 
respectfully ask for all of you to support us in our time of 
need by doing all that you can to help see that the rights of 
veterans are upheld to the highest standards possible by 
keeping our veterans' programs in health care alive and well 
for all veterans today and tomorrow.
    Thank you. [Applause.]
    Mr. Shays. Thank you, sir.
    Our next few witnesses: Kenneth LaFontaine did not give a 
city or a town, Harry Fleming from Middletown, and Shirley 
Mangels from Ellenville. Is Mr. LaFontaine here? Then our next 
speaker will be Harry Fleming. Mr. Fleming from Middletown.
    Mr. Fleming. Thank you very much.

 STATEMENT OF HARRY FLEMING, VETERAN AND CHAPLAIN AND SCOUTING 
    CHAIRMAN, ORANGE COUNTY AMERICAN LEGION, MIDDLETOWN, NY

    Mr. Fleming. I am with the American Legion, the past 
commander of Post 151 here in Middletown. And also presently 
I'm the Orange County American Legion chaplain and the scouting 
chairman for the Orange County American Legion.
    As a whole, with Castle Point, I have not too many 
problems. I did, and which I have brought to Mr. Gilman's 
attention. I've had a problem with one doctor over there. And 
he was a doctor that you could not talk to as I undergo daily 
pain from osteoporosis, arthritis, and diabetic neuropathy. And 
I have pain 24 hours a day, 7 days a week. The doctor argues 
with me, tells me it's in my head. And I tried talking with the 
doctor to no avail.
    I ended up changing doctors over there after he pulled a 
sneak one on me. He canceled an appointment on me for the 
hospital down in Manhattan. And, subsequently, I had to end up 
going to a local hospital and being transferred to Columbia 
Presbyterian, which would end up costing me $7,000 out of my 
own pocket because he canceled the appointment and didn't even 
tell me.
    That's all I have to say.
    Mr. Shays. Thank you, sir. [Applause.]
    Our next speaker is Harry Fleming from Middletown. Oh, I'm 
sorry, Harry. You just went now. I'm sorry, Harry.
    Shirley Mangels, is she here? Thank you. Way in the back 
there.

  STATEMENT OF SHIRLEY MANGELS, DAUGHTER OF DECEASED VETERAN, 
                         ELLENVILLE, NY

    Ms. Mangels. I'd like to thank you for letting me speak 
here today.
    My father had been a patient at Castle Point, an outpatient 
at Castle Point, for 3 years. So what I'm about to tell you 
cannot be said happened because there was no knowledge as to 
what his medical status was.
    On January 20, my mother took my father, Clifford Madison, 
to the Castle Point emergency room. He had been coughing, 
complaining of shortness of breath, and had a frying sound when 
he breathed, audible without a stethoscope. His ankles also 
displayed some swelling.
    The emergency room doctor, whom we discovered later on was 
only moonlighting at Castle Point, was not a regular staff 
doctor, told my mother that there was essentially nothing wrong 
with my father, that he had maybe an occasional drip in his 
lungs, which was not considered unusual for an older person, 
but there was really nothing wrong. And on the records, what he 
listed my father's condition as was ``viral syndrome.''
    Well, guess what? In about 36 hours or so, my father became 
progressively worse to the point where he was incoherent. And 
on Monday morning, January 22, he had become critically ill and 
had to be transported to Ellenville Community Hospital, where 
there they found that both lung fields----
    Mr. Shays. Excuse me. Would you just suspend a second? 
Could we shut the door? I'm having a difficult time hearing. 
I'm sorry. I really appreciate all your patience. We don't have 
the most comfortable chairs to sit in, and some have not been 
able to sit very long. Thank you.
    I'm sorry to interrupt you, Ms. Mangels.
    Ms. Mangels. Quite all right.
    X rays revealed that fluid was in the lower two-thirds of 
both lung fields and that this area was filled. There were fine 
and coarse rails anteriorally and posteriorally in both lung 
fields. There was also cardiomyoglian evidence of swelling 
three to four plus.
    Later that day, my father was transferred to the VA 
facility at Castle Point in extremely serious condition because 
Ellenville did not have a blood gas machine that was working 
properly at the time.
    From there on, my father at one point began to progress and 
began to show signs of becoming well. And, as a matter of fact, 
the one doctor that was observing him at the time told me that 
my father would be home in about 3 days.
    Well, later on, my father on February 10 passed away. The 
same doctor that less than 2 weeks prior told my mother to take 
him home, same emergency room doctor, comes into my father's 
room and pronounces him dead.
    Now, we have been to an attorney about this. And we have 
gotten an independent physician's results on what he gathered 
from reading my father's records. This is the statement that he 
gives,

    I have read the medical records recently forwarded to me, 
having particularly to do with the above-captioned person's 
visit to the Castle Point VA emergency room on January 20, 
1996, the subsequent events at the Ellenville Community 
Hospital on January 22, 1996, and subsequently again at Castle 
Point VA Hospital extending until the time of his demise.
    On the basis of these data, it is my opinion that the 
emergency room record from Castle Point VA Hospital generated 
by a physician on call in the emergency room whose name is 
illegible to me represents a disgrace to the medical profession 
and certainly to the Veterans Administration.
    Among other things, this record under the ``Triage'' 
section does not truly, fully, and accurately relate the 
patient's problem and complaints. Complaints at this time were 
particularly: shortness of breath, wheezing, and swelling of 
the feet and ankles. These problems were not indicated on this 
medical record.
    The section for history and physical is unbelievably below 
standard in essentially all respects. The entry shows the 
presence of occasional bronchi in rails and no wheezes, which 
is contrary to the history. There was no comment regarding the 
question of veins in his neck, his color, his general 
condition, the presence or absence of pulmonary findings on 
percussion, such as dullness and/or a decreased----

    Mr. Shays. Ms. Mangels, could I just--given the severity of 
your concern, for obvious reasons, I want to give you some 
leeway, but I do need to have a sense of how much longer you'll 
be because----
    Ms. Mangels. Not very much longer.
    Mr. Shays. OK. You'll finish up in a minute?
    Ms. Mangels. Yes.
    Mr. Shays. Thank you.
    Ms. Mangels [continuing statement].

    Under abdomen, there appears to be simple negative 
regarding ornagamy and other problems and under extremities, no 
entry of pedal edema, which is contrary to the obvious fact.
    This history is such as to contribute to the formulation of 
anything like a reasonable, accurate diagnosis. And indeed in 
this case, no such diagnosis was made. The physician entered as 
diagnosis ``viral syndrome'' with nothing whatsoever to support 
this. And he also noted ``increase'' in the person's ``pt 
time,'' which in my opinion had nothing to do with the 
presenting problems.
    On the basis of these information errors, the doctor 
advised the patient's heart and lungs were OK; there was an 
abnormality in his pt time, which should be corrected; and he 
was summarily discharged to go home.

    I'll just skip down through here. The doctor continues,

    It is my opinion that the 2-day hiatus with no treatment 
materially adversely affected his cardiopulmonary situation to 
the extent that myocardial infarction was precipitated by his 
hypotension, hypoxia dyspepsia, . . . Pneumonia was likewise a 
direct and result of the untreated pulmonary problem over these 
2 days. Therefore, this hiatus of no treatment in my opinion 
was the proximate cause of his demise.

    I would like to say one thing. All of this took place 
before the talks of cuts and everything else. There was a 
problem before. The problem is just not money. That's the tip 
of the iceberg.
    Your problem is having competent health care-givers at 
these facilities. You want to expand facilities? You want to 
put some facilities in Monticello and in different areas? You'd 
better make sure that you've got people competent enough to run 
these facilities because if you don't, you're going to have 
more deaths on your hands, more mutilations, and so forth.
    Mr. Shays. Thank you. [Applause.]
    Our next three speakers are: Joseph Montemarant from 
Hopewell, Henry Lendzian of Warwick, and Pam Jinks from 
Montgomery. Is Joseph Montemarant here? Is Henry Lendzian here? 
Is Pam Jinks here? Ms. Jinks?
    Let me just say to you that we're going to just go down the 
list, and we'll stay here until 6 o'clock. Sir, we have to have 
some way to do it. So we'll just go on to the next person who 
was randomly picked.
    Let me just say something here. We do have one obligation, 
and that is that this room is going to be used for another 
group afterwards. So we're going to try to finish up in another 
hour and a half. We're going to go another hour and a half. 
That's 6 o'clock.
    Are you ready now, Pam Jinks? Can we start? Thank you.

  STATEMENT OF PAM JINKS, VETERAN AND CASTLE POINT EMPLOYEE, 
                         MONTGOMERY, NY

    Ms. Jinks. My appeal is to the representatives who appear 
to be jumping on the bandwagon to use Castle Point and Montrose 
VAs as their political crusade.
    I am a veteran as well as an employee of Castle Point. I'm 
concerned that all the adverse publicity that we have been 
receiving is going to be the downfall of two facilities that 
have faithfully served our veteran population for more than 50 
years.
    In this time of health care reform, it's imperative that 
the VA keep abreast with the private health care industry. The 
VA can no longer continue to operate as we have in the past. 
And the taxpayers can no longer be expected to foot the bill of 
this enormous program without the government taking drastic 
measures to cut costs and work more efficiently.
    By doing so, we are effectively downsizing, a word well-
known in the corporate world. Along with that comes anger and 
fear from the affected employees as well as the population we 
serve.
    Congress approved VERA without knowing the full 
ramification of this bill. You listened to the bean counters, 
who projected shift in the population. You felt this was good 
for the Nation, but you were forgetting the ones that were left 
behind.
    I understand that the veterans who use both the New York 
facilities and Florida have said that the Florida facilities 
are beautiful, but books can't be judged by their covers.
    The New York hospitals are under attack because you're 
asking every disgruntled patient and family to come forward. 
Could any hospital survive this type of attention? I doubt it.
    The industry is still based on human judgment, which 
includes errors. We have not entered the era yet where IBM has 
developed a program designed to perfection for the medical 
profession, as they did for chess. We still use the human 
physician judgments. Why you ever opened up the floodgate is 
beyond me. Along with their failures, there have been 
successes. But you never ask for them.
    I happen to be proud of Castle Point. I began working in 
Outpatient, then spent 10 years in Quality Assurance. So I know 
the weaknesses as well as the strengths of this facility.
    For the past 18 months, I have served as supervisor of 
primary care. I'm a member of the Women's Veteran Committee as 
well as the POW Committee. By being a member of these 
committees, I know that the facility has identified areas for 
improvement and is continually working to resolve the issues 
that are brought forward.
    Positive changes and implementation have begun. We continue 
to work with the service organizations to see that corrective 
action is taken. If anything, because the administration has 
changed, we are now able to quickly make corrections and 
address issues without the barriers placed on us in the past. 
Though change is always resisted, I believe that the merger of 
the two hospitals will benefit the community in the long run.
    Thank you.
    Mr. Shays. Thank you very much. [Applause.]
    Thank you for your testimony. Our next three witnesses will 
be: Enrico Messina from Poughduag, if I'm saying that 
correctly, Sandra Schwartz from Poughkeepsie; and Anne Bove 
from Woodside. Is Enrico here? Thank you, sir.

STATEMENT OF ENRICO MESSINA, VETERAN AND CASTLE POINT EMPLOYEE, 
                         POUGHDUAG, NY

    Mr. Messina. Good afternoon, ladies and gentlemen at this 
congressional hearing. I come before you today to speak openly 
and honestly about Castle Point VA Medical Center. I will share 
my experiences and blessings.
    I am a veteran of the United States Army who served as a 
medical corpsman in the United States and was in Vietnam for 11 
months and 26 days. I truly believe that God sent me to Castle 
Point to provide nursing care for our honorable veterans who 
stay or use the medical center and outpatient clinics.
    I started my career at Castle Point in the nursing home on 
the B-1 unit, where I met, talked to, and provided the best 
possible care with the staff assigned to that unit. I am proud 
to look at each one of you here today and say that each day the 
men, in some cases women, patients were treated with dignity, 
compassionate hands, and skilled nursing care.
    These veterans were called to duty, as I was, in their late 
teens and early 20's to serve our country in a foreign war and 
engage in battle knowingly for the love of their country 
without asking themselves, ``Why me?'' or ``Why us?'' They just 
did the job and served honorably for their country.
    Many of these veterans' minds and bodies were scared for 
life, requiring compassion and love. Each day every patient was 
provided the activities of daily living.
    Some patients lost their limbs, legs, and arms during the 
battles they fought. Therefore, washing and showering and 
dressing them in neat, presentable clothing was provided them 
each day. Their teeth were brushed. Dentures were cleaned. And 
their hair was combed. A dialog with these patients took place 
either in their daily care or while feeding them at their 
bedside.
    Many of our freedoms that we have today we sometimes take 
for granted. These veterans, though, through their courageous 
efforts gave us this freedom that we have today.
    I, for one, am very grateful for the freedom of speach. I 
as I stand before you today ask you that you please do not take 
these and other freedoms of our veterans away.
    I challenge you all today to let us continue to provide the 
best medical care to our loyal veterans in an expedient way, 
which should be the way to always be maintained at a level 
second to none. You now have an opportunity to fight for us at 
each of your congressional and State levels of government, 
representing the people; in particular, all veterans.
    The nursing home also provided a religious atmosphere for 
each veteran and their families each day from our priests, 
reverends, and rabbis. Weekly services are offered to all. Many 
look forward to going before their God and praying in their own 
individual ways. How blessed they are to have this religious 
dedication at our facility.
    I have seen and heard the power of prayers at a time of 
need when many of our veterans are called home by their God. 
And the support was very uplifting for their families and the 
staff alike.
    The recreation representatives along with many volunteers 
provided such things as music therapy, pet therapy, bingos, 
movies, trips to local ball games, and fishing spots, which 
provides ongoing mental and physical stimulation that is needed 
to progress and have happiness in this world. These people 
sometimes go unnoticed, but I, for one, want to say thanks for 
the many smiles and words of appreciation that veterans shared 
with me after enjoying these recreational experiences.
    Yes, sir?
    Mr. Shays. Mr. Messina, you got here at 9 a.m., and helped 
set up this room.
    Mr. Messina. Yes, sir.
    Mr. Shays. So my heart wants to let you speak a little 
longer, but we do have other speakers. So could you kind of 
wrap it up?
    Mr. Messina. I have about 3 minutes, sir. Would you give me 
the opportunity?
    Mr. Shays. You have used 3 minutes. You may have more than 
3 minutes. I just would like you to bring it to a close.
    Mr. Messina. I will try to read fast, sir.
    Mr. Shays. Maybe cut out a little bit if you have to.
    Mr. Messina. OK. Many of our World War II veterans require 
and will continue to require these and other surgical 
procedures. I address the OR. We'll skip over that, sir.
    I will give you a copy of my report, sir.
    Mr. Shays. It will be in the record.
    Mr. Messina. Please be mindful that the travel for these 
procedures to other VA facilities outside the normal traveling 
radius and in unfamiliar areas is a true hardship for my fellow 
veterans and their families, who are in the 70's and 80's. They 
need and want to continue to utilize the Castle Point facility.
    What we all did without second thoughts in our healthy 
20's, 30's, and 40's becomes a frightening experience for us 
all as we will increase in age and find it hard to travel. 
These veterans will find it impossible to travel outside their 
living areas for the medical support they deserve and were 
promised.
    This past January, I was given the opportunity to serve our 
veterans in the outpatient clinic area. Hundreds of our 
patients visit the clinic each week to see the physicians, 
nurse practitioners, and nurses for their medical needs and 
medications.
    Preventative education to the veterans is vital to the 
continuing health for the future. We all at Castle Point strive 
to make this a positive visit with quality care, love and 
dedication to our veterans being the utmost importance.
    One of our ongoing goals is to continue to track new 
veterans by offering the best quality care that they need and 
deserve. We are a proud team willing to increase our offerings 
and expand our programs for these men and women veterans at our 
clinics.
    I would not be here today if it were not for the many 
articles published in the area newspapers that were very 
disruptive to our veterans at Castle Point. This is where I 
work each and every day to provide skilled nursing with love 
and compassion. In response to these articles, I have never 
seen, nor would I ever stand for, any veteran who required care 
and did not receive that care in a timely and professional 
manner.
    I beg each of you here today to continue support of the 
veteran population, these veterans here today and to those who 
could not make it here.
    Mr. Shays. Mr. Messina, I do need to ask you to conclude.
    Mr. Messina. In closing, I remind you of your challenges 
ahead to not only seek the truth, but be open and honest to us 
as veterans. As you allocate the dollars to all Veterans 
Administration health care facilities, you, as our elected 
officials, have the power to vote into and present new laws 
that will affect us as veterans.
    Our veterans fought and served for us. Now the opportunity 
is yours. Fight for us so we can continue to provide the 
ongoing excellent health care at Castle Point.
    Respectfully submitted, Enrico Messina.
    Mr. Shays. Thank you. [Applause.]
    Mr. Messina, thank you again for getting here at 9 a.m., to 
make sure that we had our chairs set up and this room set up. 
It was very nice of you to do that.
    Our next speaker is Sandra Schwartz from Poughkeepsie. 
Where are you? I'm sorry. OK. Thank you. You're on.

  STATEMENT OF SANDRA SCHWARTZ, VETERAN, WIFE OF VETERAN AND 
  DAUGHTER OF DECEASED VETERAN AND DISABLED AMERICAN VETERANS 
                  AUXILIARY, POUGHKEEPSIE, NY

    Ms. Schwartz. I am with Disabled American Veterans 
Auxiliary. I am a volunteer member of the Disabled Committee of 
the Dutchess County Human Rights Commission. I sit on the 
Roundtable for Racial Harmony. I have served on the board of 
Taconic Resources for Independence, which works closely with 
the Eastern Paralyzed Veterans. I am the daughter of a soldier 
who paid the ultimate price, and I am the wife of a veteran.
    The VISN statement is proudly and prominently displayed on 
the corridor wall at Castle Point. It states, ``Serving those 
who served our country with quality health care second to 
none.'' Likewise, the mission statement, also proudly 
displayed, echoes this intent commitment.
    Whereas, Webster's Dictionary defines the word ``quality'' 
as meaning ``a grade of excellence,'' the veteran is aware that 
the words ``quality health care'' are being bandied about and 
are constantly redefined in the direction of diminished care 
and perhaps ``equal to none.''
    There are definite indications that the hospital as we knew 
it really doesn't exist any more but has become a shell of 
itself. It has been downsized, peeling away on a step basis the 
confidence of the veteran and veteran's family and raises 
questions as to what criteria can still apply to it as a 
standard if it is no longer a hospital.
    Webster also defines a hospital as being ``an institution 
where the sick and injured receive medical, surgical, and 
emergency care''; whereas, a clinic is defined as ``a facility 
associated with a hospital that treats chiefly outpatients.'' 
This likens Castle Point's transformation into a satellite, a 
field first-aid station, as in places of combat, where 
primarily the only aid rendered was preparation referral and 
transfer to a base hospital.
    Contracts with Vassar, St. Francis, or other community 
hospitals are being considered to provide emergency room 
services. In the absence of these services for inpatient or 
outpatient, how can anyone conceive of Castle Point being 
considered as a medical center?
    After gutting these medical, surgical services, what 
remains is little more than a primary care referral, 
recordkeeping, and pharmacy service under the heading of a 
medical center. These actions combined with reduced funding and 
lessened services construct a climate which will further 
discourage veterans from seeking care at Castle Point. Perhaps 
this is the ultimate objective: the reorganization to 
compromise the veteran in the interest of budget balancing.
    Placing the burden of further travel for medical care for 
the sick and spinal cord-injured veteran, including the elderly 
ones, is most inconsiderate and tantamount to cruelty to them 
and their families.
    A spinal cord-injured veteran who had been sent to the 
Bronx Medical Center reported back that the ratio of patients 
to personnel for his ward was 7 to 1. It certainly was not an 
ideal circumstance. A lot of patients in this type of ward need 
a lot of help. And short-staffing endangers their lives.
    The Federal Government has promised its citizens to be the 
role model for persons with disability as provided for in the 
Rehabilitation Act of 1973, as amended, and the Americans With 
Disabilities Act. Yet, we see in this reorganization a 
disregard to these special citizens through dilution of their 
deserved quality care by proposing contracting with non-
veteran, profit-based, community entities, reducing access and 
availability of VA expert competency centers.
    This past Thursday as I was preparing remarks for this 
hearing, I observed a fire drill on the hottest day of the 
year, which caused a veteran in his wheelchair to be moved 
outdoors. It turned out that he was abandoned there, which 
resulted in his succumbing to the heat. And he slumped over 
with his head leaning against the hot bricks. As a bystander, I 
personally notified staff of his need for immediate aid.
    Another issue at this time when the fire drill was 
repeated, I noticed a very long line of 20 to 30 patients 
awaiting their turn at the scheduling desk on the third floor 
disregarding the alarm because they were concerned about losing 
their place in line and finally being herded by staff into an 
already-occupied small room to at least get them to move out of 
the corridor. Even the elevator continued to operate for a fire 
drill. It appeared that the actions taken were ill-conceived. 
And it caused me to wonder, ``What if it were not just a 
drill?''
    On Friday, August 1, 1997, 2 days ago, I was at Castle 
Point and received a firsthand account of the eroding of 
quality care. A veteran who had previously undergone a bad 
surgical experience at Castle Point was scheduled for a 
different procedure. He had expressed his concerns to the 
doctor, who reassured him in order to allay his anxiety that 
the instrumentation, a flexible soft scope, would be used for 
cavity insertion to prevent injury during the examination.
    The veteran arrived at the appointed hour fasting and was 
kept waiting for 2\1/2\ hours before he was summoned to garb 
himself in surgical attire. And he was placed on a gurney in 
the operating room, prepped for the procedure, which was then 
commenced. The procedure had to be abruptly halted----
    Mr. Shays. Ms. Schwartz, you've been about 5 minutes now.
    Ms. Schwartz. I have one page, and I think it's important.
    Mr. Shays. Everybody thinks their statement is important. 
Please finish up.
    Ms. Schwartz. Yes, sir. But if it's not read and it's not 
recognized----
    Mr. Shays. Ma'am.
    Ms. Schwartz [continuing]. He yields his time to me, there 
could be a lawsuit, which could be avoided.
    Mr. Shays. Let me be very clear here. At 6 o'clock, we're 
going to end. There will be some people who will not be able to 
testify because some people, quote, spoke 5 and 6 minutes. I'm 
very willing to let her proceed, but I'm just making the point 
to you that other people won't be able to speak at all. If you 
think that's fair, we may proceed.
    Ms. Schwartz. When the doctor called for the flexi-scope 
and was only then informed that the supply for Montrose and 
Castle Point had been used up prior to the veteran's scheduled 
procedure and that only a rigid, thicker fiber scope was 
available, the explanation offered was that all three of the 
necessary devices had been used up prior to his scheduled 
appointment and the sterilization process before reuse had not 
yet been accomplished.
    So the patient was told to redress and reschedule for a 
repeat procedure. The doctor apologized, saying she was 
impacted by over-booking and that they had just handed her a 
clinic, which she was late for.
    Poor pre-planning and the lack of ample equipment, 
resources, and staff could hardly exemplify quality health 
care. Is this the benefit of the Castle Point-Montrose merger? 
Savings should not be accomplished at the veterans' risk.
    Also noteworthy is the recent rash of musical chairs being 
played at Castle Point, where medical care personnel unfamiliar 
with patient history substitute for specialists without 
background in that specialty. Additionally, there has been 
substitution by practical nurses for consultation in the place 
of specialists, no doubt due to short staffing.
    Fairness to the veteran population dictates that they be 
held different in budgetary matters. Opportunities which you 
people enjoy today are because of what they sacrificed 
yesterday. Stop imposing on families for third party 
contributions. Stop robbing their families. Stop robbing the 
veterans. Stop those who have conflicts of interest and 
bonuses.
    Veterans are special citizens who have paid their dues and 
contributing fees in advance with heavy consequences to them 
and their families. The cost of war does not end at the treaty 
signing. But fairness to the veteran is recognizing that the 
debt is ongoing.
    Let's not nickel and dime them to death by being deadbeats 
to our veterans. Restore funding to our Northeastern veterans. 
Restore funding and refresh Castle Point to the quality care 
hospital it used to be.
    Thank you.
    Mr. Shays. Thank you, Ms. Schwartz. [Applause.]
    Our next speakers are: Anne Bove from Woodside. Is she 
here? Anne? And let me just say who will be following: Robert 
Jirak from New Paltz. Is Robert here? Robert is not here, I 
gather. Karl Rohde from Carmel. Is Karl here? He had to leave. 
And after Karl is Patricia Hulse from Sparrowbush. Is she here? 
OK.
    Well, I'm sorry to keep you waiting. Anne.

   STATEMENT OF ANNE BOVE, REGISTERED NURSE AND DAUGHTER OF 
                 DECEASED VETERAN, WOODSIDE, NY

    Ms. Bove. My name is Anne Bove. And I'm speaking on behalf 
of my mother and one of her neighbors with regards to their 
husbands, respectively.
    My father, Frank Bove, as well as Mr. Carmine Gracioso, 
were both World War II veterans. My father was in the Service 
for 10 years. Both of the men saw combat duty during the Second 
World War. My father was 35 percent disabled. Both men recently 
have passed away.
    My father, as well as Mr. Gracioso, suffered from 
complications of what I call inadequate staffing. I'm a 
registered nurse that works in a municipal hospital in New York 
City, so I can understand about governmental restrictions in 
terms of financial components. But I think the financial 
components that have restricted the particularly nursing care 
with regard to what these patients well-deserve has gone far 
and above what I consider or any of these patients deserve.
    My father basically got wonderful care at Castle Point up 
and until February 1997, when restructuring happened. At that 
point, he was in a nursing home section and was put into 
another nursing home unit that had much more acutely ill 
patients with less nursing staff.
    Subsequently he broke his hip, was operated on at Manhattan 
VA, which he got excellent care at, came back to Castle Point 
and the cascade of events that happened to him, once again 
indicators of poor nursing care, resulting basically from the 
lack of staff.
    I think it's important to look at morbidity and mortality, 
but there are other indicators that will show whether or not 
the provision of care has been adequate, such as: the number of 
falls a certain facility might have, the number of pressure 
ulcers a patient will develop. I think all of those things need 
to be considered.
    And in the case of my father and in the case of Mr. 
Gracioso, those complications did ensue and much shorten their 
not-too-long life expectancy, but a little bit more time that 
we could have spent with them in terms of quality.
    I hope that consideration is made to enhance the VA system 
as not to do away with it because it's a much needed system for 
a very special patient population, of which my father was once 
a member.
    And that's really all I have to say right now. Thank you. 
[Applause.]
    Mr. Shays. Thank you, Ms. Bove. Just again I'll call Robert 
Jirak is not here. Karl Rohde? Patricia Hulse? None are here. 
John Earley? Is John here from Pine Bush? John Ippolito, is he 
here? John, you have the mic, sir.

 STATEMENT OF JOHN IPPOLITO, VETERAN AND AMERICAN LEGION POST 
                      1266, PINE BUSH, NY

    Mr. Ippolito. My name is John Ippolito. I'll make this 
short and sweet.
    What I have heard here today is that the VA hospital should 
be doing more with less. So bonuses can be paid to perpetuate 
human misery by staffing cuts in our patient services to 
veterans who really need hospital care. This sucks. And I hope 
our congressional Representatives who are here today do 
something about it and soon.
    Thank you. [Applause.]
    Mr. Shays. Thank you, sir.
    Nicholas Bucci, is he here from Marlboro? Ralph Demarco 
from Fishkill? Ralph, you've got the floor. What I'm going to 
do is I'm going to tell you when 3 minutes come. The will of 
the group--I'm just going to say the will of the group is to 
let you go. And if you take someone else's time, you do. But 
I'll let you know when your 3 minutes come.
    Mr. Demarco. You have my statement. I'll skip over what I 
think is important.
    Mr. Shays. OK.

  STATEMENT OF RALPH DEMARCO, VETERAN AND REPRESENTING 27 NEW 
           YORK VETERANS' ORGANIZATIONS, FISHKILL, NY

    Mr. Demarco. First of all, identify myself. I'm a member of 
the Board of Directors of the Veterans of Foreign Wars of the 
United States. I'm the New York State VFW legislative chairman. 
I'm president of the New York State Council of Veterans' 
Organizations, legislative representative. Most important, I'm 
a member of the New York/New Jersey Management Assistance 
Council for Network No. 3 and Network No. 2. I'm also a member 
of the Care Line Implementation Team for Network No. 2 for the 
Department of Veterans Affairs. To let you know, I represent 27 
veterans' organizations, major organizations in the State of 
New York. I'll get to the part where I think is important.
    As a member of the New York/New Jersey Veterans' Integrator 
Service for Networks 2 and 3 Management Assistance Council and 
also a veteran for the Network No. 2, its Product Line 
Implementation Team, we have been the veteran's advocate at all 
network meetings. The network directors at the MAC meetings 
provided us with sufficient opportunity to state our position 
on and issues, discuss our concerns, and have been responsive 
to our concerns and questions.
    Due to the bad press recently at Castle Point-Montrose, VA 
received many calls from the media, where I appeared on 
television in an hour program answering questions from the 
veterans across our State, also been interviewed by major 
newspapers and three radio stations across the State.
    With the members of the council, we have toured Montrose 
and Castle Point Medical Centers and found them to be clean and 
orderly. The employees went out of their way to accommodate our 
wishes. We talked to medical and nursing patients and also were 
satisfied with their treatment and services, met with Dr. Kizer 
at Castle Point, where he explained the deaths.
    As far as VERA is concerned, we have long supported the 
concept of equal access to VA health care for all veterans, but 
we are concerned, however, that those networks which will 
receive fewer funds will begin to limit access and service. We 
will watch closely and will examine every complaint and every 
individual base.
    Here's something that our good Congresswoman is interested 
in: treatment of medically-indigent veterans. These veterans 
are in grave jeopardy of becoming victims of an inadequate VA 
budget. Even though VA mandates to provide all needed hospital 
care to low-income veterans, they will only provide care to the 
extent that resources and facilities are available. Thus, if 
Congress does not appropriate adequate funding, this class of 
veteran may be denied care.
    We have been and continue to be committed to being champion 
of the medically-indigent. We will fight to see that their 
health care needs are fully provided by the VA.
    Another thing that we find very disturbing is the VA 
nursing home closes. Nursing home eligibility has not changed 
with the Eligibility Reform Act of 1996. It is still 
discriminatory and may provide when medically indicated and to 
the extent----
    Mr. Shays. You may keep reading, sir. I was just going to 
let you know your 3 minutes are up, but keep reading.
    Mr. Demarco. All right. Just to close, with the coalition 
of major veterans' groups, we recommend that if enacted, it 
would strengthen programs and services provided to the 
Department of Veterans Affairs.
    These recommendations are contained in the 11th Annual 
Independent Budget for Veterans' Programs developed by the 
Veterans of Foreign Wars, the AMVETS, the Disabled American 
Veterans, and Paralyzed Veterans of America.
    The report recommends--this is where we think it's 
important--$43.2 billion in appropriations for the fiscal year 
1998, a 7 percent increase over the current appropriations, 
including $19.7 billion for compensations, pensions, and burial 
benefits. And the recommended appropriation for veterans' 
medical care is $19.5 billion.
    The VA's attempt to be cost-effective may in some cases be 
taking precedence over efforts to provide high-quality care to 
veterans. The recommended funding levels in the independent 
budget will enable the VA to continue serving our veterans.
    Thank you for your time.
    Mr. Shays. Thank you, Mr. Demarco. [Applause.]
    Our next speaker is Philip Oppenheimer from Greenwood Lake. 
Is he here? Our next speaker after that is Andy Layer from 
Beacon. Is Andy here? Our next speaker is Warren Craig from 
Newburgh. Is he here? James Applegate from Goshen? Jim is not 
here? Robert Kavana--am I saying that name correctly--from 
Crugers?
    Audience Participant. Kavana.
    Mr. Shays. Kavana? K-A-V-A-N-A?
    Audience Participant. He's gone. He's gone.
    Mr. Shays. OK. Steven Fleck from Poughkeepsie? Is Steven 
here? Yes, Steven. You have the floor, sir. I'll tell you when 
your 3 minutes are up.

   STATEMENT OF STEVEN FLECK, VETERAN AND MONTROSE EMPLOYEE, 
                        POUGHKEEPSIE, NY

    Mr. Fleck. All I've got is one short statement. I work at 
Montrose. I've been there 13 years, and I'm very proud at 
working at both facilities. I've dealt with the Bronx. I've 
dealt with Manhattan. I've dealt with all the things. I'm a 
driver. I drive these veterans around wherever they want to go. 
And I go out of my way for them. And I appreciate the hospital. 
I'd rather go to a VA hospital than a private hospital.
    Thank you.
    Mr. Shays. Thank you, sir. [Applause.]
    William Munday from Wurtsboro. Am I saying that name 
correctly? And Richard Thornton from Poughkeepsie. Is he here? 
OK. Let me ask you this. I have a list that I could go through. 
How many people would still like to speak? Would you raise your 
hands? OK. What we're going to do, those of you who can stand 
up, would you just stand up so we can just identify you again? 
I understand. Those who could, sir.
    OK. What we'll do is we'll be able to finish. And that's 
very nice of you. Sir, we'll start with you. And then we'll 
just go right down the line. Everybody gets to speak. You're 
first. Why don't you get a mic here?
    Now, let me just tell you the challenge we have. When we're 
done, we need you to write your name and your address and 
everything because we need to make sure we give it to the 
transcriber.
    But we need the mic so people back there hear you as well, 
and we need it for transcribing. Excuse me, sir. We need it for 
the transcriber as well. So you're going to have to take the 
mic.

 STATEMENT OF THEODORE DOBBS, VETERAN AND HUSBAND OF DECEASED 
                    VETERAN, NEW HAMPTON, NY

    Mr. Dobbs. Certainly. My name is Theodore Dobbs. I'm a 
World War II veteran of the Navy, as was my wife, Marian Dobbs. 
She died in the Bronx VA Hospital. Those are all her charts. I 
need copies of those charts back again. They're facts of what 
happened.
    She was admitted with an infection. And when she was told 
by the doctor admitting her in Montrose, he said, ``Is it OK if 
we keep you here for a while?''
    And she said, ``It is if you can cure my infection.''
    So he says, ``Well, I think we can take a crack at it.''
    So there was somebody there. And I'm not going to mention 
her name, and I hope I don't seem like too much of a ham when I 
speak about it.
    She said, ``I remember the night that your wife and your 
daughter and you came in here.''
    She said, ``It was a rainy night, and it was December 18, 
1996.''
    And she said, ``And then it lasted past midnight. And when 
the doctor said to her, `I think we can take a crack at it' so 
that she would stay there, he was lying through his teeth 
because we have no antibiotics here at all. He just said that 
to placate her and to make her obey him to stay there.'' And 
so, as a result of the negligence of that problem, she died.
    I want you to know I want the veterans' hospitals to be 
just as perfect as they can be, but I think that there's an 
insurance problem here. Insurance is behind everything that the 
government funds, and that's got to stop.
    That's all I've got to say. I loved my wife, and I was 
married to her for 9 days short of 52 years. I wish I had never 
sent her to a VA hospital, but now we're going to change those 
things for the better. We're going to make them what they 
should be. Am I right? [Applause.]
    Mr. Shays. Sir, I'm going to ask everyone speaking now to 
fill out a pad afterward just to make sure we have your 
address. And we'll be taking it over. We'll bring it to you. 
And your name again and your town, sir?

STATEMENT OF CRAIG SHERA, VETERAN AND SON OF DECEASED VETERAN, 
                          GARDINER, NY

    Mr. Shera. My name is Craig William Shera. I was in the 
Navy, and I also was in the Army, got out of both of them. My 
father died in 1987 at Castle Point VA Hospital.
    Mr. Shays. What's your community, sir?
    Mr. Shera. Gardiner, NY.
    Mr. Shays. Thank you.
    Mr. Shera. My father died in 1987. He was diabetic. He had 
total kidney failure. Renal shutdown they called it. And he 
lasted 7 days in that hospital. He had five heart attacks. And 
they tried to save my father's life.
    I think the people at Castle Point are getting a bum rap, 
and it's all political. We know it. I know it. I'm not as well-
educated as you guys are, but this is how I feel.
    The woman on the end, I don't really know her name because 
I'm not a Republican. [Laughter.]
    I heard she voted to send the money down south to this 
bill. And if that's the case, if she doesn't know what she's 
voting for----
    Mr. Shays. Sir, let me just be clear on this. You're 
talking about the Veterans Equitable Resource Allocation.
    Mr. Shera. Yes, I am. All the terms, I lived in the 
military for 14 years----
    Mr. Shays. We call it VERA.
    Mr. Shera. Yes.
    Mr. Shays. That's a decision that we mandate to the 
Veterans Department to do certain efficiencies and so on. They 
then decide how they are going to incorporate the----
    Mr. Shera. What I want to know is----
    Mr. Shays. Let me just finish making this point.
    Mr. Shera. I know. I know.
    Mr. Shays. And the point is then Congress looks back and 
says, ``We're not comfortable with the direction you're going, 
and we need you to look at doing it a different way.''
    It would be wrong for any Member of Congress to say that we 
don't want the veterans' facilities to become more efficient. 
How they become efficient becomes an administrative 
responsibility. And then Congress looks at it and says, ``We 
like the direction you're going'' and not.
    Mr. Shera. Yes.
    Mr. Shays. It clearly has to be a team effort.
    Mr. Shera. I understand that.
    Mr. Shays. OK.
    Mr. Shera. But what I'm trying to say is that if they can 
send money to send that space shuttle up every fricking week 
like they've been doing--[applause]--why can't they send the 
money to where we need it for Americans? We went to the Persian 
Gulf to help the Arabs. We went to all of these other countries 
to help them. Why don't we just help our own veterans?
    My father died at Castle Point. They didn't kill him. He 
died. But they treated him well. And it gets me mad. They treat 
me well there. And when they start closing that down, I don't 
have nowhere to go. I have no insurance.
    Thank you.
    Mr. Shays. Thank you very much. [Applause.]
    Would you bring the mic, please, to our next speaker? Our 
next speaker is right there. Sir, you're a State Commander? I'm 
sorry. The gentleman who just spoke.

        STATEMENT OF GERARD MILEO, VETERAN, MARLBORO, NY

    Mr. Mileo. My name is Gerard Mileo, Marlboro, NY, United 
States Marine Corps, Korean war.
    Someone is to blame. I'm listening to all of these people 
out here. Thank God I haven't had time to use the VA hospitals. 
Maybe I have a second thought now.
    I listen to these people. And they're making a point. Who 
is to blame? You can't solve a problem unless you find out who 
caused the problem or what caused the problem.
    My opinion is our elected officials haven't been doing 
their job. Don't take this personally. This goes back to 1945. 
You people got in office recently or a few years ago. But they 
have let us down. Corporate America has let the working man 
down. And our Government, whom you people represent, has let 
the veterans down.
    Congressman Hinchey, don't take it personal. Would you send 
a member of your family to a doctor that's not registered? You 
are aware of it. From what I'm hearing, that doctor is still 
doing business in a veterans' hospital. That's wrong. 
[Applause.]
    If Bethesda Naval Hospital had physicians that weren't 
registered, you people wouldn't go there. Our President 
wouldn't go there. You know the cause. Please do something 
about it.
    You, Ms. Sue Kelly, Representative, in your district, you 
have two VA hospitals. And both of them are going downhill. 
Both of them are going downhill. I'm not blaming you per se, 
but shouldn't you be looking into this matter?
    Audience Participant. That's why we're here.
    Mr. Mileo. OK. You're here now. What are you people doing 
here today? You shouldn't be here. You elected these people to 
represent you. We should be home doing what we want to do. But 
we're here reminding them of the job that should be done. And I 
think it's wrong. I agree with you----
    Mr. Shays. I'm going to interrupt you a second. I'm just 
going to interrupt you a second. I at least deserve the 
opportunity----
    Mr. Mileo. All right.
    Mr. Shays. You're going to get to speak a little longer, 
but I've just got to say to you we could have this hearing down 
in Washington and not have it here. We have it here at the 
request of the three Members who are by my side here----
    Mr. Mileo. And I thank you people. [Applause.]
    Mr. Shays. And we----
    Mr. Mileo. I thank you. Congressman Gilman is a personal 
friend of mine. He's a good man.
    Mr. Shays [continuing]. And because they wanted you to tell 
this committee firsthand what you feel and what you're 
thinking. So I just want you to know you can't have it both 
ways.
    Mr. Mileo. OK. Congressman, please excuse me. He is a 
personal friend of mine. He's a good man. He's a decent man.
    Mr. Shays. Well, don't get carried away. [Laughter.]
    Mr. Mileo. Well, I lay it where it is. You people know the 
problems. All these people are telling you horror stories. You 
know that. Take their horror stories and go down there and 
fight for us.
    I think there are some elected officials in this United 
States that care more for foreign veterans than American 
veterans. [Applause.]
    We have two Senators in New York State. Moynihan, he 
doesn't even know what's going on. D'Amato, 2 years ago, he 
runs to the Baltic Sea playing hot stuff. Why isn't he 
representing we, the veterans? Why are they running all over 
the world giving my money away and taxing us to death?
    Audience Participant. Because he's just faking it. That's 
why.
    Mr. Mileo. No, I'm not going to call him a fake. I'm going 
to call him he's not eligible to do the job. Vote them out. 
Vote them all out. That's the only power we have left. And if 
you don't use it, then take it and I don't want to hear your 
cry anymore. Damnit, you've got the power of the vote. Unite 
and put these people out of business.
    These people will go to the best hospitals in the United 
States. Bethesda Naval Hospital, I was there. When you walk in 
the door, ``Yes, sir,'' ``No, sir,'' ``What's the matter, 
sir?'' Get off my back. Just give me an aspirin.
    I'm not here to pick on anybody. [Laughter.]
    I'm here to set the--I've heard all your horror stories. 
They don't want to hear them anymore. They know what they are. 
Tell them to represent you. That's who they are, House of 
Representatives. That means they're supposed to represent you 
in Congress.
    I don't want to be here today. I came here today. Can I 
tell you one short story while I'm here today?
    Mr. Shays. I was just going to say you're----
    Mr. Mileo. It will take a minute.
    Mr. Shays. No. I know.
    Mr. Mileo. It will take a minute.
    Mr. Shays. You're going to talk. I just wanted you to know 
you're at your 3 minutes----
    Mr. Mileo. Yes.
    Mr. Shays [continuing]. In spite of the fact that I 
interrupted you.
    Mr. Mileo. Can I talk 1 minute?
    Mr. Shays. You've got 1 more minute.
    Mr. Mileo. All right. Let me tell you what happened to me 
38 years ago.
    Audience Participant. Did they give you a medal?
    Mr. Mileo. I earned my medals. And I'm sorry what you went 
through.
    Audience Participant. The President gave my wife----
    Mr. Mileo. I'm sorry what you went through.
    Audience Participant [continuing]. Two medals----
    Mr. Mileo. Thank God.
    Audience Participant [continuing]. Posthumously.
    Mr. Mileo. Thank God.
    I'm going to tell you what happened to me 38 years ago. I'm 
going to talk a little low. Lloyd's Department Store was being 
opened up in the town of Newburgh about 38 years ago, 
Congressman? So my wife and I, my little boy are going there. 
And there was a veteran, an American Legion guy, selling 
poppies. And I'm walking by, he jammed it in my face.
    And I say, ``Sorry.'' I kept walking. I didn't have the 
money. You know, I'm raising a family, just got out of the 
Service, and et cetera. And he keeps following me. And that's 
all I remember. His name was Bill.
    Of course, his buddy selling poppies on the other side 
said, ``What's the matter, Bill?'' ``Oh, this guy don't want to 
buy a poppy. He must be 4F or he must be a deserter.''
    I took a verbal abuse. And I swore that day that I would 
never represent any vet. I don't belong to the American Legion 
or the VFW, which I break from both of them. I don't. They just 
turn me off. They gave me a verbal abuse and I was a 
``deserter,'' I was ``4F,'' et cetera.
    Mr. Shays. You got 1 minute. You used 1 minute.
    Mr. Mileo. I'll be done. And I swore that day I would never 
represent or talk about veterans. Today is the first day I've 
done it. You know why? My brother-in-law, Al Roberts, took a 
plane today--he was treated in Castle Point--to Tucson, AZ. You 
know why? He couldn't be treated in Castle Point. His daughter 
set up a meeting in one of the VA hospitals in Tucson, AZ.
    Mr. Shays. You need to wrap it up, sir.
    Mr. Mileo. Right. Why does he have to fly to Arizona to get 
treatment? That's the question. This woman was 100 percent 
right.
    Thank you. Congressman, please excuse me.
    Mr. Shays. OK. [Applause.]
    Sir, I want to make sure you sign. Sign the list after each 
speaker. Who's our next speaker?
    Mr. Novak. Over here.
    Mr. Shays. Yes. We're just going to go around the circle. 
Oh, over here? Yes, sir? Wait. Excuse me. I'm sorry, sir. I 
promised you. You're next right over here. Right over here. The 
mic, please, over here. The mic right there, please.

 STATEMENT OF BILL NOVAK, VETERAN AND NEW YORK STATE BENEFITS 
 PROTECTION OFFICER, DEPARTMENT OF NEW YORK DISABLED AMERICAN 
                    VETERANS, MIDDLETOWN, NY

    Mr. Novak. My name is Bill Novak. I'm past aid commander of 
the Disabled American Veterans in New York. I'm on the National 
Executive Committee. And I'm the New York State benefits 
protection officer for New York State.
    I'd like to start with veterans and their dependents have 
made enormous sacrifices and eminent contributions in the 
service of this Nation. Since the beginning of our Nation, it 
has, therefore, been the tradition to treat our veterans and 
their dependents as a special group, entitled to benefits above 
those available to the general civilian population.
    While serving in our country's armed forces, veterans not 
only relinquish their liberty to allow the rest of us to 
continue to enjoy ours. They lose income and other civilian 
economic and educational opportunities, endure the rigors and 
hardship of military service, risk the hazards of war and 
dangerous military missions, and suffer injury and death. Of 
course, the heaviest burdens are borne by those who come back 
disabled.
    Most Americans deem it improper to allow those who preserve 
our freedom at personal expense to bear the financial and other 
burdens resulting from military service. In recognition of what 
veterans and their dependents endure as a cost of the security 
to our Nation, our country has made a commitment, a restitution 
for these sacrifices and contributions through indemnification 
for disabilities and other veterans' programs.
    Our Nation's commitment to its veterans has endured periods 
of economic crisis and has evolved through many military 
conflicts. Although the consciousness of the needs of veterans 
may decline somewhat between periods of major conflict, the 
needs continue in the aftermath.
    The American public strongly supports veterans' programs 
and expects the commitment to veterans to be honored. And I 
will support that with several polls that have been done, one 
of them by Harvard University and the Kaiser Foundation, that 
93 percent of the American public oppose any cuts to veterans' 
benefits. And another one, the Harris Poll done by Business 
Week magazine, found that 75 percent of the American public 
oppose any dismantling of the VA.
    Therefore, this Nation must continue to honor its 
obligation to care for the special needs of a special group of 
citizens. Because veterans are a special group, their programs 
should always have a priority for our Government. These 
programs must be adequately funded to assure they remain 
effective in fulfilling their purpose.
    Unfortunately, there are some who would abandon this 
commitment and balance the budget on the backs of our veterans. 
How dare they send America's young men and women into harm's 
way and then say, ``We can no longer afford to honor that 
commitment''? We must remain vigilant and oppose any attacks on 
our benefits.
    Having said that, I would just like to make a few points. 
For over 11 years now, the independent budget that Mr. Demarco 
spoke about before has been sent to all Members of the 
Congress. It's a budget put together by the AMVETS, Disabled 
American Veterans, Paralyzed Veterans, and the Veterans of 
Foreign Wars. And it's endorsed by 50 other organizations and 
medical units and things like that. It has proposed ways to 
make the VA more efficient and save money for the government.
    I find it interesting that they say that they weren't 
really aware of a lot of these things that VERA could impose 
because one of the----
    Mr. Shays. Just to let you know, you're at 3 minutes.
    Mr. Novak. OK.
    Mr. Shays. You may keep going, but you're at 3 minutes.
    Mr. Novak. OK. One of the comments that came out of this 
several years ago that was sent to the Congress--and these are 
comments from that independent budget. It says that, ``Although 
the independent budget veterans' service organizations continue 
to support VA restructuring goals and advocate for operational 
change within the VA system, we fear that these efforts to be 
cost-effective may be overriding efforts to provide high-
quality care.'' This came out over 3 years ago. They were 
advising Congress that that could happen.
    I also found it kind of interesting that they admonished 
Mr. Farsetta before for saving that $148 million that they told 
him to save. They told him, ``We're not going to give you the 
money. You've got to save $148 million.'' He did his job, and 
he's admonished for it. I find it kind of interesting.
    Another thing, I heard a comment before. They said that the 
VA absolutely says, ``We don't need any more money.'' there are 
comments from Secretary Brown or former Secretary Brown that 
said that, ``If we maintain a straight-line budget for next 
year, we probably will be forced to deny care to 105,000 
veterans and eliminate 6,600 health care positions.''
    These are all things that were said before. And now we're 
saying, ``Oh, we don't need any more money.'' I think the 
bottom line is that the veterans have more than--everybody 
wants a balanced budget, and we think that's a priority for the 
Nation. But the VA budget makes up only 2 percent of our 
national budget.
    Yet, the cuts in the VA program--and I can show you from 
over the last 2 decades--$2 billion in the 1980's, omnibus bill 
of 1990, $3.67 billion in cuts in veterans' program, 1993 
omnibus reconciliation, $2.6, already $8.27 billion in cuts in 
the VA programs and with the President's current proposals, 
another $3 billion. By the year 2000, that's $11.25 billion.
    And I think that if we want these people to maintain good 
programs in the hospital, you've got to give them the funding 
that was out there. And I see that the Congress is now 
finally--they've passed a resolution in the last year that 
they're going to be examined in that independent budget. And I 
hope that they will be working very hard to get the proper 
funding to the VA to get these programs.
    And I thank you for the time.
    Mr. Shays. Thank you, sir. [Applause.]
    I just want to make sure everyone who speaks that we get a 
form just with your name and address for the transcriber.
    Mr. Spadaro. It's been a long day.
    Mr. Shays. Thank you. Your name and where you live?

STATEMENT OF BEN SPADARO, VETERAN AND VA EMPLOYEE, BRONXVILLE, 
                               NY

    Mr. Spadaro. My name is Ben Spadaro. I'm from Westchester 
County, Bronxville, NY. My background has always been working 
for the VA after I came out of Service, after spending 9 years. 
I then went to become the county coordinator in Westchester 
County. I retired in 1990. I was appointed by President Bush to 
a committee in Washington.
    And my statement is a 5-year plan approved by Congress to 
balance the Federal budget calls for the deepest cuts ever in 
VA programs. While tens of billions of dollars have been 
earmarked for new and expended Federal programs and to pay for 
these increases and $85 billion in tax breaks, the budget plan 
cuts the President's original request for VA funding by an 
average of 2.3 percent over 5 years. That's more than twice as 
much as the average of the 1 percent cut in other Federal 
programs.
    There's no question that veterans want to put their 
physical house in order. But to balance the budget agreement 
unfairly burdens veterans' programs and severely hampers the 
VA's ability to provide quality health care.
    Congress has an obligation to veterans to give sufficient 
funds to provide sufficient care to the VA and to cover the 
cost of the health care. The Department of Veterans Affairs has 
over the last many years lost at least 40 percent of VA moneys.
    And if you take into consideration what hospitals used to 
be--for instance, Montrose was a 2,000-bed hospital. It's now a 
600-bed hospital; 1,400 beds have been cut. Every one of those 
beds are considered to be money. And this was at the beginning 
and at the Carter administration and to date.
    Historically the VA has approximately $5,600 million a 
year. And that was just to pay for raises and the cost of 
medicine, supplies, and equipment. And I can go on and on.
    The VA cannot continue to operate without sufficient funds. 
The Congressmen and Congress ladies--I had to add that today--
will continue to see medical decline. The Congress must 
appropriate more moneys and not choke the VA officials if 
something is wrong.
    Mr. Shays. I just wanted you to know your 3 minutes have 
come now.
    Mr. Spadaro. I have about 10 seconds.
    Mr. Shays. OK.
    Mr. Spadaro. Without sufficient funds, more and more 
meetings such as these will occur.
    Where does the problem originate? I would say from the 
Congress and from the several Offices of Management and Budget 
and from the Hill itself, not from the VA. Not one VA official 
voted for VERA. And the officials in charge of hospitals, they 
cannot continue without the moneys allocated properly to the 
VA.
    Thank you very much.
    Mr. Shays. Thank you very much, sir. [Applause.]
    May I just see how many more speakers we have? Would you 
just raise your hands to see how many more speakers we have? 
Five? OK. Well, they keep coming up here. Yes. This list is 
growing. I'm getting a little concerned. We started out with 
seven. We still have seven.
    Audience Participant. I just need about a minute.
    Mr. Shays. OK, sir. We're going to go there, and then we're 
going to come to you. You're ready. Let's go, Bob.

     STATEMENT OF RAY PARRIS, VETERAN, WASHINGTONVILLE, NY

    Mr. Parris. My name is Ray Parris, Washingtonville, NY. 
That's P-A-R-R-I-S.
    Mr. Shays. Your address?
    Mr. Parris. I've been going to Castle Point since 1980. 
First I started going for an artificial leg. I was not Service-
connected, but the veterans would cover it. They had to send me 
to Manhattan.
    After about my sixth visit, I noticed the color TV was 
gone. And I said, ``What happened to the TV?''
    They said, ``Budget cuts.''
    I said, ``Oh, well, no TV.''
    The next time I went down a few months later, I noticed the 
coffeepot was gone. I said, ``What? No coffee?''
    They said, ``Budget cuts.''
    I said, ``Oh, well.''
    A couple of years later when I went to go to the city, they 
said, ``We can't send you any more because the government cut 
back. You're not Service-connected. We can't give you a leg any 
more.'' I thought that sucked.
    A couple of years ago I had a severe sore throat, could 
hardly swallow. I went to Castle Point for treatment, where I 
was informed by a snotty nurse that I should not have come 
right over but called for an appointment instead. She said you 
could only come if it was an emergency. I told her I thought 
that it was an emergency.
    I insisted she contact my doctor, Dr. Martinko, which, 
after much aggravation on my part, she finally did. Dr. 
Martinko soon came down, gave me a thorough examination, and 
gave me antibiotics.
    Dr. Martinko resigned a short time later. She was a great 
American doctor. She was smart, compassionate, and caring. I 
heard that she just couldn't practice medicine there anymore 
because of how it was run. As far as I and many veterans are 
concerned, she was the best doctor at Castle Point.
    A large percentage of doctors are foreign-speaking. When 
they talk to me or I ask them a question, I cannot understand 
what they are saying with their heavy accent. This is not good.
    A couple of times I've asked different doctors for medicine 
to relieve terrible stump pain. I'm an amputee. And they just 
prescribe me medicine for stomach pain. They didn't understand 
me.
    Another time a doctor asked me when I last had an ``addin'' 
test. And I said, ``Iron test?''
    And he kept repeating, ``Addin, addin.'' I finally realized 
he meant a urine test. Unacceptable. This failure to 
communicate is not good for patients' welfare.
    I will state that an overwhelmingly high percentage of 
doctors at Castle Point, 70 percent or more, are foreign. And, 
whether they are competent or not, the language barrier creates 
a potential for disaster. Then they get an excellent doctor, 
like Dr. Martinko, who speaks good English, and they let her 
go.
    Now we find that a lot of the doctors practicing at Castle 
Point are not New York State-licensed. This is not only totally 
outrageous, but should be criminal.
    The wait at the pharmacy for prescriptions is 2 hours. 
Short staff they say. This is totally unacceptable to a sick 
veteran that just wants to get his medications, take them, go 
home, and lie down.
    Also, they are slip-shod. I have had a draining abscess for 
over a year now and have to bandage it two or three times a 
day.
    Mr. Shays. Sir, I'm just letting you know your 3 minutes 
have come.
    Mr. Parris. I'll be done in 15 seconds.
    The doctors write me prescriptions for four by four cover 
sponges. And the pharmacy keeps sending me four by four gauze. 
I've went to the pharmacy in person and showed them the 
difference between the two. The cover sponge is absorbent, and 
the gauze is not. It would soak right through and be useless. 
But the people just can't get that into their heads or they 
just don't give a damn.
    Any politician that doesn't think that funds should be 
rerouted back here and the VA problems and concerns should be 
addressed and corrected should have themselves or their loved 
ones put into this VA system at Castle Point and see how they 
liked it under an alias, of course, with no publicity.
    I'd also like to say there's lots of good doctors at Castle 
Point and excellent technicians and nurses. And I've had a lot 
of them. But there's a lot of bad ones, too, and you've got to 
look into it and correct it.
    Thank you. [Applause.]
    Mr. Shays. Thank you.
    Sir to my right, you're on.

  STATEMENT OF JOHN SKYLER, VETERAN AND DEPARTMENT COMMANDER, 
DEPARTMENT OF NEW YORK DISABLED AMERICAN VETERANS, CHEEKTOWAGA, 
                               NY

    Mr. Skyler. I'm John J. Skyler, the department commander 
for the Department of New York, Disabled American Veterans.
    Why is it that lives have to be lost before Congress starts 
to ask questions? Staffing cuts will obviously have an impact 
on patient care. And cuts made too deep result in overworked 
staff that can't keep up and cannot give the basic care that 
human beings, let alone veterans, expect when they are 
hospitalized. Obviously VERA isn't working.
    When you made these budget cuts, they look great on paper. 
But when it comes down where these cuts will actually be made, 
Congress has to realize that patients deserve quality care and 
enough staff to assure that care is received. Obviously 
Congress would have served the veterans better if they search 
elsewhere for places to cut, rather than where lives are at 
stake.
    We should all applaud the employees and the families that 
have the courage to speak up and hope that these problems will 
stop. The veterans have already paid the price for freedom we 
all enjoy and take for granted. We would never have believed 
it. If we had known, we would have battled the enemy and 
survived only to come home so far after having battled the 
enemy of another kind and lose our lives.
    Congress, this is your wake-up call. Do not allow this to 
happen at this facility or any other in this country. The 
veterans made this country what it is today and deserve better.
    Thank you.
    Mr. Shays. Thank you. [Applause.]

STATEMENT OF HELENE VAN CLIEF, VETERAN AND TREASURER, MILITARY 
    WOMEN AND FRIENDS AND MEMBER, COALITION FOR FAIRNESS TO 
                  VETERANS AND VAVS, BRONX, NY

    Ms. Van Clief. My name is Helene Van Clief. I am from the 
Bronx, and I am a disabled vet. I want to thank you all for 
allowing me to speak. I am also a member of Military Women and 
Friends. I am the treasurer there and a member of the Coalition 
for Fairness to Veterans and VAVs.
    The VA health care was originally set up to give health 
care for those who could not afford to pay and those who were 
disabled within the military. As it stands right now, if the 
health care for veterans goes down any further, women in the 
1950's would have gotten considerably better care than veteran 
women now.
    In Third World countries, women are seen by doctors for 
their medical care needs. They are treated for things that VA 
has never treated women for. An example of this would be 
pregnancy.
    Two years ago women-specific pajamas was considered a major 
accomplishment for the health care of women veterans in 
Manhattan VA. Now women at the Bronx VA are seeing a nurse 
practitioner for their medical treatment.
    There are a lot more women in the military now who will be 
getting out and looking for health care as they received in the 
military. With all of these cutbacks, what kind of health care 
can they suspect to find in the future?
    Why do more and more women choose not to use the VA for 
their health care needs? When women are asked, ``Are you a 
veteran?''; they usually answer, ``No.'' Is this because they 
know how bad the health care is at the VA and there is no real 
benefit in saying, ``I'm a veteran''? It is hard for women to 
use a system which does not give them total equal care as their 
male counterparts.
    What kind of treatment can women who get out of the 
military expect to get in the future? What do women veterans 
get? I can only speak on my own experiences.
    I was at the Women Clinic in the Bronx. I was seen there by 
that--there is a nurse practitioner. And she is the primary 
person. I had a mammogram, which was at the VA. And they sent 
me a postcard saying that I possibly had cancer. I was sent to 
the Cancer Clinic as a referral. And I went and got a second 
opinion.
    The second opinion said, ``I really don't think that 
there's anything wrong. I think you had a bad mammogram.'' 
Well, I opted to get a breast reduction and have a biopsy done 
on the tissue just in case. Since all my relatives of 
grandmother's family and my grandfather's family all had breast 
cancer, I was really afraid that, ``Maybe they're right.''
    Mr. Shays. I just want you to know your 3 minutes have 
come. You may keep talking.
    Ms. Van Clief. I was an LPN, and I worked both at the Bronx 
VA and at Montrose. I worked there a long time ago. And at the 
time Montrose had a big problem with drugs. I don't know if 
they still have it and whether that was ever resolved. I worked 
also through the reserves at 24th Street VA Hospital, but that 
was a long time ago.
    So I feel I know the system. And I do feel that some of 
these renovations need to occur like at the Bronx VA. When I 
was in the hospital for rehab, there was no female bathroom in 
that section. You either had to go across the way to the Psych 
Department or ride the elevator up--like at the time I think my 
room was on the seventh floor--ride up about five floors just 
to go use the bathroom.
    How many veterans have to die before something is done? The 
VA at the Bronx was only built 20 years ago. Does so much 
renovations there for so--there is no money left to pay for 
staff. How much do we cut back before patients suffer?
    There were a lot of psychiatric patients who were doing 
extremely well at the Bronx VA and now due to cutbacks are 
forced out of that longer treatment into a shorter treatment.
    For a majority of women veterans saying, ``I am a veteran'' 
means substandard health care and no place to go. [Applause.]
    Mr. Shays. Thank you very much.
    We have three speakers, and then we're concluding? Sir, 
you're going to end up. All right? OK. Yes, sir.

       STATEMENT OF SILVIO MANGIERI, VETERAN, WALKILL, NY

    Mr. Mangieri. My name is Silvio Mangieri. I'm 83 years old. 
I saw service in Germany. And I want to speak because during 
these hearings I haven't heard what I feel is most important.
    I wish to implore and impress our Congressmen that what I 
feel is more important and more needed is a change of 
direction, not to look for redress of faults or corrections of 
their faults because for many years all I've heard from the 
Government is excuses and ways of growing your mind with facts 
and figures.
    Mr. Shays. Sir, would you just tell me what town you're 
from? I didn't ask you that. Tell me your town, where you're 
from.
    Mr. Mangieri. Oh, yes. I wasn't aware of that, sir.
    Mr. Shays. Where are you from? Where is your community? 
Where do you live?
    Mr. Mangieri. I live right here in Walkill.
    Mr. Shays. Thank you.
    Mr. Mangieri. I would like to impress our Congressmen that 
what we need is aggressive, radical action. What we need is for 
the States to have something to say about the jurisdiction in 
the quality care that our veterans are receiving in the 
hospitals within our area.
    They need to have a greater say over what is done and what 
is required for them, what doctors and nurses should be in the 
hospital and the rest of the technicians and the rest of the 
medical staff.
    In this respect, I feel that Washington has grown to be too 
big a bureaucracy as far as the Veterans Administration is 
concerned. And they are too far removed now and distant from 
the 50 States and their territories.
    I can't see how they could respond to the problems of the 
veterans in the many hospitals throughout the country. They 
need to be done on the spot by the people who are taking care 
of them right there and then. That is what I feel should be 
done.
    Thank you.
    Mr. Shays. Thank you very much. [Applause.]
    You're on, sir.

 STATEMENT OF ROBERT IANAZZI, VETERAN AND VIETNAM VETERANS OF 
     AMERICA AND DISABLED AMERICAN VETERANS, MIDDLETOWN, NY

    Mr. Ianazzi. My name is Bob Ianazzi. And I'd just like to 
say I----
    Mr. Shays. And you're from?
    Mr. Ianazzi. I'm from Middletown.
    Mr. Shays. Thank you, sir.
    Mr. Ianazzi. And I served with the Fourth Infantry Division 
over in Vietnam in 1966. And during the month of May was our 
worst month. We had heavy casualties. And we had over 200 
people killed and wounded. And at the time it was not an easy 
sight to see. I'd just like to say that I've never forgotten 
it. I've been going to Montrose VA now for the last 4 years for 
treatments for it. I'm 60 percent disabled.
    I've gone down to New York City for hearings, and I 
submitted new evidence that a VA--which seemed to be totally 
overlooked. They took it, and it seemed like they just shuffled 
it to the side. And then I got a letter saying that I was 
denied my increase in my disability.
    I just want to say that the way the VA is going right now 
we need all the help we can get as far as Castle Point and 
Montrose VA. We don't need anybody to get a $16,000 bonus to 
shut us down. I think that's appalling.
    I've always been proud of my country. I fly a flag every 
day, both POW and the American flag. And I'm proud of my 
country.
    Thank you.
    Mr. Shays. Thank you, sir. [Applause.]
    I'm getting a little confused. I thought we had one last 
speaker. How many speakers do we have left? Do we have you, 
sir? Wait a second. Wait a second. We have three still?
    I'm going to just say I want all three to stand. I want us 
all to see who our last three speakers are. Thank you very 
much, sir. No, no. No. You can't go over that way. We've got 
one there, one there, and one there. And then we're going to 
conclude.
    Thank you, sir. You may begin.

      STATEMENT OF GUY CROWTHER, VETERAN, PORT JERVIS, NY

    Mr. Crowther. I'm Guy Crowther from Port Jervis, NY. This 
was written preferably to represent Gilman, and I'd like to ask 
him to strike the last word, please.
    OK. I know this meeting is primarily the situation that has 
occurred at Castle Point, and I believe that what I have to say 
is of as much additional concern to the veterans gathered here 
today.
    I was watching C-SPAN this past Wednesday night when the 
appropriations for the fiscal year of 1998 were being 
discussed. And it sure made my mind go at a whirl when I heard 
in the amounts of tax dollars that were being allotted to 
countries outside our borders.
    And Representative Gilman is the head of the International 
Relations Committee. That's why I've got this. It says when I 
heard of $100 million to the IMF and then about $85 million to 
some Asian group. There was also several authorizations to 
other foreign groups that were not to exceed somewhere over $1 
million.
    What I'm bothered by is why our hard-earned moneys, a lot 
of which is paid by those here today, is going into the slush 
fund to many countries that are reaching out with one hand for 
a handout and stabbing us in the back with the other.
    I would like to know what the so-called discretionary fund 
is that is authorized for the administration. It is not said by 
the media or the Congress or admitted that the present 
administration does not like this United States. They would 
like to see the United States become a bank book for the world 
with no say by the citizens of the United States. And they are 
actively pursuing the one-world government philosophy. This 
information is being revealed by some of the independent think 
tanks and other groups of this Nation.
    I would also like to know what has been done about the 
situation with the Panama Canal treaty that I talked to you 
about at the Port Jervis meeting. I know that the House of 
Representatives are not directly involved in the treaties, but 
have you ever talked to our State Senators about this concern? 
I know the veterans gathered here today sure have a big concern 
about the movement of our warships between the oceans around 
our country.
    Finally, sir, I would like very much to know why you 
support the killing of almost 40 delivered babies in the 
delivery, which is unnatural anyway.
    Thank you for your time.
    Mr. Shays. OK, sir. I just need--[applause]--hold on 1 
second. Bear with me 1 second here. I have three speakers that 
I've missed in the transcriber. Your name again is?
    Mr. Crowther. Guy Crowther.
    Mr. Shays. Bob, do you have his card? We need your card. 
Did you sign a--is it one of these three? Who was the gentleman 
who spoke just before this gentleman? Your name is?
    Mr. Ianazzi. Bob Ianazzi.
    Mr. Shays. I'm sorry? Bob?
    Mr. Ianazzi. Ianazzi.
    Mr. Shays. Ianazzi. Thank you, sir.
    And the gentleman who spoke before Bob is? Silvio?
    Mr. Mangieri. Silvio Mangieri.
    Mr. Shays. Thank you.
    And the gentleman who spoke before Silvio?
    Ms. Kelly of New York. That was a woman, Helene Van Clief.
    Mr. Shays. Helene Van Clief. OK.
    And Dick Pinckney?
    Mr. Pinckney. Pinckney.
    Mr. Shays. You're ready to speak now? Is that who we're 
going to next?

     STATEMENT OF RICHARD PINCKNEY, VETERAN, MIDDLETOWN, NY

    Mr. Pinckney. Yes. This should be very short. I want to 
compliment the people that held this meeting today. And I just 
feel that it's after the fact and it should have been before 
the fact. Some of the great information that we got here today 
has been the same information that we've had for many years.
    I also want to say that I was down in Florida, the State of 
Florida. I found a full page of the Tampa Times down there. I 
took it and mailed it out to Congresspeople.
    My post--my name is Richard Pinckney, a past Commander of 
Post 151, right here in Middletown. My post received a letter 
back from a Congressperson addressed to Jake Volo saying they 
were going to look into this. My name is not Jake Volo, and 
Jake Volo has been deceased for 5 to 6 years. I just think we 
fell asleep someplace along the line and we should get going.
    I think over there they brought--and I would like an answer 
to this eventually. They brought in new PXes. I've been around 
the country in VA hospitals on visitations. The PX we have over 
there sells frying pans, cooking equipment for $59.95. I just 
don't understand what a patient in a VA hospital would be doing 
buying $59.95 cooking utensils.
    I also wonder to myself because I've been to Lebanon, PA. 
I've been upstate New York to one of the Finger Lakes. I've 
been to Charleston, SC. I've been to all our veteran hospitals 
around here. I lost my brother in a veterans' hospital. My 
other brother is 100 percent disabled from World War II, both 
of them. And I just wonder.
    Let me say this. I want to thank Dick Mayfield and 
Congressman Gilman for calling me when there are meetings over 
to Castle Point. And I go there. And I want to thank them both 
for that.
    I found out the last meeting I was over there to, I found 
out that any moneys from Medicare or Medicaid that Castle Point 
Hospital gets has to be turned back over to the general fund. 
Is that right? The hospital gets no benefit from it. They 
furnish the medicine, the prescription, the doctors. Your 
Medicare goes back into a general fund. I don't know what that 
means. I would think it's the U.S. Government's general fund.
    And I also have one other question that the man down here 
brought up, one of the men brought up, about sending the 
vessels into the air and all of that. I wondered with all the 
cuts on VA why the cuts to Bosnia had not been downed, they had 
been upped.
    And I want to thank you for your time. And when I walked in 
here, this place was absolutely filled with interested people. 
And I think some of them have left in a haste.
    Thank you. [Applause.]
    Mr. Shays. Let me just say it's so wonderful that you all 
have stayed. And I realize that some had to go. So we do know 
this was an extraordinarily well-attended hearing.
    Mr. Crowther, you have the last word. Oh, I'm sorry.
    Mr. Pressley. Name is----
    Mr. Shays. Pressley. I'm sorry. I apologize.
    Mr. Pressley. That's quite all right.
    Mr. Shays. Let me get it correct. Your name is Hugh 
Pressley, Jr., and you're from the Bronx?
    Mr. Pressley. Correct, Bronx, NY.
    Mr. Shays. It's nice to have you here, sir.
    Mr. Pressley. It's glad to be here.
    Mr. Shays. Thank you for coming.

     STATEMENT OF HUGH A. PRESSLEY, JR., VETERAN, BRONX, NY

    Mr. Pressley. I've got a couple of questions I'd like to 
ask. One, is it possible that this can be continued also in the 
city because there are a lot of veterans that are being heard 
here and there's a lot more that I know that want to be heard 
in the city? You get a tremendous turnout because they have a 
lot of issues as well.
    I'm a veteran, aerial veteran, of Vietnam. I served for 2 
years. I came back. I did my time, had a job, the whole nine. 
And recently I've become homeless.
    And I've noticed not none of the homeless veterans have 
been represented or even heard from. A lot of these 
organizations that's out here, they're claiming to represent 
veterans, but they're not. All they're interested in is 
numbers. And the minute you have a gripe or you have a problem, 
whatever the case may be, you're shoved to the side or they 
tell you, ``Well, you've got a problem. We'll get to it.'' And 
it would be real nice if that would be looked into.
    Also I think if anybody is going to represent us, they 
should at least be a veteran. That should be one of the 
criteria for representing a veteran, especially if you're in a 
position where you're going to be taking funds from the 
veterans. You ought to at least know some of our needs before 
you start taking our funds.
    That's all I've got to say.
    Mr. Shays. Thank you, sir. [Applause.]
    Before we conclude this hearing, I want to thank the Town 
of Walkill; in particular, the police department. It started 
out rather ominously for me. When I walked in, the police 
officer said that he wanted to make an announcement to tell you 
all that you needed to be under control. I thought, ``My God. I 
don't usually have a police officer opening my hearings telling 
you all not to riot.''
    I'd also like to thank our court reporter, Ed Johns, for 
helping us out today; and our sound system, Jim and Greg of 
Thunder Sound Productions; and also our clerk, Jared Carpenter.
    We're going to conclude by my thanking you for being here, 
for your patience during the day. We got through it quite well. 
And I learned that you guys are in charge and I just have to 
follow orders.
    Audience Participant. That's right.
    Mr. Shays. It took a while for me to get that.
    At this time I'm going to recognize Sue Kelly.
    Ms. Kelly of New York. Thank you. I really want to thank 
you all for staying as long as you have.
    The purpose of this, as I said before, is to try and help 
all of us to understand the net effect of VERA on the veterans 
in this area. We want to make sure that we get for our veterans 
high-quality patient-centered health care. I believe that we 
can do that. I believe it's something that is available to us 
if we just all work together.
    And we needed the input we heard today. We will do 
something with it on Capital Hill, I guarantee you. Congressman 
Shays is here to prove that.
    Thank you.
    Mr. Shays. Thank you. [Applause.]
    At this time I'd like to call on Maurice Hinchey. And then 
we'll go to Ben. Thank you.
    Mr. Hinchey. Well, Chris, I just want to thank you for 
coming over here from Connecticut and holding this hearing. I 
want to thank Ben Gilman for initiating it. I think it has been 
very interesting and informative. And I want to thank all of 
you who have been here for the duration as well as everyone who 
spoke and left. I think it has been a productive afternoon. I'm 
very glad that I had the opportunity to be here.
    Now we have to make sure that the Veterans Administration, 
first of all, has the funding it needs to carry out its 
responsibilities and, given that funding, that it does the job 
it's supposed to do.
    Thank you very much.
    Mr. Shays. Thank you. [Applause.]
    And, Mr. Gilman, sir, you have the last word.
    Mr. Gilman. Well, Chris Shays, we thank you for bringing 
the committee to Orange County so that Sue Kelly and Maurice 
Hinchey and myself could bring our veterans together and get 
the benefit of their thinking and share their views.
    We're so thankful that Jim Farsetta from the region and 
Mary Musumeci--did I get it right that time, Mary--and Mr. Sabo 
have stayed throughout to listen, to learn. And Dr. Wilson is 
still here also. I didn't notice Dr. Wilson staying that long. 
But these are the key people. And they have heard your views.
    Your Congressmen and Congresswoman have heard your views. 
We're going to put them to good use now as we meet further with 
our regional directors and the veterans' officials to make 
certain that we try to correct some of the imperfections and 
try to work together to preserve two good hospitals that we all 
have a great deal of pride in: Castle Point and Montrose.
    Now, I can't thank you enough, those of you who have 
lingered this long to give us the benefit of your thinking. And 
to our staffs who are here, we thank you. And our police 
officers, who have helped us to try to keep a little orderly 
conduct here, we appreciate your sticking with us.
    Chris Shays, we can't thank you enough for coming all the 
way over from Connecticut to conduct this hearing. And we 
really appreciate everyone's partaking in this issue.
    Thanks for being here. And God bless.
    Mr. Shays. Thank you. [Applause.]
    God bless. This hearing is adjourned.
    [Whereupon, at 6 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
